<html>
<title> - REFORESTATION PROBLEMS ON NATIONAL FORESTS: A GAO REPORT ON THE INCREASING BACKLOG</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
   REFORESTATION PROBLEMS ON NATIONAL FORESTS: A GAO REPORT ON THE 
                          INCREASING BACKLOG

=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                       Wednesday, April 27, 2005

                               __________

                           Serial No. 109-10

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-970                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Devin Nunes, California              Mark Udall, Colorado
Henry Brown, Jr., South Carolina     Dennis Cardoza, California
Thelma Drake, Virginia               Stephanie Herseth, South Dakota
Luis G. Fortuno, Puerto Rico
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                     GREG WALDEN, Oregon, Chairman
             TOM UDALL, New Mexico, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Wayne T. Gilchrest, Maryland         Neil Abercrombie, Hawaii
Chris Cannon, Utah                   Dan Boren, Oklahoma
John E. Peterson, Pennsylvania       Peter A. DeFazio, Oregon
Thomas G. Tancredo, Colorado         Jay Inslee, Washington
J.D. Hayworth, Arizona               Mark Udall, Colorado
Jeff Flake, Arizona                  Dennis Cardoza, California
Rick Renzi, Arizona                  Stephanie Herseth, South Dakota
Henry Brown, Jr., South Carolina     Nick J. Rahall II, West Virginia, 
Cathy McMorris, Washington               ex officio
Richard W. Pombo, California, ex 
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Wednesday, April 27, 2005........................     1

Statement of Members:
    Udall. Hon. Tom, a Representative in Congress from the State 
      of New Mexico..............................................     3
        Prepared statement of....................................     4
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Franklin, Dr. Jerry, College of Forest Resources, University 
      of Washington..............................................    52
        Prepared statement of....................................    54
    Holtrop, Joel, Deputy Chief, National Forest System, U.S. 
      Department of Agriculture..................................    23
        Prepared statement of....................................    25
    Kane, Kenneth, Society of American Foresters, Kane, 
      Pennsylvania...............................................    47
        Prepared statement of....................................    50
    Nazzaro, Robin, Director, Natural Resources and Environment, 
      U.S. Government Accountability Office......................     5
        Prepared statement of....................................     7
    Schlarbaum, Dr. Scott, Department of Forestry, Wildlife, and 
      Fisheries, University of Tennessee.........................    42
        Prepared statement of....................................    44
    Shepard, Ed, Assistant Director, Renewable Resources and 
      Planning, Bureau of Land Management, U.S. Department of the 
      Interior...................................................    29
        Prepared statement of....................................    31

Additional materials supplied:
    Anderson, Dale E., President, Pennsylvania Forest Industry 
      Association, Letter submitted for the record...............    62
    The Forest Foundation, Statement submitted for the record by 
      Michelle Dennehy...........................................    63
    Sexton, George, Conservation Director, Klamath Siskiyou 
      Wildlands Center, Letter submitted for the record..........    66


OVERSIGHT HEARING ON REFORESTATION PROBLEMS ON NATIONAL FORESTS: A GAO 
                    REPORT ON THE INCREASING BACKLOG

                              ----------                              


                       Wednesday, April 27, 2005

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:25 p.m., in 
Room 1324, Longworth House Office Building, Hon. Greg Walden 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Walden, Gilchrest, Peterson, 
Renzi, Brown, Tom Udall, DeFazio, and Herseth.

STATEMENT OF THE HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Walden. The Subcommittee on Forests and Forest Health 
will come to order. The Subcommittee is meeting today to hear 
testimony on ``Reforestation Problems on National Forests: A 
GAO Report on the Increasing Backlog.''
    Under Committee Rule 4(g), the Chairman and the Ranking 
Minority Member may make opening statements. If any other 
Members have statements, they can be included in the hearing 
record under unanimous consent.
    That we are celebrating our 131st Arbor Day this Friday 
reminds us that tree planting and reforestation are issues near 
and dear to the American people. As Europeans initially 
migrated to our continent, a typical consequence of that 
settlement was deforestation, primarily as a consequence of the 
conversion of forests to cropland. The large majority of 
Americans during the first three centuries of our history were 
farmers. Between 1850 and 1910, Americans cleared more than 190 
million acres of forests for crops and pasture, while using 
wood for cooking and heating, home construction, and fence 
building.
    During that time, lumber production grew at twice the rate 
as the population. By 1850, more than 90 percent of the 
Nation's energy came from wood. In addition, during the 18th 
century, virtually all iron produced in the country was smelted 
using wood charcoal. By 1900, over 15 million acres of forest 
land were needed just for the production of railroad ties and 
trestles. Without exaggeration we can say that America was 
built on wood--but not without cost. Forest depletion in the 
East was rampant. One traveler wrote in the early 1800s that he 
passed only about 20 miles of woodland on the 240-mile trip 
between Boston and New York. Over time, the resulting impacts 
on wildlife populations and water quality became painfully 
obvious.
    Much of America's conservation movement sprouted out of the 
growing awareness of the economic and environmental impacts of 
deforestation. Names such as Fernow, Roosevelt, and Pinchot and 
other organizations such as the American Forestry Association 
and the Boone and Crockett Club encouraged the reforestation 
and productive management of private forest lands through tax 
incentives and financial assistance, promoted forest research 
and the creation of college forestry curricula, helped adopt 
wildlife conservation laws and promoted the protection and wise 
use of forests through the creation of Federal forest reserves 
and the establishment, exactly 100 years ago, of the United 
States Forest Service. By the 1920s, the 300-year loss of 
American forest land had virtually stopped. Today, even with 
the large increase in population, we have about the same number 
of forested acres than we did in 1920.
    Even with these successes and even though our knowledge of 
forestry and reforestation has grown significantly in the last 
100 years, we still find that important issues need to be 
addressed. Once again, the GAO has aptly assisted our committee 
in understanding the essential aspects of this subject through 
the report it is issuing today. In particular, the estimated 
backlog of reforestation and timber stand improvement needs, 
primarily on national forests, is addressed in this report. The 
main reason for today's hearing, therefore, is to shed light on 
how the backlog is determined, why it is increasing, and how 
reforestation is funded and potential solutions for addressing 
reforestation and timber stand improvement concerns.
    While reforestation issues, like all forest issues, are 
complex, most Americans have learned the importance of keeping 
our national forests forested--for wildlife, for water quality, 
for scenic beauty, and all the other values that growing, 
diverse forests provide. I look forward to hearing what the 
GAO, the agencies, our visiting forest professionals, and 
others have to offer on this important subject.
    [The prepared statement of Mr. Walden follows:]

           Statement of The Honorable Greg Walden, Chairman, 
               Subcommittee on Forests and Forest Health

    That we are celebrating our 131st Arbor Day this Friday, reminds us 
that tree-planting and reforestation are issues near and dear to the 
American people. As Europeans initially migrated to our continent a 
typical consequence of that settlement was deforestation, primarily as 
a consequence of the conversion of forests to cropland. The large 
majority of Americans, during the first three centuries of U.S. 
history, were farmers. Between 1850 and 1910, Americans cleared over 
190 million acres of forests for crops and pasture, while using wood 
for cooking and heating, home construction and fence building.
    During that time, lumber production grew at twice the rate as the 
population. By 1850 more than 90% of the nation's energy came from 
wood. In addition, during the 18th century, virtually all iron produced 
in the country was smelted using wood charcoal. By 1900, over 15 
million acres of forest land were needed just for the production of 
railroad ties and trestle. Without exaggeration we can say that America 
was built on wood---but not without cost. Forest depletion in the East 
was rampant. One traveler wrote in the early 1800's that he passed only 
about 20 miles of woodland on the 240-mile trip between Boston and New 
York. Over time, the resulting impacts on wildlife populations and 
water quality became painfully obvious.
    Much of America's conservation movement sprouted out of the growing 
awareness of the economic and environmental impacts of deforestation. 
Names such as Fernow, Roosevelt, and Pinchot and organizations such as 
the American Forestry Association and the Boone and Crockett Club 
encouraged the reforestation and productive management of private 
forest lands through tax incentives and financial assistance, promoted 
forest research and the creation of college forestry curricula, helped 
adopt wildlife conservation laws and promoted the protection and wise-
use of forests through the creation of federal forest reserves and the 
establishment, exactly 100 years ago, of the Forest Service. By the 
1920s, the 300-year loss of American forest land had virtually stopped. 
Today, even with the large increase in population, we have about the 
same number of forested acres than we did in 1920.
    Even with these successes and even though our knowledge of forestry 
and reforestation has grown significantly in the last hundred years, we 
still find that important issues need to be addressed. Once again, the 
GAO has aptly assisted the Committee in understanding essential aspects 
of this subject through the report it's issuing today. In particular, 
the estimated backlog of reforestation and timber stand improvement 
needs, primarily on national forests, is addressed in their report. The 
main reason for today's hearing, therefore, is to shed light on how the 
backlog is determined, why it's increasing, how reforestation is funded 
and potential solutions for addressing reforestation and timber stand 
improvement concerns.
    While reforestation issues, like all forest issues, are complex, 
most Americans have learned the importance of keeping our national 
forests forested, for wildlife, water quality, scenic beauty and all 
the other values that growing, diverse forests provide. I look forward 
to hearing what the GAO, the agencies, and our visiting forest 
professionals have to offer on this important subject.
                                 ______
                                 
    Mr. Walden. I now recognize my friend from New Mexico, Mr. 
Udall, the Ranking Minority Member, for any statement he may 
have.

 STATEMENT OF THE HON. TOM UDALL, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW MEXICO

    Mr. Tom Udall. Thank you, Mr. Chairman. I would like to 
welcome our witnesses and am looking forward to hearing from 
them today about reforestation issues on our public lands. In 
anticipation of Arbor Day, there could not be a more 
appropriate time for this Subcommittee to look at 
reforestation.
    In April 1885, J. Sterling Morton, the founder of Arbor Day 
and a resident of Nebraska, delivered the following address to 
the schoolchildren and townspeople of Nebraska City to mark the 
first official Arbor Day, and I quote: ``Each generation of 
humanity takes the Earth as trustees to hold until the court of 
death dissolves the relation, and turns the property over to 
successors in trust. To each generation, the trust involves the 
duty of at least permitting no deterioration in the great 
estate of the family of man. During the continuance of the 
temporary trust, comprehending thus the dependence of animal 
life upon contemporaneous plant life, it must be conceded that 
we ought to bequeath to posterity as many forests and orchards 
as we have exhausted and consumed.''
    There is not a more basic act of stewardship and 
conservation than planting a tree. Trees root us in the earth 
while they grow to provide shelter and shade. Forests provide 
clean water, wildlife habitat, and places of recreation and 
refuge for all of us.
    Given our link to the forests, I am troubled by the recent 
GAO report indicating a growing backlog of reforestation needs 
on our national forests. Over time, the Forest Service 
estimates of reforestation needs have fluctuated significantly. 
For example, after having a significant backlog, the Forest 
Service in 1985 declared that the reforestation backlog had 
been virtually eliminated. However, in March 2004, the agency 
again declared that it had a backlog of about 900,000 acres of 
land in need of reforestation.
    I am concerned that, like previous GAO reports, this GAO 
report again finds that the Forest Service lacks sufficient 
data to accurately quantify reforestation needs. I also draw 
attention to previous GAO reports and attention from Congress 
about the use of the various funds for reforestation projects. 
In 1998, the GAO reviewed the Knutson-Vandenberg Reforestation 
Fund and found that up to 30 percent of the fund was being 
charged to indirect expenses.
    I look forward to hearing hard numbers from the Forest 
Service today about where the money is being spent out of the 
various reforestation funds and specifically the Knutson-
Vandenberg Fund. I would also like to draw attention to the 
importance of prioritization of reforestation projects and the 
use of ecological principles in reforestation. Our 
understanding about the dynamic nature of forest ecosystem has 
evolved since the days of tree plantations. I look forward to 
hearing the testimony of Dr. Jerry Franklin about these issues.
    Again, thank you, Mr. Chairman, and I look forward to 
hearing from our witnesses today.
    [The prepared statement of Mr. Udall of New Mexico follows:

Statement of The Honorable Tom Udall, a Representative in Congress from 
                        the State of New Mexico

    Thank you, Mr. Chairman. I would like to welcome our witnesses and 
am looking forward to hearing from them about reforestation issues on 
our public lands.
    In anticipation of Arbor Day, there couldn't be a more appropriate 
time for this subcommittee to look at reforestation.
    In April 1885, J. Sterling Morton, the founder of Arbor Day and a 
resident of Nebraska, delivered the following address to the school 
children and townspeople of Nebraska City to mark the first official 
Arbor Day:
        ``Each generation of humanity takes the earth as trustees to 
        hold until the court of Death dissolves the relation, and turns 
        the property over to successors in trust. To each generation 
        the trust involves the duty of, at least, permitting no 
        deterioration in the great estate of the family of man during 
        the continuance of the temporary trust. Comprehending thus the 
        dependence of animal life upon contemporaneous plant life, it 
        must be conceded that we ought to bequeath to posterity as many 
        forests and orchards as we have exhausted and consumed.''
    There isn't a more basic act of stewardship and conservation than 
planting a tree. Trees root us in the earth while they grow to provide 
shelter and shade. Forests provide clean water, wildlife habitat, and 
places of recreation and refuge for all of us. Given our link to 
forests, I am troubled by the recent GAO report indicating a growing 
backlog of reforestation needs on our national forests.
    Over time, the Forest Service's estimates of reforestation needs 
have fluctuated significantly. For example, after having a significant 
backlog, the Forest Service in 1985 declared that the reforestation 
backlog had been virtually eliminated. However, in March 2004 the 
agency again declared that it had a backlog of about 900,000 acres of 
land in need of reforestation.
    I am concerned that like previous GAO reports, this GAO report 
again finds that the Forest Service lacks sufficient data to accurately 
quantify reforestation needs. I also draw attention to previous GAO 
reports and attention from Congress about the use of the various funds 
for reforestation projects. In 1998, the GAO reviewed the Knutson-
Vandenberg Reforestation Fund and found that up to 30% of the fund was 
being charged to indirect expenses. I look forward to hearing hard 
numbers from the Forest Service today about where the money is being 
spent out of the various reforestation funds, and specifically the 
Knutson-Vandenberg Fund.
    I would also like to draw attention to the importance of 
prioritization of reforestation projects, and the use of ecological 
principles in reforestation. Our understanding about the dynamic nature 
of forest ecosystems has evolved since the days of tree plantations. I 
look forward to hearing from the testimony of Dr. Jerry Franklin about 
these issues.
    Again, thank you, Mr. Chairman, and I look forward to hearing from 
our witnesses today.
                                 ______
                                 
    Mr. Walden. Thank you, and thank you for your fine opening 
statement.
    The Chair recognizes the gentleman from Maryland. Do you 
have any comments?
    Mr. Gilchrest. No. Thank you.
    Mr. Walden. The gentlelady from South Dakota?
    Ms. Herseth. No. Thank you.
    Mr. Walden. OK. Then we will ask our first panel of 
witnesses to come forth. Today we have Ms. Robin Nazzaro, 
Director of Natural Resources and Environment, U.S. Government 
Accountability Office, as our first witness. We appreciate your 
participation here. I guess I am supposed to swear you in. So 
why don't we go ahead and do that.
    [Witness sworn.]
    Mr. Walden. Thank you. We certainly welcome you back to our 
committee and appreciate the work of your fine agency in 
evaluating these issues and look forward to hearing your 
testimony before our Subcommittee. So welcome.

STATEMENT OF ROBIN M. NAZZARO, DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Nazzaro. Thank you, Mr. Chairman and members of the 
Subcommittee. I am pleased to be here today to discuss the 
reforestation and timber stand improvement program within the 
Department of Agriculture's Forest Service.
    Last March, the agency reported to this Subcommittee that 
it had a backlog of nearly 900,000 acres of land needing 
reforestation. Reforestation, whether it is achieved by 
planting trees or letting them naturally regenerate, is 
critical to restoring and improving the health of our national 
forests after timber harvests as well as after natural 
disturbances, such as wildland fires, outbreaks of disease, or 
insect infestations.
    The success of reforestation efforts often depends upon 
subsequent timber stand improvement treatments such as removing 
competing vegetation to allow seedlings to survive. In some 
parts of the country, without active intervention, it may take 
decades for disturbed land to return to a forested condition. 
In other parts, trees may naturally return soon after a 
disturbance, but the type of regrowth may not be consistent 
with the Forest Service program objectives such as improving 
wildlife habitat, enhancing recreational opportunities, and 
ensuring timber production.
    My testimony summarizes the results of our report being 
released today on, one, the reported trends in Federal lands 
needing reforestation and timber stand improvement; two, 
factors that have contributed to these trends; and, three, 
potential effects of the trends that the Forest Service 
officials have identified.
    As shown on the chart on the screens, the reported acreage 
of Forest Service lands needing reforestation and timber stand 
improvements has been generally increasing during the past 5 
years. It might be a little hard to see, but the top line, the 
blue line, is the timber stand improvement needs, and the 
bottom red dashed line is the reforestation needs.
    Mr. Walden. Can you just tell me over what period that is?
    Ms. Nazzaro. It is a 10-year period starting 1994 to 2004.
    Mr. Walden. Thank you.
    Ms. Nazzaro. So you will see the biggest increase that we 
have identified is after the year 2000.
    While the Forest Service data are sufficiently reliable to 
identify these relative trends, we found that the data are not 
sufficiently reliable to accurately quantify the agency's 
specific treatment needs to establish priorities among 
treatments or to estimate a budget. Our reasons for concern 
include the fact that Forest Service regions and forests define 
their needs differently. Further, the differences in data among 
locations are compounded because the reforestation and timber 
stand improvement needs reported are a mixture of actual needs 
diagnosed through site visits and estimates. In addition, some 
regions do not systematically update their data to reflect 
current forest conditions or review their data's accuracy. 
Forest Service officials acknowledge these problems, and the 
agency is implementing a new data system to better track its 
needs. However, while helpful, taking this action alone will 
not resolve the data problems we have identified without making 
changes to agency policies and practices to standardize how 
reforestation and timber stand improvement needs are defined, 
reported, and validated.
    According to Forest Service officials, the need for 
reforestation since 2000 is mainly the result of the increasing 
acreage of land affected by natural disturbances such as 
wildland fires. However, funding sources to pay for such needs 
have remained relatively stable rather than rising in step with 
the increasing needs. In the past, the need for reforestation 
resulted primarily from timber harvests, and the timber sales 
produced enough revenue to pay for most of the related 
reforestation.
    Regarding the need for timber stand improvement, agency 
officials said that these needs are increasing in part because 
managers in some forest regions do not emphasize these 
treatments. They believe that reforestation treatments, which 
generally must be completed within 5 years after harvesting 
trees, are more important that timber stand improvement 
treatments. Another reason for the reported increase in the 
acreage needing timber stand improvement is that high-density 
planting practices used in the past to replace harvested trees 
are creating the need for thinning treatments today.
    If future reforestation and timber stand improvement needs 
continue to outpace the Forest Service's ability to meet these 
needs and treatments are delayed, agency officials believe 
their ability to achieve forest management objectives such as 
protecting wildlife habitat may be impaired; treatment costs 
could increase; and forests could become more susceptible to 
fire, disease, and insect damage. While Forest Service 
officials express concern about these potential harmful effects 
of delaying projects, the agency has not adjusted its policies, 
practices, and priorities to reflect this concern and the 
current environment of constrained budgets.
    In our report, we recommended that the Secretary of 
Agriculture direct the Chief of the Forest Service to take 
several actions to improve the agency's ability to identify its 
needs for reforestation and timber stand improvement and ensure 
funding for the most critical projects. In commenting on a 
draft of our report, the Forest Service agreed with our 
findings and recommendations and stated that it was preparing 
an action plan to address the recommendations.
    Mr. Chairman, this concludes my statement. I would be happy 
to respond to any questions that you or members of the 
Subcommittee may have.
    [The prepared statement of Ms. Nazzaro follows:]

    Statement of Robin M. Nazzaro, Director, Natural Resources and 
           Environment, U.S. Government Accountability Office

    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to discuss several issues related to 
the reforestation and timber stand improvement program within the 
Department of Agriculture's Forest Service. Last March, the agency 
reported to this Subcommittee that it had a backlog of nearly 900,000 
acres of land needing reforestation. Reforestation, whether it is 
achieved by planting trees or letting them naturally regenerate, is 
critical to restoring and improving the health of our national forests 
after timber harvests, as well as after natural disturbances such as 
wildland fires, outbreaks of disease, or insect infestations. The 
success of reforestation efforts, as well as the overall health of the 
forests, often depends upon subsequent timber stand improvement 
treatments, such as removing competing vegetation to allow seedlings to 
survive. In some parts of the country, without active intervention, it 
may take decades for disturbed land to return to a forested condition. 
In other parts, trees may naturally return soon after a disturbance, 
but the type of regrowth may not be consistent with the Forest 
Service's program objectives, such as improving wildlife habitat, 
enhancing recreational opportunities, and ensuring timber production.
    My testimony summarizes the results of our report being released 
today on the (1) reported trends in federal lands needing reforestation 
and timber stand improvement, (2) factors that have contributed to 
these trends, and (3) potential effects of these trends that Forest 
Service officials have identified. <SUP>1</SUP> In conducting our 
review, we analyzed Forest Service data for 1995 through 2004, 
interviewed agency officials at all levels, and visited four regions 
with the largest reported reforestation or timber stand improvement 
needs. We focused on the Forest Service's reforestation and timber 
stand improvement program because this program, which covers 155 
national forests, is the largest one administered by a federal land 
management agency. In 2004, for example, the Forest Service reported 
reforesting more than 150,000 acres nationwide, while the Bureau of 
Land Management (BLM) within the Department of the Interior, which has 
the second-largest program, reported reforesting less than 20,000 
acres. While our work included a limited review of BLM's program, my 
testimony today centers on our findings about the Forest Service's 
program because we found no significant issues to report concerning 
BLM.
---------------------------------------------------------------------------
    \1\ GAO, Forest Service: Better Data Are Needed to Identify and 
Prioritize Reforestation and Timber Stand Improvement Needs, GAO-05-374 
(Washington D.C.: April 15, 2005).
---------------------------------------------------------------------------
Summary
    The acreage of Forest Service lands needing reforestation and 
timber stand improvement has been generally increasing since 2000, 
according to Forest Service officials and data reported to the 
Congress, as well as other studies. Much of the increase in 
reforestation needs occurred in western regions, where needs associated 
with natural disturbances, such as wildland fires, began to increase 
dramatically in 2000. While the Forest Service data are sufficiently 
reliable to identify this relative trend, they are not sufficiently 
reliable to accurately quantify the agency's specific treatment needs, 
establish priorities among treatments, or estimate a budget. The data 
are limited in part because Forest Service regions and forests define 
their needs differently, and some do not systematically update their 
data to reflect current forest conditions or review their data's 
accuracy. Forest Service officials acknowledge these problems, and the 
agency is implementing a new data system to better track its needs. 
However, while helpful, taking this action alone will not resolve the 
data problems we have identified without making changes to agency 
policies and practices to standardize how reforestation and timber 
stand improvement needs are defined, reported, and validated.
    According to Forest Service officials, reforestation needs are 
accumulating because of the increasing acreage of land affected by 
natural disturbances--such as wildland fires, insect infestation, and 
diseases. In the past, reforestation needs resulted primarily from 
timber harvests, and timber sales produced enough revenue to pay for 
most of the related reforestation needs. Since 2000, however, needs 
have been resulting mainly from natural disturbances, and funding 
sources to pay for such needs have remained relatively stable rather 
than rising in step with the increasing needs. For timber stand 
improvement, agency officials said that needs are increasing in part 
because managers in some Forest Service regions do not emphasize these 
treatments. They believe reforestation treatments--which generally must 
be completed within 5 years after harvesting trees--are more important 
than timber stand improvement treatments. Another reason for the 
reported increase in the acreage needing attention is that high-density 
planting practices, used in the past to replace harvested trees, are 
creating needs for thinning treatments today.
    If future reforestation and timber stand improvement needs continue 
to outpace the Forest Service's ability to meet these needs and 
treatments are delayed, agency officials believe their ability to 
achieve forest management objectives, such as protecting wildlife 
habitat, may be impaired; treatment costs could increase; and forests 
could become more susceptible to fire, disease, and insect damage. For 
example, forest management objectives could be impaired if an area 
previously dominated by forests became dominated by shrub fields, 
compromising wildlife habitat, recreation, and timber value. While 
Forest Service officials expressed concern about these potential 
harmful effects of delaying projects, the agency has not adjusted its 
policies, practices, and priorities for the reforestation and timber 
stand improvement program to reflect this concern and the current 
environment of constrained budgets. Forest Service officials did 
acknowledge the need to make such changes.
    In our report, we recommended that the Secretary of Agriculture 
direct the Chief of the Forest Service to take several actions to 
improve the agency's ability to identify its reforestation and timber 
stand improvement needs and ensure funding for its most critical 
projects. In commenting on a draft of our report, the Forest Service 
agreed with our findings and recommendations and stated it was 
preparing an action plan to address the recommendations.

Background
    Historically, the Forest Service's reforestation and timber stand 
improvement program focused on maximizing timber production. Now, 
however, the program is intended to achieve a variety of objectives, 
such as improving wildlife habitat, maintaining water quality, and 
ensuring sustainable timber production. To achieve these objectives 
after timber harvests or natural events that damage forests, Forest 
Service staff identify sites needing reforestation and plan specific 
treatments. For reforestation, staff either plant seedlings or allow 
the sites to regenerate naturally as existing trees reseed the area. 
The latter approach sometimes requires the sites to be prepared by 
removing unwanted vegetation that could compete with young seedlings. 
As with reforestation, Forest Service staff identify areas of a forest 
needing timber stand improvement and plan specific treatments. These 
treatments are intended to provide better growing conditions for trees 
and include activities such as removing competing vegetation and 
thinning forests when trees are too crowded.
    In 1974, the Forest Service reported a reforestation and timber 
stand improvement backlog affecting 3.3 million acres of forested 
lands. To address this backlog, the Congress included a provision in 
the National Forest Management Act of 1976 (NFMA) requiring the Forest 
Service to annually report the estimated funding needed to prevent the 
recurrence of a backlog on lands available for timber production. 
<SUP>2</SUP> The Forest Service primarily uses moneys generated from 
the sale of timber to reforest areas where timber has been harvested, 
whereas it relies primarily on annual appropriations to reforest areas 
affected by natural disturbances. In 1980, the Congress created the 
Reforestation Trust Fund, which is funded through tariffs on imported 
wood products, to provide dedicated funding for reforestation and 
timber stand improvement treatments and to help eliminate the backlog. 
In 1985, the Forest Service declared that it had virtually eliminated 
the backlog reported in 1974.
---------------------------------------------------------------------------
    \2\ Shortly after the Forest Service reported its backlog, the 
Congress enacted the Forest and Rangeland Renewable Resources Planning 
Act of 1974, requiring the Forest Service to annually request funds for 
an orderly program to eliminate backlogs in all Forest Service 
renewable resource programs. This act was amended by NFMA, which 
contains more specific direction to address the elimination of 
reforestation backlogs.
---------------------------------------------------------------------------
    The Forest Service's implementation, management, and oversight of 
the reforestation and timber stand improvement program are 
decentralized. Its headquarters and 9 regional offices establish policy 
and provide technical direction to 155 national forest offices on 
various aspects of the program. District office staff within these 
national forests are responsible for assessing reforestation and timber 
stand improvement needs, planning treatments to address the needs, and 
accomplishing the treatments. Although the Forest Service's Director of 
Forest Management in headquarters is responsible for reporting agency-
wide reforestation and timber stand improvement needs to the Congress, 
the standards and procedures for collecting and reporting these data 
are decentralized.

Forest Service Reports Increasing Reforestation and Timber Stand 
        Improvement Needs, but Inconsistent Definitions and Data Make 
        It Difficult to Accurately Quantify Its Needs
    Forest Service reports to the Congress show a generally increasing 
trend in reforestation and timber stand improvement needs during the 
last 5 years, as shown in figure 1. While the Forest Service data are 
sufficiently reliable to identify this relative trend, they are not 
sufficiently reliable to accurately quantify the agency's specific 
needs, establish priorities among treatments, or estimate a budget. 
Although the Forest Service is developing a new national data system, 
the agency does not anticipate making significant changes to its 
policies and practices to improve the quality of the data.
[GRAPHIC] [TIFF OMITTED] T0970.001


The Forest Service Reports Increasing Needs
    Forest Service reports to the Congress show that the acreage of 
agency lands needing reforestation declined steadily between Fiscal 
Years 1995 and 1999 but then steadily increased from 2000 through 2004. 
Much of the recent increase in reforestation needs occurred in Forest 
Service regions located in western states. Officials from three of the 
four regions we visited (the Northern, Pacific Northwest, and Pacific 
Southwest Regions) expressed concern about the increasing level of 
their reforestation needs relative to their future ability to meet 
these needs. With respect to timber stand improvement needs, the Forest 
Service reports that the acreage of its lands needing such treatments 
increased most years since 1995. While nationwide timber stand 
improvement needs generally have been increasing, some regions have 
reported stable or decreasing trends. For example, the Pacific 
Southwest Region has reported slightly decreasing needs since 1995, 
which agency officials attribute in part to an emphasis on thinning 
treatments associated with the National Fire Plan. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ In 2001, the Departments of Agriculture and the Interior 
developed a National Fire Plan with state and local agencies and tribal 
governments to provide technical and financial resources to reduce the 
risk to communities and ecosystems from wildland fire, in part, by 
reducing hazardous fuels by thinning trees--one type of timber stand 
improvement treatment.
---------------------------------------------------------------------------
Forest Service Data Are Not Sufficient to Accurately Quantify the 
        Agency's Needs
    The Forest Service's reforestation and timber stand improvement 
data, when combined with other information from Forest Service 
officials and nongovernmental experts--as well as data on recent 
increases in natural disturbances such as wildland fires--are 
sufficiently reliable for identifying relative trends in needs. 
However, we have concerns about the use of these data in quantifying 
the acreage of Forest Service lands needing reforestation and timber 
stand improvement treatments for several reasons.
    <bullet>  First, Forest Service regions and forests define their 
needs differently. For example, the Pacific Southwest Region reports 
reforestation needs in areas where it anticipates a timber harvest, 
even though the forest is still fully stocked with trees, while other 
regions we visited do not report a need until after the timber is 
harvested.
    <bullet>  Second, differences in Forest Service data among 
locations are compounded because the reforestation and timber stand 
improvement needs reported are a mixture of actual needs diagnosed 
through site visits and estimates. In cases where the needs are based 
on estimates--for example after a wildland fire--the reported needs may 
not always be adjusted after the actual needs are known.
    <bullet>  Third, Forest Service regions do not always update the 
data to reflect current forest conditions or review the accuracy of the 
data. Moreover, some regions cannot link reported needs to distinct 
forest locations, making it difficult for them to detect obsolete needs 
and update the data.
    <bullet>  Finally, Forest Service headquarters staff have not 
conducted reviews in the last decade to ensure that the data reflect 
on-the-ground conditions.
    These inconsistencies in data and data quality mean that the needs 
reported at the regional level may be understated or overstated and 
cannot be meaningfully aggregated at the national level. Moreover, many 
of these data problems are long-standing and may not be adequately 
addressed when the Forest Service implements a new data system later 
this year. Although the new system will replace individual district, 
forest, and regional systems for reporting needs with a modern agency-
wide database, the quality of the data used in the new system will not 
improve unless the Forest Service addresses how reforestation and 
timber stand improvement needs are defined, interpreted, and reported. 
Forest Service officials acknowledge these problems and are preparing 
an action plan to address them.

Agency Officials Link Natural Causes and Management Decisions to 
        Increasing Reforestation and Timber Stand Improvement Needs
    Forest Service officials told us that reforestation needs have been 
rising largely because such needs have increasingly been generated by 
causes other than timber harvests, and funding to address these needs 
has not kept pace. During the early 1990s, the agency shifted its 
management emphasis from timber production to enhancing forest 
ecosystem health and, as a result, harvested less timber. Timber 
harvests, which provided sufficient revenue to pay for related 
reforestation needs, are no longer the main source of such needs. 
According to Forest Service reports, beginning around 2000, the acreage 
burned in wildland fires and damaged by insects and diseases annually 
began to increase significantly, leaving thousands of acres needing 
reforestation. Nationally, wildland fires burned over 8 million acres 
in 2000, compared with about 2.3 million acres in 1998. <SUP>4</SUP> 
Similarly, the amount of land damaged by insects and diseases increased 
significantly, with over 12 million acres of forest affected in 2003, 
compared with less than 2 million acres in 1999. As the acreage 
affected by these natural disturbances increased, so did reforestation 
needs. However, funding allocated to pay for reforestation did not 
increase at the same rate, so needs began to accumulate.
---------------------------------------------------------------------------
    \4\ These numbers include lands under federal and state ownership, 
not just Forest Service land.
---------------------------------------------------------------------------
    For timber stand improvement, agency officials said that management 
practices have been the primary factor contributing to the increase in 
acreage needing treatment. For example, some regions prioritize funding 
for reforestation treatments over timber stand improvement treatments 
and consequently do not treat timber stand improvement needs as quickly 
as they are accumulating. These regions follow this practice in part 
because they are required to complete reforestation treatments within 5 
years of harvesting, whereas for timber stand improvement, there is no 
such requirement. National timber stand improvement needs also are 
increasing because the Forest Service has expanded the scope of the 
program, now identifying lands where timber stand improvement work is 
needed to meet objectives beyond maximizing timber yield, such as 
improving wildlife habitats or thinning hazardous fuels to reduce fire 
danger. As the objectives of timber stand improvement have expanded, 
needs have expanded accordingly. Finally, nationwide timber stand 
improvement needs are increasing because reforestation techniques 
favored in the 1980s and 1990s recommended planting trees much more 
densely than may be currently recommended so that as the trees grew, 
the agency could keep the largest and healthiest of them for 
cultivating, and thin out the others. Consequently, many stands that 
were planted 15 or 20 years ago now need thinning, according to agency 
officials.

Agency Officials Cite Adverse Effects That Could Result If Needs Are 
        Not Addressed, but Have Not Positioned the Agency to Manage 
        Such Effects
    If reforestation and timber stand improvement needs continue to 
accumulate in the future and the Forest Service is unable to keep pace 
with the needs, the agency will likely have to postpone some treatment 
projects. According to agency officials, the agency's ability to 
achieve forest management objectives may consequently be impaired; 
treatment costs could increase; and forests could become more 
susceptible to fire, disease, and insect damage. While Forest Service 
officials expressed concern about the potential harmful effects of 
delaying projects, the agency has not clarified its direction and 
priorities for the reforestation and timber stand improvement program 
to reflect this concern and the current context in which the program 
operates.

Achievement of Management Objectives Could Be Impaired; Treatment Costs 
        Could Increase; and Forests Could Become More Vulnerable to 
        Fire, Insects, and Disease
    The Forest Service's ability to meet the management objectives 
defined in its forest plans <SUP>5</SUP>--such as maintaining a variety 
of tree species in a forest or appropriate habitat for certain 
wildlife--could be impaired if reforestation or timber stand 
improvement treatments are delayed. For example, an area previously 
dominated by forests could become dominated by shrubfields, 
compromising wildlife habitat, recreation, and timber value. Such a 
situation developed in the Tahoe National Forest, where about 750 acres 
were cleared by a 1924 wildland fire and replaced by shrubs that 
remained until agency officials replanted the area in 1964--40 years 
later.
---------------------------------------------------------------------------
    \5\ Under NFMA, each national forest is required to have a forest 
management plan describing the agency's objectives for the forest, 
including those related to reforestation and timber stand improvement.
---------------------------------------------------------------------------
    If reforestation and timber stand improvement needs are not 
addressed in a timely manner, treatment costs also could increase 
because removing competing vegetation, which is required for most 
reforestation and timber stand improvement projects, will become more 
costly as the vegetation grows. In addition, forests would likely 
become more susceptible to severe wildland fires and damage from 
insects and disease, according to agency officials. When reforestation 
needs are left unattended, brush can grow in place of forests, 
providing dense, continuous fuel for wildland fires. When thinning 
needs are left unattended, experts believe the tightly-spaced trees 
fuel wildland fires, causing the fires to spread rapidly and increasing 
the likelihood of unusually large fires that create widespread 
destruction. In addition, densely populated forests tend to be stressed 
because the trees compete with one another for sunlight, water, and 
nutrients. When insects or diseases infect such forests, they can 
spread rapidly.

Forest Service Is Not Well Positioned to Manage Potential Effects of 
        Increasing Needs
    Although Forest Service officials expressed concern about the 
potential effects of leaving reforestation and timber stand improvement 
needs unattended, the agency has not made sufficient adjustments to 
address these concerns and adapt to the present context in which the 
program operates. Over the past decade, the Forest Service has shifted 
its management emphasis from timber production to ecosystem management, 
sources of reforestation needs have shifted from timber harvests to 
natural causes, and budgets have become increasingly constrained. The 
agency, however, has not adjusted the program's direction, policies, 
practices, and priorities in keeping with these changes, although 
agency officials acknowledged the need to do so.
    While the Forest Service formally shifted its management emphasis 
from timber production to ecosystem management in the early 1990s, 
there remains a lack of clarity about agency mission and goals, and 
more specifically, about the direction and goals for the reforestation 
and timber stand improvement program, according to agency officials. 
When timber production was the emphasis, program direction was clearly 
focused, whereas in the current environment, it is less so. 
Reforestation and timber stand improvement projects now are done for 
multiple purposes--such as improving wildlife habitat, protecting 
streams, and reducing susceptibility to wildland fires--but it is 
unclear which purposes are more important, if any, and how to allocate 
limited funds to support such diverse purposes. The lack of clarity is 
apparent in forest management plans, where objectives are expressed in 
vague or contradictory language, according to agency officials. The 
plans are intended to help guide decisions, such as which reforestation 
techniques to use, but agency officials said it can be difficult to 
interpret the plans because of the problematic language.
    In the absence of clear, up-to-date program direction, there are 
priorities, policies, and practices remaining in place that reflect 
outdated management emphasis. For example, a 2001 report had 
recommended that the Pacific Northwest region change its priorities by 
diverting some of its reforestation funds to pay for timber stand 
improvement. Doing so could help reduce the impacts of wildland fire, 
and thereby reduce the reforestation needs created by such fires, the 
report argued. Nevertheless, regional officials we talked with did not 
all agree with the recommendation, and the region has instead continued 
to prioritize reforestation over timber stand improvement as it has 
done since the inception of the timber program. Similarly, in the 
Pacific Southwest region, when officials reforest an area, they almost 
always rely on planting--a more expensive method than natural 
regeneration. This approach may have been appropriate when timber 
production was the emphasis and timber revenues were higher, because 
natural regeneration can be slower and less productive than planting. 
However, the region continues to avoid natural regeneration because 
they have always done so and, according to agency officials, this 
practice has been reinforced by the regional culture.

Conclusions
    Although the Forest Service annually reports its reforestation and 
timber stand improvement needs to the Congress, the agency has not 
developed a tally of these needs that accurately reflects the condition 
of our national forests. While we recognize that the systematic 
collection of accurate data may take resources away from reforestation 
and timber stand improvements in the short-term, such an investment 
could lay the foundation for the Forest Service to provide a credible 
picture of our forests' needs to the Congress. With the advent of a new 
agency-wide data collection system, the Forest Service has the 
opportunity to improve the consistency and accuracy with which its data 
reflect on-the-ground conditions in our national forests. Consistent, 
accurate data would help the agency to build a well-founded budget case 
for funding reforestation and timber stand improvement needs.
    However, the Forest Service must recognize that in the current, 
fiscally constrained environment, even well-supported needs may not 
always be funded. The agency needs to update its goals and policies for 
the reforestation and timber stand improvement program to reflect the 
current fiscal environment, as well as its current emphasis on 
ecosystem management. Until it does so, it will be difficult for the 
Forest Service to identify the best investments to minimize adverse 
effects on the lasting health and productivity of our national forests.
    To address these issues, we recommended in our report that the 
Secretary of Agriculture direct the Chief of the Forest Service to 
standardize guidance for reporting data on reforestation and timber 
stand improvement needs and improve the data's accuracy in time for 
congressional deliberation on the Forest Service's 2007 appropriations 
request. We further recommended that the Secretary direct the Chief to 
clarify the program direction and policies, and establish criteria for 
prioritizing the agency's use of program funds. The Forest Service, on 
behalf of the Department of Agriculture, concurred with our findings 
and recommendations.
    Mr. Chairman, this completes my prepared statement. I would be 
pleased to respond to any questions you or other Members of the 
Subcommittee may have at this time.

GAO Contacts and Staff Acknowledgments
    For further information about this testimony, please contact me at 
(202) 512-3841 or at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e688879c9c87948994a6818789c8818990c8">[email&#160;protected]</a> Bill Bates, David P. Bixler, 
Christy Colburn, Sandy Davis, Omari Norman, Cynthia Norris, Jena 
Sinkfield, and Jay Smale made key contributions to this statement.
GAO Highlights

Why GAO Did This Study
    In 2004, the Forest Service reported to the Congress that it had a 
backlog of nearly 900,000 acres of land needing reforestation--the 
planting and natural regeneration of trees. Reforestation and 
subsequent timber stand improvement treatments, such as thinning trees 
and removing competing vegetation, are critical to restoring and 
improving the health of our national forests after timber harvests or 
natural disturbances such as wildland fires.
    GAO was asked to (1) examine the reported trends in federal lands 
needing reforestation and timber stand improvement, (2) identify the 
factors that have contributed to these trends, and (3) describe any 
potential effects of these trends that federal land managers have 
identified. This testimony is based on GAO's report Forest Service: 
Better Data Are Needed to Identify and Prioritize Reforestation and 
Timber Stand Improvement Needs (GAO-05-374), being released today.

What GAO Recommends
    In its report, GAO recommended that the Secretary of Agriculture 
direct the Chief of the Forest Service to take several actions to 
improve the agency's ability to identify and prioritize its 
reforestation and timber stand improvement needs. In commenting on a 
draft of the report, the Forest Service agreed with GAO's findings and 
recommendations.

What GAO Found
    The acreage of Forest Service lands needing reforestation and 
timber stand improvement has been generally increasing since 2000, 
according to Forest Service officials and data reported to the 
Congress, as well as other studies. While the Forest Service data are 
sufficiently reliable to identify this relative trend, they are not 
sufficiently reliable to accurately quantify the agency's specific 
needs, establish priorities among treatments, or estimate a budget. The 
data's reliability is limited in part because some Forest Service 
regions and forests define their needs differently, and some do not 
systematically update the data to reflect current forest conditions or 
review the accuracy of the data. Forest Service officials acknowledge 
these problems, and the agency is implementing a new data system to 
better track its needs. While helpful, this action alone will not be 
sufficient to address the data problems GAO has identified.
    According to Forest Service officials, reforestation needs have 
been increasing in spite of declining timber harvests because of the 
growing acreage of lands affected by natural disturbances such as 
wildland fires, insect infestation, and diseases. In the past, 
reforestation needs resulted primarily from timber harvests, whose 
sales produced sufficient revenue to fund most reforestation needs. Now 
needs are resulting mainly from natural causes, and funding sources for 
such needs have remained relatively constant rather than rising in step 
with increasing needs. For timber stand improvement, the acreage 
needing attention is growing in part because high-density planting 
practices, used in the past to replace harvested trees, are creating 
needs for thinning treatments today and because treatments have not 
kept pace with the growing needs.
    Forest Service officials believe the agency's ability to achieve 
its forest management objectives may be impaired if future 
reforestation and timber stand improvement needs continue to outpace 
the agency's ability to meet these needs. For example, maintaining 
wildlife habitat--one forest management objective--could be hindered if 
brush grows to dominate an area formerly forested with tree species 
that provided forage, nesting, or other benefits to wildlife. Also, if 
treatments are delayed, costs could increase because competing 
vegetation--which must be removed to allow newly reforested stands to 
survive--grows larger over time and becomes more costly to remove. 
Further, without needed thinning treatments, agency officials said 
forests become dense, fueling wildland fires and creating competition 
among trees, leaving them stressed and vulnerable to insect attack and 
disease. While agency officials expressed concern about these potential 
effects, the agency has not adjusted its policies and priorities for 
the reforestation and timber stand improvement program so that adverse 
effects can be minimized. Forest Service officials did, however, 
acknowledge the need to make such changes.
                                 ______
                                 
    Mr. Walden. Thank you very much. We appreciate, again, the 
work of your agency in doing this research for us. It certainly 
helps guide us in our policymaking decisions, and every member 
of the Subcommittee has a copy of the full GAO report. So we 
appreciate that.
    Ms. Nazzaro. Thank you.
    Mr. Walden. I noted in the report that there is a 
discussion about timber stand improvements, and I know some 
dispute even the term ``timber stand improvement.'' But the 
report indicated timber stand improvement needs reported by the 
Forest Service's Pacific Northwest Region covering all of 
Washington and Oregon were the highest of any region during 4 
of the last 5 years.
    Can you tell us why that is?
    Ms. Nazzaro. I do not believe that I have that information. 
I could provide it to you, though. If that was included as part 
of our audit, we could provide that for the record.
    Mr. Walden. I would be interested to know more about that. 
It seems like your report really focuses on an issue that has 
been before the Congress multiple times, and that is the 
quality of data that we are getting out of the Forest Service. 
And you have indicated the Forest Service agreed with your 
recommendations and is going to prepare a response. Did they 
give you any time line?
    Ms. Nazzaro. No. There is a requirement that they provide 
within 90 days an action plan to do this, but we have not heard 
from them yet, other than the official comments in the report 
that said that they were developing this new data system. 
However, we are concerned that the data system itself will not 
be enough because what we need is to make sure that the data 
that is going into that system is accurate. What they are doing 
now is automating what previously was done manually, so it 
could be bad data in, bad data out. We still will not know if 
it is overstated or understated without having quality data 
that has been validated.
    Mr. Walden. What do you recommend to us to figure out, to 
help them figure out how to get good data in? What should we be 
looking for? What should we change?
    Ms. Nazzaro. Well, we made a number of recommendations in 
that area, and particularly we are requiring data validation by 
all the regions. In some cases, as I noted in my statement, 
they had done site visits to try to validate the accuracy of 
their data. In other cases, they told us these were just 
estimates. So they really do not know how accurate the data are 
themselves.
    Mr. Walden. I sort of ran into this in trying to acquire 
some data on the work being done on healthy forest restoration, 
the thinning projects and all, and I wanted to get it as close 
to the ground, to the smallest unit as possible. And it was odd 
that I could get statewide numbers, but I could not get 
localized data.
    Now, I am a journalism major, not a mathematician, but I 
could not figure out how you get to the total without all the 
little things in between. And it sounds like that is part of 
the problem here, that they can give you sort of a global 
number, but that may not reflect what is really happening on 
the ground.
    Ms. Nazzaro. And, actually, I think we are seeing maybe 
just the converse of that, that some of the localities were 
able to give us what they perceived as accurate data, although 
they do not have criteria that is used uniformly across all of 
the localities. So then when you wrap it up, you really have 
suspect data because they have used different criteria for the 
input to that total number.
    Mr. Walden. Now, it looked like, too, that the laws that 
were passed in 1974 and later helped the agencies be able to 
get at this backlog issue and virtually work it down to 
virtually no backlog. And now we are seeing a trend the other 
direction again.
    Am I correct in reading the report that in part that is due 
to a lack of funding, in part that is due to stands that were 
replanted very densely after harvest in anticipation of future 
thinning that have not been thinned? And then the third issue 
really is the really terrible wildfires we have seen over the 
last 5 years.
    Ms. Nazzaro. You are correct in that. The reforestation is 
definitely what they have told us as a result of the increase 
in wildland fires, which we were able to validate that that 
increased trend has occurred. For timber stand improvements, it 
is that the forests were planted very densely, and now they 
have not done the thinning necessary.
    Mr. Walden. And certainly in some forests, it makes perfect 
sense to allow natural regeneration. I do not think anybody is 
talking about single species regeneration, some plantation 
deal. But it looks to me like from this report and others that 
we can make a choice to get in and replant a mixed group of 
trees to reflect what was there before. And you can do that 
cheaper and faster and restore the habitat, protect watershed, 
and all that quicker if you get in faster, or you can delay and 
get a brush field, and it may take a decade or two or more to 
get to the same place or to get back into a natural forest 
regenerated.
    Is that in keeping with what your report found?
    Ms. Nazzaro. Definitely, that it would take longer.
    Mr. Walden. And cost more?
    Ms. Nazzaro. And cost more, right. What we are seeing is 
that--and you could also have a change in habitat as well. So 
there is a lot of different consequences of just letting the 
natural habitation or the vegetation regrow. It could be that 
you are going to have different species of trees growing, so 
that would be inconsistent with what was already decided that 
this forest should have. But it could also affect recreation 
needs, habitat needs, watershed concerns.
    Mr. Walden. One final question and then I will turn it over 
to my colleague from New Mexico. Did you find any downside to 
more rapidly going in and doing reforestation work after a 
fire? Did your folks look at that? Did anybody that you talked 
to say, gosh, you ought to just let it do what it is going to 
do?
    Ms. Nazzaro. No, we did not. I didn't recall any in the 
report. I just wanted to make sure. No.
    Mr. Walden. I did not see it in what I read either. All 
right. Thank you very much.
    I will turn now to the Ranking Member, Mr. Udall.
    Mr. Tom Udall. Thank you, Mr. Chairman.
    This must be a little bit frustrating for the GAO. I note 
here, here is a 1991 report that says better reporting needed 
on reforestation and timber stand improvement. Then here we 
have a September 1994 report that says management of 
reforestation program has improved but problems continue. And 
then you have the report that we are having the hearing on 
today. And the Chairman I think probed into this a little bit, 
but is there any suggestion you have on how we can get this 
right, get the Forest Service to get it right?
    Ms. Nazzaro. The bottom line certainly is the need for 
better data. What we are saying is they need to be able to 
prioritize so that at least we know where the money is being 
spent and if it is being spent effectively. But they will not 
know that unless they have the right data. And they have agreed 
with our recommendations. As I said, they are developing this 
new data system, although we are concerned with the data 
quality.
    Mr. Tom Udall. Thank you.
    On page 22 of the current GAO report, it states, and I 
quote, ``While reported reforestation needs have been rising, 
funding allocated for reforestation and timber stand 
improvement has not.''
    In researching this report, did your agency take a close 
look into the various reforestation funds and where the funds 
were being allocated, specifically in reference to the Knutson-
Vandenberg Fund?
    Ms. Nazzaro. We did not look into that issue as to how the 
funds were being spent. We did note that they have asked for an 
increase in funding in 2006, but we have not looked at how 
prior funds have been used, no, sir.
    Mr. Walden. Please, for the benefit of the committee 
members that may not be familiar, could you detail, or 
somebody, maybe staff, what the Knutson-Vandenberg Fund is and 
how the money goes into that? Because there may be members that 
do not know that.
    Ms. Nazzaro. Actually, I am not familiar with it.
    Mr. Walden. You cannot? All right.
    Ms. Nazzaro. I do not believe we have anybody here that has 
a detailed knowledge to give you a primer on it.
    Mr. Walden. We have Forest Service here.
    Ms. Nazzaro. I would defer the question to the Forest 
Service.
    Mr. Walden. It is a very important part of this.
    Mr. Tom Udall. I agree, Mr. Chairman.
    Are you aware of the previous congressional concerns about 
one-third of the Knutson-Vandenberg Fund not being used for 
reforestation activities as initially intended?
    Ms. Nazzaro. No. As I say, we did not look at all into how 
any of the appropriated funds have been spent. Again, you may 
want to defer that question until you have the agency up here.
    Mr. Tom Udall. OK. And I think you are probably going to 
say no to this, too, but did you find instances where funds 
collected for reforestation in individual sale areas did not 
cover the actual reforestation cost?
    Ms. Nazzaro. No, but the issue was raised when we talked 
about salvage logging as to whether the costs were going to be 
able to--that the costs--excuse me, the receipts received from 
those sales, whether they would be able to cover all the 
associated costs. And they did talk about administrative costs 
that needed to be factored in as well. So it was unclear that 
the Forest Service had any data to show us how cost-effective 
any of these measures were.
    Mr. Tom Udall. Just for the record, in 1998, the GAO 
reviewed the Knutson-Vandenberg Fund and reported that up to 30 
percent of the fund was being charged to indirect expenses. 
This report led to a successful amendment to prohibit the use 
of Knutson-Vandenberg funding for indirect expenses during the 
consideration of the Fiscal Year 1999 House Interior spending 
bill, and Mr. Chairman, I yield back to you.
    Mr. Walden. Thank you, and I appreciate your raising those 
issues on Knutson-Vandenberg and we will--because that was an 
issue that you all raised, that it was like 30 percent of the 
fund, questionable expenditures, and we will get an answer as 
to how it is being spent now.
    The Chair now recognizes the gentleman from Maryland, Mr. 
Gilchrest, for 5 minutes.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    Ms. Nazzaro, could you tell us--and maybe the Forest 
Service might want to focus on this or tell us as well--when 
the Forest Service collects data throughout the country in all 
the different regions, assuming there is specific criteria or 
purpose for the kind of data they are looking for, do they do 
it with satellites, airplanes, walking on the ground? How do 
they collect that data?
    Ms. Nazzaro. We documented two methods: one, doing site 
visits, that they had gone out and actually viewed these sites; 
and the other was that they just did estimates.
    Mr. Gilchrest. So there are no flyovers or satellite data 
that would be pertinent to the kind of data they are looking 
for?
    Ms. Nazzaro. You might want to ask the Forest Service about 
that. We did not document any of those methods being used.
    Mr. Gilchrest. As you were going through this with BLM and 
the Forest Service, is there any similarity--the refuge system 
has volunteers that do a lot of data collecting for all the 
refuges, Federal refuges. Does the Forest Service have any 
counterpart to those kinds of volunteers that collect this kind 
of data?
    Ms. Nazzaro. No, we did not document any performance like 
that. Again, you might want to ask the agency whether they do. 
I don't know whether they do or not. We did not experience 
that.
    Mr. Gilchrest. I see. You also mentioned in your report 
that land managers--and I am assuming that is the Forest 
Service--cite adverse effects that could result in 
reforestation and timber stand improvement needs not being 
addressed. Some of the adverse effects resulting from the lack 
of reforestation is that there seems to be an expansion of 
priorities in different regions, whether it is for fuel 
reduction or some other purpose.
    Is there any way--and I think the Chairman made mention to 
this earlier. Does your report say that the Chief of the Forest 
Service should be specific about the goals or priorities of 
each region, giving less independence to each manager for a 
different region? Or is it good that each manager has 
independence in each region?
    Ms. Nazzaro. We did not specify exactly that they needed--
at what level they needed to do it. We asked that they clarify 
the direction and the policies for reforestation. We feel right 
now that the Forest Service has a multifaceted mission. I mean, 
you are asking them to address issues of wildlife habitats, 
recreational uses, timber production, in addition to dealing 
with the issues from the wildfires. So we really feel that 
there needs to be some kind of program direction as to what 
goal are they trying to achieve, what are their objectives. And 
that is where we talk about the need to set some priorities. 
And it could vary certainly from location to location. Not all 
locations are set with the same goals in mind.
    Mr. Gilchrest. In your research, does the Forest Service 
have a list of priorities for each region, such as wildlife 
habitat, such as timber harvesting, such as water quality? Are 
those things listed out there that you could see?
    Ms. Nazzaro. They do have forest plans, but our view there 
was that the plans were vague and contradictory. So I would say 
no, they do not have the clear direction.
    Mr. Gilchrest. So if the plans are vague and contradictory, 
who determines the kind of data that you are going to collect 
to ensure that the priorities, which might be contradictory, 
are achieved?
    Ms. Nazzaro. Right now we do not see that the Forest 
Service has those directions or policies to tell them what 
criteria they should use.
    Mr. Gilchrest. I see.
    Ms. Nazzaro. We found some that were using criteria based 
on existing needs; some were projecting needs into the future. 
So there is not a uniformity, at least in the Forest Service, 
like we saw at BLM. BLM has a criteria that the need had to 
exist within a 5-year time--within the last 5 years, and they 
do not project to the future. They have much more solid 
criteria.
    Mr. Gilchrest. In any of the regions that you went to, the 
Forest Service or the BLM, one of the goals would have been 
economic value placed on ecosystem services provided for that 
forest, is that in--in other words, water quality has a certain 
economic value. Wildlife habitat has a certain economic value. 
Carbon sequestration has a certain economic value. Was that in 
any of the regions that you visited, economic value of the 
ecosystem services provided by the forests?
    Ms. Nazzaro. I did not see that analysis discussed in our 
report, no.
    Mr. Gilchrest. Thank you.
    Thank you, Mr. Chairman.
    Mr. Walden. Thank you, Mr. Gilchrest.
    Before I go to the gentlewoman from South Dakota, on page 7 
of the GAO report, at the bottom is a good explanation of the 
Knutson-Vandenberg Act of 1930: establish a trust fund to 
collect a portion of timber sale receipts to pay for 
reforesting areas from which timber is cut. The reforestation 
projects eligible for such funding include growing trees for 
planting, planting trees, sowing seeds, removing weeds and 
other competing vegetation, and preventing animals from 
damaging new trees. The Act was amended in 1976 to allow the 
Forest Service to use these funds for other activities such as 
creating wildlife habitat.
    So I don't know about you all, but I have been on 
committees where they buzz right through all the buzz words, 
and you never quite know what they are talking about. So I 
thought that might help.
    Now I recognize the gentlewoman from South Dakota, Ms. 
Herseth.
    Ms. Herseth. Thank you, Mr. Chairman, and I appreciate that 
guidance where I can refer to in the report. And I appreciate 
your testimony here today and all the work, Ms. Nazzaro, of 
your staff and your office in preparing the report. And I am 
going to save most of my questions for our friends from the 
Forest Service who will be following you, but let me just flesh 
out a few things and follow up on some of the questions that my 
colleagues have posed here. I am going to, by way of 
background, just give you a sense of where I am coming from 
here.
    I represent South Dakota, and if we use--you had mentioned 
that funding is part of the problem here, and maybe we can 
compare the problems we have there today versus what we were 
able to successfully do, as Chairman Walden pointed out, in the 
1970s, the lack of uniformity of the data, as Mr. Gilchrest has 
pointed out.
    But if we use the Black Hills National Forest in South 
Dakota as an example, and let's say the normal total annual 
budget for the forest there is $20 million, for timber sales, 
campgrounds, fuel reduction, wildlife habitat, et cetera. Now 
then let's say there has been a major fire, as we have had 
numerous ones in the last 5 years, as have other national 
forests. And they estimate that the planting needs will cost 
$25 million. That is assuming 50,000 acres and $500 an acre.
    Now, the current system would have the Black Hills National 
Forest budget the $25 million out of their annual $20 million 
operating budget, and then consequently the only way the 
national forest could fund the tree planting would be to reduce 
their budget for timber sales, campgrounds, et cetera, and not 
surprisingly, that is not happening. So when we look at the 
possible solutions, whether it is to do something as we did in 
the 1970s as part of the National Forest Management Act, where 
the Forest Service was required to determine the reforestation 
backlog and then to reforest the backlog acres within a certain 
period of time that seemingly worked, or if we had something 
separate from the Knutson-Vandenberg Fund or we had a separate 
line item in the budget, is it your opinion based on the 
findings in your report that without the uniformity in the data 
available that we cannot really make what we made work in the 
latter part of the 1970s work now to address the backlog?
    Ms. Nazzaro. I guess it depends how much money you are 
willing to spend, if you are willing to take at face value that 
they have 900,000 acres that need reforestation and get an 
estimate of an average cost per acre and that is what you 
appropriate to them, although I cannot imagine that those kind 
of funds are available. So what we are saying is that you need 
to set priorities to make sure--because, as was mentioned 
earlier, some areas can be allowed to naturally regenerate 
themselves; some areas need reforestation. So until you set 
those priorities--but to set the priorities, you have to have 
the data to support the existing condition. And we are feeling 
right now we cannot tell whether the 900,000 acres is an 
overestimate or an underestimate.
    Ms. Herseth. And did your report break down by region based 
on management in different forests how the data was being 
collected? I think Mr. Gilchrest was getting at this point of 
whether they are estimates, whether it is on the ground, 
whether it is any other method that is being used to collect 
the information?
    Ms. Nazzaro. No. The short answer is no. It is not--our 
first attempt was to try to validate that number of the 900,000 
acres, and when we saw all the problems, we just tried to 
characterize the types of problems that were existing, so that 
led us to the type of conclusion then as to what needs to be 
done to correct the problem. But we didn't by location say this 
site uses this method versus that site. It is just 
inconsistent, and it needs to be done in a consistent fashion.
    Ms. Herseth. Thank you. I yield back.
    Mr. Walden. Thank you. Thanks for your comments.
    The gentleman from Pennsylvania, Mr. Peterson.
    Mr. Peterson. I thank the Chairman. Welcome, Robin. Nice to 
have you here.
    In your opinion, what are some of the probable consequences 
of not addressing the backlog of stand improvement needs?
    Ms. Nazzaro. Well, right now you would certainly be--I 
guess probably the largest problem we see or the most prevalent 
problem for timber stand improvements is that you are creating 
an ecosystem that is more susceptible to wildland fires.
    Mr. Peterson. That is the major issue, you think?
    Ms. Nazzaro. That's what I would say would be probably the 
largest issue.
    Mr. Peterson. Has the Administration budget request taken 
into account the increased needs for reforestation and stand 
improvement?
    Ms. Nazzaro. Could you restate that again?
    Mr. Peterson. Does the current proposed budget adequately 
reflect the need for reforestation?
    Ms. Nazzaro. Since we couldn't verify or validate what 
their actual needs were, there is no way we can tell whether 
their budget request is adequate or inadequate.
    Mr. Peterson. Well, I think the answer is obvious.
    [Laughter.]
    Ms. Nazzaro. That is why I asked you to restate the 
question, to make sure I understood what you were asking. Thank 
you.
    Mr. Peterson. The GAO report notes that the Western Region 
has expressed concern about their future ability to meet 
reforestation needs. What are the primary reasons given for 
their concern?
    Ms. Nazzaro. For the reasons why they need more funds for 
reforestation?
    Mr. Peterson. Yes.
    Ms. Nazzaro. The primary concern is because of the increase 
in the wildland fires since the year 2000, that at least that 
we are able to support that that would justify an increase in 
the trend data that we provided.
    Mr. Peterson. OK. But there are a lot of other reasons, but 
that is the overriding one, you would think. OK. Thank you.
    Mr. Walden. Mr. Brown?
    Mr. Brown. Mr. Chairman, do you have an accounting of the 
balance in that fund now for reforestation?
    Mr. Walden. I do not, but we can get that for you.
    Mr. Brown. All right. Let me preface my question then by 
saying that I represent South Carolina, which is the Francis 
Marion National Forest, you know, which is about 250,000 acres, 
and so we have a little familiarity with that process. And I do 
not know about trying to address these 900,000 acres that we 
have got outstanding. How many acres do we have today that are 
under reforestation? I noticed in the 1920s--you know, we have 
got as many trees growing today as back in the 1920s. How does 
that match between the national forest and the private land 
holders?
    Ms. Nazzaro. I am sorry. I don't have that information.
    Mr. Brown. OK. Let me go to the next question, then. In 
addressing trying to meet the needs to find the funding for 
those 900,000 acres--that is the reason I wanted to find out 
what the balance in that account was, but are there any 
alternative methods that we are looking at to do the 
reforestation? Are we doing it all in-house, or are we looking 
to do some outsourcing? How is the reforestation being 
accomplished today?
    Ms. Nazzaro. This report did not cover the process by which 
the reforesting--to look at the adequacy or the inadequacy of 
their methods. That was not addressed.
    Mr. Brown. OK. Who would address that area?
    Ms. Nazzaro. I would imagine the agencies can give you some 
idea as to what extent they are outsourcing or to what extent 
they have their own staff doing the reforestation.
    Mr. Brown. OK. Because, generally speaking, in the process 
we always tend to follow the same stream, and when times get 
tough, we have to look for better ways of doing things. And I 
am just wondering if we have got the best and cheapest--you 
know, best practice that is available today to be able to 
address those needs. So you don't have the answer to that?
    Ms. Nazzaro. No, sir. We did not look at the extent to 
which they're contracting, but I would imagine the agencies 
should be able to tell you to what extent they're contracting, 
and with the increase and the backlog that they're claiming 
they're having, they should be able to tell you to the extent 
that they're now outsourcing.
    Mr. Brown. OK, because it always seems like if we had more 
money, we could get the job done quicker or better, you know. 
But we are living in some tight times.
    Ms. Nazzaro. Well, and that is our concern, that we are not 
advocating just giving them more money. We're saying you need 
to know exactly what the backlog is using uniform criteria, and 
then set your priorities given the funds that are available to 
be spent and make sure that money is well spent.
    Mr. Brown. OK. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Walden. For the record, Mr. Brown, the minority crack 
staff is right there with the Knutson-Vandenberg Fund numbers.
    [Laughter.]
    Mr. Brown. It was tough following the gentlelady from South 
Dakota, when she had all those numbers. It really was amiss to 
what I was going to ask, to be quite honest.
    Mr. Walden. You know, both of you being from ``south,'' you 
have different accents, too.
    [Laughter.]
    Mr. Brown. You are right. That is a common connect.
    Mr. Walden. She needs to work on hers.
    Just for the record, since you asked, the Knutson-
Vandenberg Fund program level and budget authority in 2000--I 
will go back a couple of years here. It was as high as, in 
2002, $241 million. And then in 2003, it was $73 million.
    Now, understand that we borrow out of that fund to go fight 
fire, and then it gets repaid. So the numbers jockey around a 
bit. But in 2003, it was $73 million program level; 2004 was 
63; 2005 was 87; this year is projected 87. The budget 
authorities are all over the place, from $44 million to $213 
million one year to 60 in the last two.
    The reforestation trust fund is paid for on a duty of 
imported lumber that comes in, and it has pretty much stayed at 
$30 million going back to 1990. So it has just been a constant 
$30 million, which I think is obviously what GAO found as well, 
this constant money coming in, and yet the need because of the 
wildfires have been so great in the last 5 years, constant 
funding for reforestation and yet a more dramatic need. Brush 
disposal has sort of been in the $14, $15, $20 million range 
over the last 10 years. So it has been sort of constant.
    Mr. Brown. And I guess my concern is not just fighting 
those forest fires but having some preventive technique to try 
to do some control burns and some other preventive measures to 
keep that cost down. And so that is the information I guess I 
am seeking, Mr. Chairman, just to be absolutely sure that money 
is not the end product, as maybe some other processes that we 
can address to make it work even with the funds that are 
available.
    Mr. Walden. And I am reminded as well that the K-V fund can 
only be spent within timber sale areas. So when you are talking 
about the Knutson-Vandenberg Fund, monies out of that can only 
be used to do work in timber sale areas. And if you note in the 
GAO report the volume of timber--and I don't remember the years 
now, but it is basically half what it was, and we are 
generating a third of the revenue we were generating, so you 
have gone from 4 billion board feet to 2 billion board feet in 
harvest and from $600 million in revenue to $200 million in 
revenue. So the revenues off what we are cutting is less than 
what it used to be and so less money is coming in.
    Mr. Brown. So we cannot use that South Dakota revenue to 
enhance my South Carolina trees, then, right?
    Mr. Walden. No, but it would sure help in Oregon. We will 
take all your South Carolina revenue.
    [Laughter.]
    Mr. Walden. Run it there. Take the South Dakota revenue, 
too. Thank you.
    And, Ms. Nazzaro, thank you again for your work. Your 
reports have been most helpful. I know we have been somewhat 
like a plague of locusts on GAO with all our requests for 
reports, but I really think it is important to get a factual 
understanding of these issues so that we can then craft policy 
that will help America's forests for the future. So thank you. 
We appreciate your testimony.
    Ms. Nazzaro. Thank you.
    Mr. Walden. By the way, we will keep the record open for 10 
days if members have other questions, but we appreciate your 
testimony.
    Mr. Walden. Now let's have our second panel come on up, and 
as you are coming up, I will tell you they have notified us we 
may have a couple of votes here at any time, so we will start 
and we may have to recess momentarily.
    On panel two, we have Joel Holtrop, Deputy Chief of the 
National Forest System, U.S. Forest Service, and Ed Shepard, 
Assistant Director, Renewable Resources and Planning for the 
Bureau of Land Management.
    Gentlemen, since I swore in our first witness, I think we 
will do it throughout today's hearing. So if you would rise and 
raise your right hand?
    [Witnesses sworn.]
    Mr. Walden. Let the record show they agreed, and I will 
remind you of the 5-minute rule, but we appreciate your being 
here. Your full testimony will be in the record, and with that 
I would like to recognize Mr. Holtrop for his statement. Good 
afternoon and thanks.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
     SYSTEM, FOREST SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Thank you, Mr. Chairman and members of the 
Subcommittee, and thank you for the opportunity to testify 
today concerning the Forest Service reforestation program.
    Historically, one of the most important responsibilities of 
the Forest Service has been to establish forests to regenerate 
forest lands following timber harvest and natural disturbances.
    Reforestation programs have been integral to the management 
of national forest resources since the agency's inception, as 
reflected in key legislation such as the Organic Act of 1897, 
the K-V Act of 1930, and the National Forest Management of 
1976. Timely reforestation following harvest or major 
catastrophic events to restore forest cover on denuded lands is 
vitally important to maintaining forest ecosystems and deriving 
associated ecological, social, and economic benefits. 
Reforestation provides a means by which we ensure that these 
values can be enjoyed by future generations.
    There are many issues regarding reforestation, but I want 
to focus on three issues. First is the ability to predict 
treatment needs. In the latter half of the 20th century, 
reforestation treatment needs were closely associated with 
regeneration harvest activities connected with the timber sale 
program. This close association was beneficial both from the 
standpoint of utilizing K-V authorities to collect funds to do 
the necessary reforestation work and because reforestation 
programs could be planned and predicted. This afforded the 
opportunity to schedule and complete the many tasks needed to 
assure regeneration success. Much of this program 
predictability is lost when wildfire and other natural events 
become the predominant causal factor giving rise to 
reforestation needs. Since the location and magnitude of these 
events cannot be predicted from one year to the next, this 
makes the job of planning orderly programs of work to complete 
reforestation treatments more difficult, and we must rely on 
appropriated funds that were requested as much as 2 years prior 
to the disturbance event in order to undertake this work if K-V 
funds are not available for this purpose. Moreover, this lack 
of predictability can also make it very difficult to plan for 
and to secure tree seed from appropriate seed sources in 
sufficient quantities to address reforestation needs.
    The second issue is delays in removing salvage material. 
Reforestation activities following catastrophic disturbances 
may sometimes necessitate removal of trees. Some harvest 
prescriptions are designed to achieve wildlife habitat 
objectives. Others are designed to couple the objective of 
leaving large tree structures in place while removing other 
dead and dying trees to expedite the establishment of a new 
forest. Trees may also need to be removed to reduce the 
potential for losses to reforestation and other capital 
investments. Salvage operations can also be beneficial for 
economic reasons. However, the removal of this material must be 
done promptly if economic benefits are to be derived.
    The removal of salvage from public lands is a controversial 
issue. Salvage sales continue to be the focus of numerous 
appeals and legal challenges. Often by the time these 
challenges are resolved, values for this material may be 
insufficient to cover the costs of their removal, much less 
result in timber sale deposits to help cover the cost of needed 
reforestation treatments.
    The last issue is data integrity. Forest Service policy has 
been to require our regions to identify and report all 
reforestation needs, including those resulting from forest 
fires or other natural disasters, on an accurate, consistent, 
and timely basis. With the increases in fire and insect and 
disease killed forest acreage over the last few years, we have 
become aware of inconsistencies in some of the ways some 
forests have been reporting reforestation needs. I will now 
describe the actions we have and will take to address these 
issues.
    When the needs report was first established, a primary 
focus of the report was to foster timber production goals. We 
believe that we can provide Congress a more accurate statement 
of needs not only for fiber production but restoration of 
forest conditions to meet wildlife, soil, water, and recreation 
objectives as well. We are in the process of revising current 
policy and definitions for reforestation needs and plan to put 
this direction in place before the end of this fiscal year.
    Currently, our reforestation needs information is contained 
in nine separately managed regional data bases. We will replace 
these regional data bases with a single national application by 
the end of this year. We have also restructured the budget and 
accounting framework to enable us to better link resource needs 
to reforestation needs. We will develop guidance to assist the 
regions in setting reforestation priorities, to weigh critical 
reforestation work in relation to other important work they 
must do consistent with land management objectives. We believe 
that, taken together, these changes will result it improved 
data consistency, accuracy, and utility of needs information.
    This concludes my prepared remarks. I will be happy to 
answer and address your questions.
    [The prepared statement of Mr. Holtrop follows:]

   Statement of Joel Holtrop, Deputy Chief, National Forest System, 
          U.S. Forest Service, U.S. Department of Agriculture

Introduction
    Mr. Chairman. Thank you for the opportunity to testify today 
concerning the Forest Service reforestation program. The decision to 
commit resources to reforestation comes about primarily under two 
conditions; one arising from a planned timber harvesting program, and 
one following catastrophic natural events such as wildfire, wind, ice, 
and insect and disease infestations. Under planned activities we have a 
statutory requirement to complete reforestation activities within five 
years following harvesting. While this statutory requirement is absent 
in the case of a catastrophic natural event, we are still obliged, as 
responsible land stewards, to assure forest restoration including 
reforestation where it is needed.

Background
    Historically, one of the most important challenges and 
resposibilities of the USDA Forest Service has been to establish 
forests on lands that are unstocked as the result of natural 
catastrophes, excessive cutting, fire, insects or farming practices of 
the late 19th and early 20th centuries.
    Reforestation programs have been integral to the management of 
national forest resources since the Agency's inception. The Organic 
Administration Act of 1897 explicitly provided for the establishment of 
national forests to improve and protect forests to secure favorable 
conditions of water flows and to furnish a continuous supply of timber. 
The Act provides for reforestation work in support of these aims. The 
Weeks Law of 1911 provided for the acquisition of forested, cutover, or 
denuded lands within watersheds to regulate the flow of navigable 
streams or for the production of timber, enabling the Secretary to 
conduct reforestation work on the acquired lands.
    Tree planting programs conducted on the national forests during the 
early 1900's were primarily concerned with the re-establishment of tree 
seedlings following large wildfires. The Wind River Nursery was 
established in Washington State in 1901 to ensure a reliable source of 
tree seedlings to reforest large burns in the Pacific Northwest. The 
Bessey Nursery was established in 1902, in an early collaborative 
effort involving Chief Forester Gifford Pinchot and Professor Charles 
Bessey of the University of Nebraska to restore pine seedlings to the 
Sandhills region, these efforts led to the creation of what is now the 
Nebraska State Forest and portions of the National Forests of Nebraska.
    The Knutson-Vandenberg (K-V) Act of 1930 explicitly provided for 
the establishment of forest tree nurseries and also authorized the 
Secretary to require timber sale purchasers to make deposits to cover 
the cost of reforestation and related work within timber sale 
boundaries. The K-V Act continues to be a primary means for ensuring 
our reforestation treatment needs are met within timber sale areas.
    Timber harvested on National Forests during the first half of the 
20th century utilized selective harvesting practices primarily in green 
timber stands. Regeneration needs within the timber sale area were 
commonly addressed by using natural regeneration methods and could 
generally be addressed using K-V deposits arising from the timber sale. 
The national forests were, for the most part, well positioned to 
address their reforestation treatment needs using these deposits and by 
requesting additional appropriated funds to address the needs 
associated with sporadic wildfire, insect and disease attacks.
    Following World War II, timber harvesting practices began to shift 
to increasingly favor regeneration harvest methods, such as 
clearcutting, during the mid- to late-1960's on many national forests. 
Timber sale revenues remained generally sufficient to address 
reforestation treatment needs within timber sale areas throughout this 
period.
    The Forest Service identified and reported understocked areas in 
the early 1970's. Restoring forest cover to these areas was a desirable 
action to promote timber production goals in support of sustained yield 
requirements. Congress amended the Forest and Rangeland Renewable 
Resources Planning Act of 1974 with passage of National Forest 
Management Act (NFMA) in 1976. Under the Act as amended, the Forest 
Service was required to identify the amount and location of forested 
lands that had been cut over, denuded, or otherwise deforested, as well 
as all lands with stands that were not growing at the best potential 
rate. In its initial report, the Forest Service reported a backlog in 
need of reforestation totaling more than 3.1 million acres 
predominately associated with old brushfields and other areas that had 
been in an understocked condition for several decades. NFMA required 
the Forest Service to eliminate this reforestation backlog within 8 
years and to annually report its progress toward this goal. During this 
time, the Forest Service conducted treatments that permitted it to 
report at the end of Fiscal Year 1985 that the agency had reduced the 
backlog to approximately 46,000 acres. The Forest Service further 
reported it would carry this amount into its current maintenance needs 
for reforestation. In that same year, the Forest Service reported to 
Congress lands needing reforestation from ongoing operations totaled 
827,109 acres.
    Title III of the Recreational Boating Safety and Facilities 
Improvement Act of 1980 provided an additional means of funding 
reforestation work on the national forests. This legislation 
established the Reforestation Trust Fund enabling the annual transfer 
from the U.S. Treasury to the Forest Service of up to $30 million from 
tariffs received from the import of selected wood products.
    Since 1992, the use of the clearcutting method of regeneration 
harvest was de-emphasized on the national forests. This change, coupled 
with a general decline in timber sale program levels, led to sharp 
reductions in regeneration harvest practices and associated K-V 
receipts on many national forests. These reductions led to a general 
decline in reforestation needs that continued through the late-1990s.
    As a result of the buildup of hazardous fuels over the last 100 
years, unnaturally intense wildfire n has become the predominant causal 
factor giving rise to reforestation needs on many national forests, 
particularly in the West. The scale and severity of these events is of 
a magnitude that often leads to devastating impacts to forest resources 
and a variety of post-fire recovery needs and has resulted in sharp 
increases in reforestation needs on many national forests in recent 
years.

Why Reforestation Is Important
    America's richly, diverse forests provide vital products and 
amenities to our society including: quality habitat for wildlife, 
biodiversity of plant and animal communities, clean water, aesthetic 
benefits, and recreational opportunities. Timely reforestation 
following harvest or a major catastrophic event to restore forest cover 
on denuded lands is often important to maintaining forest ecosystems 
and deriving associated ecological, social, and economic benefits. Some 
recent catastrophic wildfires, severe wind and rain events, and other 
natural disturbance events have resulted in significant losses to 
critical wildlife habitat, imperiled fisheries and watersheds and 
municipal water sources. These events also threaten the long-term 
productivity of forest soils, through erosion and changes in soil 
properties, as well as many other resources. Reforestation is one 
element of a land stewardship ethic that includes growing, nurturing, 
and harvesting trees to meet specified resource objectives while 
conserving soil, air, and water quality in harmony with other resource 
management concerns. Reforestation following harvest or areas denuded 
by catastrophic fire or other natural disaster is often important to 
ensuring forest sustainability; it is a top priority for national 
forest management. On many occasions, natural regeneration can serve to 
meet forest management objectives. However, in other instances active 
reforestation actions such as planting seedlings may be necessary. For 
example, many species of wildlife, such as quail, rabbit, deer, elk, 
moose, ruffed grouse and wild turkey, and some threatened and 
endangered species can be found using newly established forests for 
food, shelter and nesting. Moreover, through reforestation treatments 
we can hasten the development of large tree structural components in 
late-successional habitat areas needed by late-seral dependant species 
like the spotted owl.
    The Forest Service reforestation program has four major goals: (1) 
to maintain all forest lands within the National Forest System in 
appropriate forest cover; (2) to improve the quality and yield of the 
timber resource; (3) to accelerate the attainment of desired species 
composition and stocking objectives in a cost-efficient manner; and (4) 
to develop and demonstrate successful reforestation methods and 
techniques, and encourage their use by other landowners.
    Restoring forested ecosystems following a large scale disturbance 
typically involves a series of steps: (1) emergency stabilization to 
prevent threat to life, property, and further damage to watersheds; (2) 
rehabilitation of resources affected by the disturbance that are 
unlikely to recover without human intervention; and (3) longer term 
restoration treatments, including reforestation, that span many years 
and are needed to restore functioning ecosystems. All of these steps 
are completed consistent with the direction contained in individual 
forest plans.
    Successful reforestation involves a sequence of carefully planned 
treatments that begins with the selection of an appropriate 
regeneration harvest method that is suited to the unique ecological 
characteristics of the site. Regeneration success is also dependent on 
the establishment of a suitable growing environment for young seedlings 
from appropriate local seed sources. Control of competing vegetation is 
sometimes necessary to maintain acceptable rates of seedling survival, 
as well as to control damaging agents.

The Role of Research
    The tools utilized by silviculturists to determine reforestation 
needs and reforestation techniques, have been developed over the years 
by forest scientists, and this research continues as needs change. In 
the past, research studies initiated following major disturbances 
focused mainly on the most immediate recovery needs such as soil 
stabilization, water runoff control, ground cover vegetation and 
shrubs, and wildlife needs, and less on the reforestation goals. 
Reforestation techniques generally utilized (natural or limited direct 
seeding and planting) were those already well-researched and readily 
available by implementing guidance in Forest Service Silvics and 
Silviculture Systems manuals.
    Practices, such as salvage logging to prepare sites for 
regeneration and provide the funds for restoration activities, have 
been studied and some results synthesized. In their paper titled 
``Environmental Effects of Post-Fire Logging: Literature Review and 
Annotated Bibliography'', Forest Service research scientists, McIver 
and Starr reviewed the existing body of scientific literature on 
logging following wildfire. Twenty-one post fire logging studies were 
reviewed and interpreted. McIver and Starr concluded that while the 
practice of salvage logging after fires is controversial the debate is 
carried on without the benefit of much scientific information. They 
also concluded that the immediate environmental effects of post fire 
logging is extremely variable and dependent on a wide variety of 
factors such as the severity of the burn, slope, soil texture and 
composition, the presence or building of roads, types of logging 
methods, and post-fire weather conditions.
    We realize that there are gaps in what we know about post-fire 
restoration and we are working hard to fill those gaps. Forest Service 
researchers, in collaboration with other scientists, are working to 
increase our knowledge of how ecosystems respond to fires and how 
management actions can affect desired outcomes.
    In recent years, reforestation goals on many national forests have 
changed to restore forests to a previous level of condition and 
complexity (e.g., multiple rather than single tree species, perhaps 
eventual uneven aged structure, emphasis on non-commodity objectives), 
and to do this at landscape scales. New research is needed to 
accomplish those objectives, and to better understand the long-term 
results.
    One useful collaborative product emerging from Forest Service 
research and our National Forests Systems applications group has been 
the Forest Vegetation Simulator, and the Fire and Fuels Extension model 
that enables resource managers to visualize and project through time 
the development of reforested areas following wildfires and treatments.

                Issues Affecting Reforestation Programs

Predicting Treatment Needs
    In the latter half of the 20th century, reforestation treatment 
needs were closely associated with regeneration harvest activities 
connected with the timber sale program. This close association was 
beneficial both from the standpoint of utilizing 
K-V authorities to collect funds from timber sale purchasers to do the 
necessary reforestation work, and because reforestation programs could 
be planned and scheduled to coincide with harvest activities under a 
timber sale contract with a finite contract period. This afforded the 
opportunity to schedule and complete needed site preparation work, 
collect cones and seed from appropriate sources, sow this seed at the 
nursery, grow these seedlings to desired specifications, prepare them 
for out-planting, and plant the seedlings and complete the other work 
needed to assure regeneration success.
    Much of this program predictability is lost when the principal 
causal agent creating reforestation treatment needs is a natural 
disturbance event, particularly those on a catastrophic scale. Since 
the location and magnitude of these events cannot be predicted from one 
year to the next, this dynamic makes the job of planning orderly 
programs of work to complete reforestation treatments more difficult. 
When the economic value of salvageable material is insufficient to 
cover the cost of needed reforestation treatments using K-V 
collections, the situation is made more difficult as forests must rely 
on appropriated funds that were requested as much as two years prior to 
the disturbance event in order to undertake this work. Moreover, this 
lack of predictability can also make it very difficult to secure tree 
seed from appropriate seed sources in sufficient quantities to address 
reforestation needs.
    Recent trends in the severity of wildfires, particularly in the 
West, have made it much more difficult in recent years for managers to 
plan and program their needs to complete reforestation treatments.

Delays in Removing Salvage Material
    Reforestation activities following catastrophic disturbances may 
sometimes necessitate removal of trees. Silvicultural prescriptions 
which are developed after a catastrophic event are designed to achieve 
specific land management objectives. For example, some are harvest 
prescriptions to achieve wildlife habitat objectives; others are 
designed to couple the objective of leaving large tree structures in 
place, while removing other dead and dying trees, to expedite the 
establishment of a new forest. Trees may also need to be removed to 
reduce the potential for losses to reforestation investments and 
resources within the treated area that may result if the trees are left 
in place.
    Salvage operations can also be beneficial for economic reasons. 
However, the removal of this material must be done promptly if economic 
benefits are to be derived because deterioration begins immediately 
after these trees die and deterioration rates are rapid for the size of 
trees being removed in typical salvage operations on the national 
forests.
    As I have said, the removal of salvage from public lands is a 
controversial issue. Salvage sales continue to be the focus of numerous 
appeals and legal challenges. Often, by the time these challenges are 
resolved, stumpage values for this material may be insufficient to 
cover the costs of their removal, much less result in timber sale 
deposits to help cover the cost of needed reforestation treatments.
    Meanwhile, on many disturbed areas, shrubs, noxious weeds, and 
other unwanted vegetation can out-compete native species, increasing 
the cost and complexity of reforestation operations. In the case of 
wildfires, there is another ecological cost that must be considered if 
salvage operations are not conducted. The standing dead trees that were 
killed by the fire may remain standing for a decade or perhaps two, but 
they will eventually fall to the ground and create a very significant 
dead fuel component that, with subsequent wildfire events, could 
consume the young stand that becomes established within these areas. 
Because taxpayer funds are not unlimited, forest managers must make 
decisions that appropriately consider land management objectives, 
sustainability, and other priorities in their decisions regarding the 
allocation of available reforestation resources. These factors can 
influence where managers choose to make investments in reforestation 
treatments, and where they will choose to rely principally on natural 
mechanisms to re-establish forest cover.

Data Integrity
    Forest Service policy has been to require our regions to identify 
and report all reforestation needs including those resulting from 
forest fires or other natural disasters on a consistent and timely 
basis. Since 1992 Forest Service policy has been to estimate the net 
acres in need of reforestation treatments and program these areas for 
treatment immediately following wildfires or other natural disasters. 
This policy also requires forests to include stands that will require 
reforestation treatment following salvage operations in this estimate, 
and to make adjustments to reflect actual reforestation needs as 
detailed reforestation prescriptions are completed. With the increases 
in burned and insect, and disease killed forest acreage over the last 
few years and other factors, we have become aware of inconsistencies in 
the way some forests have been reporting reforestation needs. I will 
describe the actions we have and will take to address this issue.

Agency Actions
    A primary focus, when the needs report was first established, was 
to foster timber production goals. While timber production remains 
important, we believe that reforestation and timber stand improvement 
needs also provide an expression of the management activities needed to 
promote broader goals in promoting the health and sustainability of 
forests. We believe that we can provide Congress a more accurate 
statement of priorities, not only for fiber production, but restoration 
of forest conditions to meet wildlife, soil, water and recreation 
objectives as well. We are in the process of revising current policy 
and definitions for reforestation needs and plan to put this direction 
in place before the next reporting period.
    Currently, our reforestation needs information is contained in nine 
separately-managed regional data bases. In 1997, we began developing a 
single national application to replace these nine regional data bases, 
and we will have this application in place by the end of this fiscal 
year. We believe this change will result in improved data consistency 
and accuracy in reforestation needs and treatment data.
    As part of our efforts to achieve the goals of the President's 
Management Agenda, we are working to improve budget and performance 
integration. We believe these changes will better link resource needs 
to reforestation priorities while also providing Congress with better 
information on the reforestation activities being planned.
    We will develop guidance to assist the regions in setting 
reforestation priorities. This will provide the field units with a 
better framework for prioritizing critical reforestation work in 
relation to the other important work they must do. In doing this, we 
intend to provide managers with the flexibility to ensure that the 
unique resource considerations, the objectives for management 
articulated in the forest plan, and short- and long-term management 
objectives and unique attributes of the site can be weighed in 
prioritizing treatments.
    This concludes my prepared remarks. I would be happy to address 
your questions.
                                 ______
                                 
    Mr. Walden. I appreciate that. Can you just read the 
caption for me there on that slide? Because I cannot.
    Mr. Holtrop. That is a 43-year-old ponderosa pine 
plantation in the Tahoe National Forest that was planted in 
March of 1961 following the volcano fire.
    Mr. Walden. All right. Thank you. I appreciate your 
testimony.
    I now recognize Mr. Shepard for his statement. Thank you 
and we are delighted to have you here today.

         STATEMENT OF ED SHEPARD, ASSISTANT DIRECTOR, 
  RENEWABLE RESOURCES AND PLANNING, BUREAU OF LAND MANAGEMENT

    Mr. Shepard. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity----
    Mr. Walden. I believe your microphone may not be turned on.
    Mr. Shepard. Maybe I'll pull it closer. Is that better?
    Mr. Walden. I think so.
    Mr. Shepard. Thank you for the opportunity to participate 
in today's hearing on reforestation on National Forest and 
Bureau of Land Management public lands. As noted in the GAO 
report, reforestation after timber harvest is a key element in 
the BLM's forest management regimes, not only in the 2.4 
million acres of the Oregon and California lands, managed 
primarily for timber production, but also in the forests and 
woodlands that cover nearly 53 million acres of our public 
domain lands. Overall, BLM has a history of successful 
reforestation in harvested areas and in areas damaged by 
wildfire.
    Last summer, I testified before this Subcommittee on BLM's 
activities for post-fire rehabilitation and greatly appreciate 
the Subcommittee's continued interest in this vital agency 
activity. At the request of the Subcommittee, the remainder of 
the statement discusses primarily BLM's post-fire reforestation 
and restoration activities.
    Experience has shown that restoration actions taken soon 
after--as soon as possible after a fire are the most 
successful. Professional resource specialists start evaluating 
an area for reforestation needs while the fire may still be 
burning. Depending on the management objectives found in the 
resource management plans and the condition of the site, the 
interdisciplinary team may prescribe treatments including pre-
planning site preparation, planning of seedlings adapted to the 
site, post-planning stand maintenance and protection of 
desirable vegetation, grass seeding, stream enhancement and 
timber salvage to reduce future fuel loads or recover the 
economic value of the resource.
    While actions undertaken soon after the fire are most 
likely to be the most successful, delays in implementing 
treatments may jeopardize reforestation and successful 
restoration of the forest resource. In some areas where low-
severity burns have occurred and on some lands that have burned 
with moderate severity, natural processes may satisfy land 
management objectives and reforestation objectives. And on this 
slide, you will see areas that had low to moderate severity and 
probably would have little activity in those areas.
    But in other areas where high-severity burns have occurred, 
such as this slide, we know that without management 
intervention, the site conditions of the forest may not return 
for many decades.
    In some parts of the country, particularly in western 
Oregon, recent court decisions blocking proposed salvage sales 
following wildfires have reduced BLM's ability to aggressively 
reforest a burned area and recover the economic value of the 
fire-killed timber. Litigation has made it very difficult for 
the BLM, even after conducting extensive NEPA analysis, to 
implement comprehensive fire salvage and restoration 
activities.
    In some cases, such as the 1987 Bland Mountain Fire in 
western Oregon and the 2004 French Fire in northern California, 
the BLM was able to implement salvage sale, reforestation, and 
other restoration activities within the first year. In other 
cases, such as the 2002 Timbered Rock Fire in western Oregon, 
litigation over proposed salvage sales has resulted in the 
sales being enjoined.
    The Bland Mountain Fire in 1987 burned approximately 10,000 
acres, and, tragically, two individuals lost their lives in the 
fire, and there was significant property destruction.
    BLM's restoration activities, which included salvaging 55 
million board feet of timber, was done under an Environmental 
Assessment, which is a lower level than an EIS. The reforested 
stands are current 15 to 30 feet tall, although part of this 
area did re-burn in 2004, and further restoration activities 
are going on.
    The French Fire of 2004 in northern California burned 
13,000 acres of BLM/Park Service land and private and State 
land, and emergency stabilization measures were employed, and 
we have ongoing salvage, and it should be completed by this 
year and the reforestation completed next winter.
    The Timbered Rock Fire in southwest Oregon burned in 2002 
at the same time the Biscuit Fire was burning. It burned 27,000 
acres, 12,000 of that managed by the BLM. Because this fire was 
in a late succession reserve under the Northwest Forest Plan, 
we prepared a rigorous Environmental Impact Statement for two 
salvage sales to recover approximately 17 million board feet of 
timber on 800 acres, or 8 percent of the burned area. We also 
plan to conduct a lot of erosion control and other restoration 
activities.
    This EIS was developed in cooperation with researchers from 
Oregon State University, and the intent of that was to study a 
lot of the post-salvage operations and the effects of different 
activities. Litigation has delayed implementation of that 
activity.
    To conclude, successful reforestation following a 
catastrophic event is best achieved by immediate action, and 
delays in implementing treatment after a catastrophic event in 
some areas may jeopardize reforestation and successful 
restoration of the forest resources for several decades.
    Mr. Chairman, that concludes my statement, and I will be 
glad to answer any questions.
    [The prepared statement of Mr. Shepard follows:]

 Statement of Ed Shepard, Assistant Director, Renewable Resources and 
  Planning, Bureau of Land Management, U.S. Department of the Interior

    Thank you for the opportunity to participate in today's hearing on 
issues surrounding reforestation on National Forest and Bureau of Land 
Management (BLM) public lands. The report, ``Reforestation Problems on 
National Forests: A GAO Report on the Increasing Backlog,'' focuses on 
the U.S. Forest Service and has recommendations for the Secretary of 
Agriculture. In an Appendix to the Report, the GAO briefly discusses 
the BLM's reforestation and related forest health treatment activities 
in the 2.4 million acre-Oregon and California Grant Lands (O&C) in 
western Oregon. I would bring to the Subcommittee's attention that the 
BLM's reforestation and forest health efforts encompass both the O&C 
lands and the public domain forestry program on 53 million acres of 
BLM-managed forests and woodlands outside of western Oregon.
    The GAO reports that BLM eliminated its backlog of post-harvest 
reforestation on the O&C lands in 2002, and has since kept pace with 
its reforestation and growth enhancement needs on the O&C lands. 
Elimination of the backlog in 2002 was due to a combination of factors, 
including reduced harvest levels, increased funding, and management 
actions taken by the agency.
    The GAO's comments on BLM's reforestation activities describe 
reforestation as a regular management practice, which most often means 
post-harvest. In discussions with Subcommittee staff, we were asked to 
also provide testimony on the BLM's reforestation and restoration 
activities in the aftermath of wildland fire. Last summer, I testified 
before this Subcommittee on BLM's activities for post-fire 
rehabilitation, and greatly appreciate the Subcommittee's continued 
interest in this vital agency activity. At the request of the 
Subcommittee, the remainder of this statement discusses the BLM's post-
fire reforestation and restoration activities on all BLM-managed lands.
    When forested areas managed by the BLM experience fire or other 
catastrophic events, our highest priority is public health and safety. 
In the immediate aftermath of a fire, the BLM addresses short-term 
impacts to local communities, such as threats to public health and 
safety from fire-damaged hillsides and watersheds. After public health 
and safety needs are addressed, we turn our attention to the steps 
needed to stabilize and restore the forest resource as well as salvage 
to provide economic opportunities to local communities and economic 
recovery of the timber. Our experience has demonstrated that the sooner 
after an event we undertake restoration actions, the more likely our 
efforts will be successful in restoring the resource. Conversely, 
delays in implementing treatments after a catastrophic event may 
jeopardize reforestation and successful restoration of the resources.
    Reforestation and restoration actions are determined on a site-
specific basis. In addition to management objectives for the resource, 
the BLM factors into its locally based decision-making process the 
scope, intensity and severity of the event; the possibility of further 
on-site or off-site damage; the potential economic value of the 
resource; the timeframe desired to meet resource objectives; the 
likelihood of success; and the cost of failure. BLM considers several 
types of post-fire restoration treatments, including:
    <bullet>  Seedings to reduce erosion and invasion by exotic 
species.
    <bullet>  Reforestation to hasten forest reestablishment. 
Reforestation and stand maintenance and protection are treatments which 
have the objectives of reforesting lands following disturbance events 
such as timber harvest, wildfire, windstorms, and insect outbreaks. 
Treatments include pre-planting site preparation, tree planting, post-
planting maintenance and protection of desirable vegetation, and 
genetic tree improvement. The BLM's four seed orchards provide superior 
seed of native species used for reforestation of western Oregon 
forests.
    <bullet>  Timber salvage to reduce future fuel loads, recover the 
economic value of the resource, provide for the safety of forest 
workers, and prepare the site for future resource conditions to meet 
RMP objectives.
    <bullet>  Stream enhancements to repair damaged streambanks.
    <bullet>  Structures to control erosion and runoff.
    If salvage is an option, the BLM must consider how much timber to 
remove and how much to leave for wildlife habitat, nutrient cycling, 
and other ecological functions. Again, this is a site-specific 
determination. If too much material is removed, site productivity can 
be affected. If too much material is left, there is a risk of insect 
and disease attack as well as potentially heavy fuel loading that may 
drive future wildfires.
    The BLM believes that reforestation and all restoration tools, 
including salvage logging, should be available for use by our resource 
managers. To be successful, restoration tools must be employed to meet 
land and resource management objectives in a timely, cost-effective, 
and efficient manner.
    I would like to illustrate this process by describing three 
examples of the BLM's reforestation and restoration activities in the 
aftermath of wildland fires: the Bland Mountain Fire of 1987, the 
Timbered Rock Fire of 2002, and the French Fire of 2004.

Bland Mountain Fire, 1987
    This fire, near Canyonville in southwest Oregon, started on July 
15, 1987. Approximately 10,000 acres burned, including 4,000 acres of 
BLM-administered land and 6,000 acres on private lands. Two individuals 
lost their lives in this fire, and significant property destruction 
occurred.
    The BLM was able to implement restoration treatments within the 
first year after the fire, in large measure because we were able to 
rely on documents included as part of our land use planning process in 
developing an Environmental Assessment (EA) of our proposed restoration 
treatments.
    Reforestation and other restoration activities included: tree 
planting on all burned BLM acreage; grass seeding on 790 acres of 
stream side areas; creation of 140 waterbars; creation of one 8,000 
cubic yard capacity sediment pond; seeding and mulching of 27.3 miles 
of roads and fire trails; creation of 320 temporary sediment catch 
basins and check dams; and 55 million board feet of timber salvage. 
Reforestation has been generally successful on both BLM and private 
lands. Trees planted post-fire are currently between 15 to 30 feet 
tall.

Timbered Rock Fire
    The 27,000-acre Timbered Rock Fire of 2002 covered nearly 12,000 
acres of public lands managed by the BLM Medford District in southwest 
Oregon. The fire burned the same time as the 500,000 acre Biscuit Fire. 
The BLM proposed two timber salvage sales to recover approximately 17 
MMBF of burned, but still merchantable, timber on approximately 800 
acres (8 percent of the burned area). As addressed in the Timbered Rock 
Fire Salvage and Elk Creek Watershed Restoration EIS, after completion 
of the salvage, about 95 percent of all trees (green and fire-killed) 
would remain. In preparing the EIS, the BLM sought public involvement 
to identify the desires, expectations, and concerns of interested and 
affected publics regarding this project and the use of available 
resources. A letter seeking input on the EIS was mailed to 780 
individuals, landowners, organizations, tribal governments, and 
government agencies. A website specific to the Timbered Rock EIS was 
published on the Internet. Two public meetings, attended by about 40 
people, were held during the scoping period. A total of 50 comments 
were received at the meetings and by e-mail, telephone, and fax.
    The Timbered Rock project also contained a science element, 
developed in cooperation with researchers at Oregon State University, 
to look at the influences of post-fire salvage and salvage intensities 
on wildlife species. There continues to be scientific controversy about 
the impacts of salvage activities on burned lands. Salvage of dead 
trees has been of particular interest because of the potential economic 
benefits of harvest activities and the influences of salvage on risk of 
future fire and insect outbreaks. Salvage also has been highly 
controversial because of known or hypothesized environmental impacts on 
soil, water, and biodiversity. A large number of questions remain about 
basic relationships between salvage and ecosystem response in different 
ecosystem types. A key issue related to salvage activities concerns 
potential influences on wildlife and wildlife habitat. The complete EIS 
is available online at: www.or.blm.gov/Medford/timbrockEIS/index.htm.
    The BLM's proposed salvage projects in the Timbered Rock EIS were 
challenged in court (Oregon Natural Resources Council Fund, et al. v. 
Brong, Civil No.04-693-AA, U.S. District Court for the District of 
Oregon). On June 10, 2004, the court issued a temporary restraining 
order that halted salvage logging, and on November 8, 2004, the BLM was 
permanently enjoined from implementing salvage activities under the 
EIS.
    This litigation delayed implementation of the salvage and other 
restoration activities proposed in the Timbered Rock EIS. It is nearly 
3 years since the fire, and salvageable material has decayed to the 
point where much of the value has already been lost. The Department of 
Justice, at the request of the Department of the Interior, has filed a 
notice of intent to appeal the case, maintaining the option of asking 
for review by the Ninth Circuit Court of Appeals. Since we were not 
able to implement the Timbered Rock EIS, however, the opportunity to 
study some of the issues surrounding salvage activities was lost.

French Fire
    The French Fire, in north-central California, started on August 14, 
2004, and burned for six days before containment on August 20, 2004. 
The final fire perimeter was in excess of 22 miles, with over 13,000 
acres burned. The fire area included BLM, National Park Service, state, 
city/county, and private lands. An Interagency Burned Area Emergency 
Response Team was convened and prepared an Emergency Stabilization Plan 
with detailed recommendations and information.
    After implementing emergency stabilization measures following the 
fire, the BLM began planning a timber sale to salvage approximately 4 
MMBF of dead and dying timber on some 1,930 acres. An EA was prepared, 
and the French Fire Salvage Timber Sale was sold on March 8, 2005. The 
precise treatments to be applied to different areas of the sale were 
selected on the basis of the intensity of the fire and the level of 
tree mortality. The harvest of this sale will be completed before the 
timber volume and value is negatively affected by insects and decay. 
The timber harvest has begun and is planned to be completed by July of 
this year. Approximately 240 acres of reforestation is planned in areas 
of the fire that had the highest fire intensity and tree mortality.

Conclusion
    As illustrated in the Timbered Rock EIS, litigation has made it 
very difficult in some instances for the BLM to implement comprehensive 
fire salvage and restoration activities. Delays in implementation of 
restoration activities may result in lost value of the resource, not 
only to the government, but also to local communities. Perhaps the most 
significant potential harm from delays in implementation of restoration 
activities and reforestation is additional damage to the resource from, 
for example, widespread insect infestations that often follow forest 
fire. As land managers, restoration of ecosystem health following a 
fire or other catastrophic event is a high priority. We have been 
successful in implementing treatments in many instances, and new tools 
provided through the Healthy Forests Restoration Act and other 
legislation should increase our odds of success. But delays can, at 
times, jeopardize reforestation and successful restoration of the 
resources.
    Thank you again for the opportunity to testify. I would be glad to 
answer any questions.
                                 ______
                                 
    Mr. Walden. I want to thank both of you for agreeing to 
testify today. We appreciate your service, the BLM and the 
Forest Service, to our country.
    I guess maybe for both of you--those were very provocative 
slides, by the way, and I think really from my perspective 
detail kind of what we are facing, whether you go in fairly 
rapidly and environmentally sensitively and get a new forest 
growing or whether you wait.
    Some have called agency reforestation efforts ``plantation 
forestry.'' Do you think that is an accurate portrayal of what 
you are doing? And what is even meant by plantation forestry?
    Mr. Holtrop. First of all, I would say I don't think that 
that's an accurate reflection of what it is that the agencies 
do. I would assume what they mean by ``plantation forestry''--
and that's how I'm responding to this assumption--is that 
perhaps that plantation forestry is just row upon row of 
single-species plantation and----
    Mr. Walden. Is that what you all do?
    Mr. Holtrop. It is not what we generally do. And even if we 
were to plant a single species in a reforestation situation, 
the natural regeneration that occurs in association with that, 
by the time the--in most instances around the country, we're 
going to have a mixed stand of species.
    Mr. Walden. Mr. Shepard?
    Mr. Shepard. Well, I would agree with Mr. Holtrop's 
assessment. In the past, particularly on BLM's O&C lands, which 
we manage primarily for timber production, we were closer to 
plantation forestry than in many areas of public land 
management. But we grew pretty much away from that as we have 
gone to managing not only for the timber resource but the other 
ecological values. We are planting multi-species. Now we are 
planting at lower densities than we did in the past, 
encouraging the growth of hardwoods in some areas, where in the 
past we excluded hardwoods. We are really looking more at 
providing a diversity of values and species out there rather 
than----
    Mr. Walden. It seems to me, too, on some of the tours I 
have been on out in the forest, it is not just trees you are 
looking at but the regeneration of natural grasses--I mean, 
there was a whole operation in Bend, I think the Bend Pine 
Nursery, part of which goes on today, I think, with seeds from 
grasses and brush, to try to replicate what was there. Is that 
not what your goal really is?
    Mr. Shepard. Yes, that is accurate. We are trying to look 
at--in fact, our nurseries have gone away from growing 
exclusively tree species to where we are growing a lot of brush 
and forb species at the nurseries.
    Mr. Walden. All right. The Beschta Report and the more 
recent literature review by McIver and Starr recognized that 
the effects of post-fire activities in some forest types are 
well-known, while in others more information is needed. So what 
are you all doing to fill in the gaps in research and data in 
this area?
    Mr. Shepard. I am sure the scientists are never going to 
come to complete agreement on what is right out there and that, 
you know, we will always have questions. We are working with 
universities and with the experiment stations, research 
stations at the Forest Service to try to answer some of the 
questions that have come up, whether we should be doing post-
catastrophic event harvesting and salvage at all, or whether we 
should be letting nature take its course through a passive 
approach.
    The unfortunate point about the Timbered Rock Fire is that 
part of the project there was to do experimental designs that 
were put in by Oregon State University to look at salvage 
levels and what the impacts of salvage and different 
reforestation activities were on soil compaction and wildlife 
habitat and other values. And, unfortunately, we are not able 
to implement all of those actions.
    Mr. Walden. And why is that?
    Mr. Shepard. Because of court injunctions.
    Mr. Walden. All right. Mr. Holtrop?
    Mr. Holtrop. I also agree and would just say that a lot of 
the research needs are not only focused around what are the 
effects of salvage, but just what are the effects of our 
immediate emergency burned area rehabilitation work that we do 
and which of those practices are most effective. And we are 
doing research on that and continue to find opportunities for 
more.
    Mr. Walden. All right. Many name economic return as the 
primary reason for man-induced reforestation. But aren't there 
a lot of other factors at work here, including soil, water, 
wildlife habitat restoration? Isn't that just as important or 
more so?
    Mr. Shepard. Yes, and I would add that economic return is 
also an important consideration.
    Mr. Walden. Why?
    Mr. Shepard. Particularly where we're managing for our 
mandate in the O&C Lands, is to manage for timber production 
for the stability of local communities and industries. And so 
if we can do that in an ecologically sustainable way and the 
most efficient and effective way, that's the best way to go 
about it.
    But we are trying to meet other ecological objectives out 
there, and following many of our fires, we have planted 
hardwoods and stream banks and things like that to provide 
shading. One fire in southwest Oregon, the Quartz Fire, we went 
in and did aggressive reforestation to more rapidly restore 
spotted owl habitat.
    Mr. Walden. My time has actually expired, so we will have 
to come back.
    Let me go to Mr. Udall, and for the other committee 
members, we are in the middle of a vote. I think we will have 
time for Mr. Udall to ask his questions, and then we will 
recess and come back for the other members.
    Mr. Udall?
    Mr. Tom Udall. Mr. Holtrop, you heard me ask earlier about 
these three GAO reports over a series of years and why the 
Forest Service has not been able to get it right. Could you 
give us an explanation here?
    Mr. Holtrop. I would say that in response to each of the 
GAO reports, we have responded. I would say we have information 
now from--based on the 1991 report, we established a process 
that has improved the situation. But as our response to the 
draft GAO report that we had seen indicates, we concur with the 
recommendations of GAO. We believe that there are things that 
we can do, should do, and will do in order to improve our data 
management of both our TSI and reforestation so that we can be 
more responsive to the types of questions that you're asking 
and the types of questions that we're asking ourselves.
    Mr. Tom Udall. A report by the GAO in 1998 found that the 
Forest Service sometimes used up to 30 percent of the Knutson-
Vandenberg Fund for indirect expenses. Can you discuss how this 
could potentially impact the reforestation backlog?
    Mr. Holtrop. Well, if we were continuing to utilize up to 
30 percent of the K-V funds for indirect costs, that would, of 
course, have a compounding effect on our ability to meet our 
reforestation needs. Ever since that report in actions 
subsequent to that, we have been working steadily at reducing 
that, and we are now much closer to 15 percent of the K-V funds 
are used for indirect costs.
    Mr. Tom Udall. And in the previous report, things were 
purchased like office furniture in these indirect funds. Are 
you trying to more closely link it, at least, to the specific 
reforestation projects?
    Mr. Holtrop. Absolutely.
    Mr. Tom Udall. Mr. Chairman, I would yield back at this 
point and thank both the panelists.
    Mr. Walden. OK. Ms. Herseth, do you want to go ahead for 5? 
I think we still have time. We just have to keep track.
    Ms. Herseth. Yes, just a follow-up, and I think, Mr. 
Holtrop, you in your statement and in response to Mr. Udall's 
question got at a little bit what I was going to ask, but let 
me just say at the outset I have had a number of very 
productive and good meetings with members of the Forest 
Service, a number of Forest Service officials from the prior 
tenure under a previous superintendent to the current officials 
there and sympathize with the challenge that they face with 
limited resources, particularly with the wildfires that we have 
had, with some of the litigation that we have had in the past, 
although it is a much better situation now because of the 
advisory committee's rule, and the drought conditions that we 
have had in western South Dakota. So I want to say that at the 
outset.
    But it sounds--again, using the Black Hills National Forest 
here, which is generally blessed with an abundance of natural 
regeneration that we have spoken about following a timber 
harvest or even some of the wildfires, many of those forest 
fires over the last 4 years have left a number of areas that 
don't regenerate naturally.
    And so I would like to separate policy from implementation 
for a minute and would like for you to clarify for me, in 
addition to what you have already provided, the Forest Service 
policy on reforestation of suitable timberlands following a 
forest fire. So, for example, is it Forest Service policy that 
suitable timberland should be reforested within a prescribed 
amount of time after a forest fire? And what is the Forest 
Service policy regarding when a national forest should 
determine and document reforestation needs following a forest 
fire? So, in other words, if I went out and met with some of 
our forest fire officials, Forest Service officials in the 
Black Hills National Forest this weekend--I am going to be out 
there this weekend, and I am not yet meeting with them, but 
maybe I will--and just asked them about reforestation needs 
after a fire, what should they be able to tell me at this 
point? I know you are going to do more, as you have indicated, 
to provide some clarification. But at this point, based on the 
current status of Forest Service policy, what should they be 
able to tell me are their guidelines?
    Mr. Holtrop. Well, since the question is referring to post-
catastrophic event, a natural event is what you are referring 
to, they ought to be able to tell you that they are looking at 
what their Forest Plan direction is and whether that Forest 
Plan direction is giving them an indication of the various 
resources that they need to manage that piece of land for.
    I think there are many reasons why reforestation--if 
natural regeneration, natural reforestation of trees is not 
going to occur, there are many reasons, such as the Chairman's 
question earlier indicated, many reasons, not just economic and 
not just timber production reasons, why replanting to trees is 
an appropriate thing to do. But there are also circumstances in 
which there are other values in other things that can be 
learned from a wide variety of situations as well. And I just 
think that what our expectation of the local land managers in a 
situation like that is they assess what the needs are, they 
utilize public involvement in that process, and they make wise 
resource decisions as to what the land calls for. They are 
going to make some determinations that natural regeneration is 
the appropriate approach and rely on natural generation, which 
may take longer than others. And if it takes too long to meet 
the resource objectives, then we need to go in and do some more 
direct work to make sure that we're ensuring the reforestation.
    Mr. Walden. We are down to about 3-1/2 minutes in the vote.
    Ms. Herseth. Well, then, one last question. Is there a 
prescribed amount of time that they have to do any of these 
things? Or is that going to be contingent on the Forest Plan?
    Mr. Holtrop. Again, in response to a catastrophic event, 
for the reforestation to occur there is not a prescribed amount 
of time. We do require a post-fire analysis of what those 
regeneration techniques are going to be, and generally we are 
going to get that--in less than a year's period of time we're 
going to have that, and I am not familiar with whether we have 
a national policy as to exactly what that time is.
    Mr. Walden. Thank you. And we will be in recess until after 
the votes.
    [Recess.]
    Mr. Walden. I am going to call the Subcommittee back to 
order. When we had to recess for the vote on the House Floor, 
Ms. Herseth had about a minute remaining. And so I would yield 
back to her for any further comments or questions she may have.
    Ms. Herseth. Just one final comment. Part of the response 
that you gave, Mr. Holtrop, in terms of the direction and 
looking at the Forest Plan, the only comment I would make there 
is that in South Dakota, with the Black Hills National Forest, 
we have the same issue that a few other national forests have 
that I know you are aware of, and that is the length of time it 
is taking us to get a plan or amendments to that plan, and when 
you are looking back then for that guidance as it relates to 
purposes and resources, you are dealing with an outdated plan 
but may very well be nearing the end stages of getting another 
plan finalized. So I think that highlights the need for the 
clarification coming out of your office for everyone at the 
local-regional level to have more guidance here in how to 
address the reforestation challenge.
    Thank you.
    Mr. Holtrop. Thank you. And I think what that does also is 
it highlights the complexity of the various issues that we are 
dealing with, both at the local level and more regionally and 
nationally as well. That's a good point.
    Mr. Walden. I know I have heard some forests, it takes as 
long to do the plan as the plan's length. Do you run into that? 
It can take as much as 8, 10 years to do a 10-year plan?
    Mr. Holtrop. We have run into that situation in various 
places around the country, which is one of the reasons we are 
working in establishing a new rule for planning. That is one of 
the major driving factors in the need for that.
    Mr. Walden. I have one final question before we go to our 
next panel. What changes in reforestation practices have been 
implemented to address concerns over high-density planting 
practices? Because I know in the GAO report they indicate that 
sort of the post-timber harvest, after-timber harvest, 
especially a decade or more ago, maybe 20 years, there was this 
intense reforestation with a plan to do thinning, and we have 
sort of evolved out of that and are not doing the thinning.
    What are you doing now to change the forest replanting 
practices?
    Mr. Holtrop. In general, those forests are planting at a 
lower density. In fact, I would say that that's a pretty common 
statement to say that. In general, we don't plant at the same 
density as we were maybe 10, 15 years ago, with the expectation 
at that time of more intense thinning opportunities on down the 
line.
    I would say that what's really driving that is the 
recognition of the multiple resource values in which we manage 
those lands for, that there are times in which a thinner 
planting spacing is going to result in objectives other than 
just some of the timber production, but it is going to provide 
some of the opportunities for us to accomplish wildlife habitat 
objectives and those types of things.
    One of the things that we need to be careful about, of 
course, is that we want to make sure that if we are going to 
put the investment into regenerating a stand through 
reforestation techniques, that we meet the objective of 
actually reforesting the stand, and we want to make sure we 
don't plant at such a density that competing vegetation, non-
tree vegetation, might outcompete the trees or whatever. So 
there needs to be a balance made in that decision as well.
    Mr. Walden. How do you prioritize for reforestation 
compared to other things? Because these are issues I think 
everybody on the committee has. You know, how do you set what 
is your number one priority and how do you do reforestation?
    Mr. Holtrop. Well, one of the factors, of course, that 
weighs into prioritizing reforestation is under the National 
Forest Management Act we are required to regenerate a stand 
with 5 years of harvesting under the--so if it's a timber 
harvest treatment, in order to meet our legal requirements 
under that Act, that's one of the highest priorities.
    Mr. Walden. But what about these areas where it is not a 
timber harvest? I think there is legislation in the Senate to 
require similar sort of standards for reforestation after a 
catastrophic event--a fire, blowdown, hurricane.
    Mr. Holtrop. You know, the types of things, again, that we 
would utilize to prioritize reforestation are things such as is 
the reforestation necessary in order to make sure that we're 
not going to have soil or water restoration problems because we 
haven't regenerated the stands to accomplish a basic 
stewardship responsibility on the land. Perhaps there's a 
reforestation need that's necessary to meet the needs of the 
habitat of a threatened and endangered species or some other 
high-valued wildlife species that the reforestation is going to 
allow us.
    Those are going to be some of the first-tier, high-tier 
types of things that we're going to prioritize at the top of 
the list of the types of things.
    Obviously the question is also complex from the standpoint 
of we're prioritizing within our reforestation needs, but then 
we also have to prioritize our reforestation needs with all the 
other needs, such as hazardous fuels treatment, some of those 
other types of things as well.
    Mr. Walden. What happens, though, in a stand that has been 
managed or is supposed to have been managed for, let's say, all 
those characteristics for spotted owl and that stand burns? I 
mean, it is what happened in the Biscuit Fire. Would it not 
be--I mean, doesn't it follow then that the goal should be to 
get back to an old-growth stand as quickly as possible if that 
was the--I mean, if you were managing for old growth for 
spotted owl habit, wouldn't it make sense to get back to that 
type of forest as soon as is environmentally appropriate?
    Mr. Holtrop. You would think that in many instances that 
would be the case. Certainly the changed condition that has 
occurred in terms of the amount of old growth habitat because 
of fires such as Biscuit causes a manager to have to make those 
types of determinations or find other places in which that old 
growth habitat can be provided elsewhere as well.
    Mr. Walden. OK. Mr. Shepard, can you respond to that sort 
of general notion of how do you prioritize?
    Mr. Shepard. Pretty much the same way. It depends on the 
land management objectives, of course, but then we look at the 
site conditions out there and the species that we are trying to 
manage for--if it was a species we were dealing with such as 
large pole pine, which usually gets adequate natural 
regeneration, we would put that as an area to watch to see if 
we were going to need to intervene or not, but let nature take 
its course and naturally reseed. An area where we are trying to 
get such as Douglas fir and mixed conifer type, then we would 
probably prioritize those to intervene and do the necessary 
reforestation and stand maintenance to keep those stands 
growing.
    Mr. Walden. OK, very good. Mr. Gilchrest, do you have 
questions for our witnesses?
    Mr. Gilchrest. Wasn't Ms. Herseth questioning?
    Mr. Walden. She actually went, and now we are going to go 
to you.
    Mr. Gilchrest. OK. Thank you.
    Mr. Walden. You stepped out. We actually had a few more 
minutes, so as soon as you were gone, I called on her. So now 
we are to you.
    Mr. Gilchrest. Thank you very much, Mr. Chairman.
    I guess some of the questions were asked and some of the 
answers were forthcoming to have some understanding for what I 
am about to ask, I guess, and my question was: What are the 
goals--who determines the goals of reforestation in all the 
various regions around the country or in a particular national 
forest within a region? And I think you answered that. And to 
some extent, it will vary from region to region, forest to 
forest, landscape to landscape, and I would assume in the 
Forest Service or BLM on a designated wilderness, the 
reforestation goals would be different than they would be in an 
area where the goal was renewed production after the forest was 
regenerated.
    So I guess some of the goals of reforestation are timber 
production, soil, water, wildlife habitat, endangered species, 
those kinds of things. Does the term ``ecosystem'' ever come 
into play with the goal or your priorities for the management 
plan for reforestation?
    Mr. Holtrop. Yes, it does, and the way I would describe 
that is all those multiple objectives that you were just 
describing define an ecosystem, and that is indeed the holistic 
approach that we take as we determine----
    Mr. Gilchrest. So are there forest ecologists on staff that 
have some perspective of that, some understanding of that?
    Mr. Holtrop. We have forest ecologists, we have grass line 
ecologists, we have----
    Mr. Gilchrest. OK. You have got them all.
    Mr. Holtrop. And, of course, biologists and hydrologists 
and foresters.
    Mr. Gilchrest. Soil scientists, you name it. As you pursue 
this, do you think about, do you actually try to accomplish, or 
is there some sense that in the future your management plans 
might be looking at the economic value of the ecosystem 
services that are provided since you are looking at the soil, 
you are looking at water quality, you are looking at habitat, 
and also looking at clean air or the potential for the Forest 
Service to make money with carbon sequestration? Is that in the 
mix anywhere in BLM or Forest Service, that kind of thing?
    Mr. Shepard. Well, we talk about carbon sequestration, but 
we don't have any process right now to consider the economics 
of that. But as Joel said, we do consider all of those values 
in our interdisciplinary teams as we go through our projects.
    Mr. Gilchrest. Do you know anyone that is working on that 
kind of a thing, the economic value of forest sequestration, 
either from a nearby public utility, public entity or a 
community or a coal-fired power plant or anything like that?
    Mr. Shepard. I know that there is work going on on 
sequestration credits, but I am not familiar with it.
    Mr. Gilchrest. I see. Yes, sir?
    Mr. Holtrop. I think I can add something to what Ed was 
saying as well. There is some work going on. The Forest Service 
researchers are doing some work on carbon sequestration and 
some credits. We are beginning to explore what our role should 
be and can be to further look into what are the opportunities 
that we have to encourage wise forest management, not only on 
the public lands but on private forested lands as well, to see 
if there is perhaps some opportunities to keep forest lands in 
forest by----
    Mr. Gilchrest. The Delmarva Peninsula, think of that as 
places where you can come over and plant trees. You know, we 
designate certain areas for refuges. We did that in the last 
couple of years. Actually, the Federal Government purchased 
land to make it a wildlife refuge. Does the Forest Service ever 
go out there looking for more land? We would like you to come 
over to the Delmarva Peninsula. I had another question, though. 
We can talk about that later.
    Mr. Walden. Do I feel a field hearing coming on?
    Mr. Gilchrest. Field hearing on the Delmarva Peninsula in 
October, late October, fall foliage. We could go canoeing while 
we are there, and we will--oh, by the way, if I lose my 
election, I would, for room and board, be one of those guys 
collecting data, and I would walk through those forests.
    [Laughter.]
    Mr. Gilchrest. Just put me some place and let me go, and I 
will use my----
    Mr. Walden. I don't think you are supposed to solicit for a 
job until you have lost your election.
    Mr. Gilchrest. Well, just in case, keep me in mind.
    I had a couple of quick questions, if the Chairman will 
indulge me for a couple extra seconds. How many acres of forest 
in the national forests and how many acres of forest in BLM?
    Mr. Holtrop. The National Forest System is 192 million 
acres, not all of which is forested. Is that the question you 
are asking?
    Mr. Gilchrest. Yes. So 192 million acres. BLM?
    Mr. Shepard. BLM manages 261 million acres, and of that 
approximately 55 million is forested.
    Mr. Gilchrest. So if you looked at the economic value of 
carbon sequestration, there is potential for the Forest 
Service, I assume, to actually make a little money there from 
the private sector. Is that a possibility?
    Mr. Holtrop. I think that is one of the things that we need 
to explore. Again, recognizing that there is also 500 million 
acres of forested lands that are non-Federal lands, and perhaps 
there are some opportunities on those lands as well to explore 
that as an additional incentive to keep those forested lands in 
forest.
    Mr. Gilchrest. Great. I was going to ask a question about 
Timbered Rock in southern Oregon where there was a forest fire 
where I guess there was about 800 acres that was burned--or 
27,000 acres that was burned and 800 acres that was, I guess, 
reclaimed or salvaged and you went through an EIS. That was on 
BLM land?
    Mr. Shepard. Yes.
    Mr. Gilchrest. If there was 27,000 acres burned, what was 
the reason for the small amount of acreage salvaged? And do you 
have any idea how large or how many pages the EIS was to do 
that?
    Mr. Shepard. Yes, I do. There was 27,000 acres total; 
approximately 12,000 acres of that was BLM. It was in a 
checkerboard pattern, so a lot of it was owned by a private 
timber company. It was proposed that we harvest 800 acres of 
that, and the EIS, I believe, was almost a page per acre. I 
think it was something like 700 pages.
    Mr. Walden. Could I follow up? And how much was harvested?
    Mr. Shepard. Right now we haven't harvested it. We're 
enjoined on that.
    Mr. Walden. And how many years has it been?
    Mr. Shepard. That was in 2002, so we're in our third year.
    Mr. Walden. And in that 3-year period, what's happened to 
the value of the trees?
    Mr. Shepard. The smaller trees have lost all their value. 
The larger trees have probably lost 40 to 50 percent of their 
value.
    Mr. Gilchrest. Thanks.
    Mr. Walden. Thank you. We may have to take you up on that 
Delmarva canoe trip, too.
    Thank you very much, gentlemen, both again for your 
service, the BLM and the Forest Service and to our Nation's 
forest and grasslands. We appreciate it, and your testimony and 
comments today are most helpful as we work through these 
issues, and your staffs who help you out.
    Mr. Walden. Now I would like to invite up our third panel 
of witnesses. On panel three we have Dr. Scott Schlarbaum--I 
hope I said that right--Department of Forestry, Wildlife, and 
Fisheries, University of Tennessee; Dr. Jerry Franklin from the 
College of Forest Resources at the University of Washington, 
and Mr. Ken Kane from the Society of American Foresters. And 
since I have sworn in all the other witnesses, it is only fair 
that I swear you in today. So before you get seated, please 
stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Walden. Now pleased be seated. Again, we thank you for 
your comments today. We are looking forward to your testimony 
on this important issue. So now I would like to recognize Dr. 
Schlarbaum. Am I close? OK. And if you could hit your 
microphone, I am not sure it is on.
    Dr. Schlarbaum. How is that?
    Mr. Walden. That is better. Thank you, sir, and welcome.

  STATEMENT OF SCOTT E. SCHLARBAUM, JAMES R. COX PROFESSOR OF 
    FOREST GENETICS, DEPARTMENT OF FORESTRY, WILDLIFE, AND 
    FISHERIES, INSTITUTE OF AGRICULTURE, THE UNIVERSITY OF 
                           TENNESSEE

    Dr. Schlarbaum. Mr. Chairman, committee members, national 
forests are valued for timber, wildlife, recreation, and many 
other uses. Although managed by the Forest Service, citizens 
have input into the Forest Plan for each national forest. The 
Forest Plan is the centerpiece for management actions and 
ensures multiple use and sustained yield of goods and services. 
Fire, insects, adverse weather, and other catastrophic events 
that affect large areas of national forests are unpredictable 
and, therefore, are not addressed in the Forest Plan. 
Reforestation is necessary in order to attain previous 
structure and function as specified by the Forest Plan. 
Successful reforestation is a three-pronged process that 
depends upon funding, a source of living materials, and actual 
management activities.
    Funding for reforestation activities comes from three 
sources: Knutson-Vandenberg or K-V funds; national forest 
vegetation and watershed management budget, NFVW; and the 
reforestation trust fund, RTRT. The K-V dollars are tied to 
planned harvest sales and sales of salvage timber, the NFVW 
funds are appropriated based upon a submitted fiscal year 
budget, and the RTRT funds originate from certain tariffs, both 
of which do not normally consider catastrophic events in 
regional allocations.
    On the surface, it appears that K-V funds generated by 
salvage sales would provide for reforestation. In reality, K-V 
funds do not provide enough dollars to reforest large acreages 
for several reasons. When a catastrophic event occurs and wood 
is plentiful, there can be a market saturation. Another problem 
stems from the National Environmental Policy Act. Under NEPA, 
large salvage logging operations require an Environmental 
Assessment. This process can eventually lead to legal 
challenges which can last until the trees that could have been 
salvaged are worthless due to degradation, and this is 
particularly true for Southern national forests.
    Given the above limitations of the three funding sources, 
it is evident that reforestation backlogs from catastrophic 
events will continue to occur and certain objectives in Forest 
Plans will not be met unless additional funds become available.
    Reforestation efforts often depend upon planting seedlings 
of appropriate seed origin. The foundation for producing seed 
for the production of seedlings in the Forest Service lies with 
the Regional Genetic Resources Programs. In addition to 
producing seed, these regional programs also develop 
genetically resistant trees for various native and exotic pests 
that can cause widespread damage.
    With respect to reforestation backlogs, the regional 
programs should be regarded as an integral part of the 
solution. Any funding increases to address reforestation 
backlogs should be in concert with funding increases for these 
Regional Genetic Resources Programs.
    In Eastern forests dominated by hardwoods, seedlings and 
sprouts of fast-growing species will often quickly dominate a 
site at the expense of slower-growing species such as oaks. 
Forest managers need to have the flexibility in controlling 
these competitors that lack a categorical exclusion for 
herbicides, despite the fact that some herbicides are benign to 
human health and do not move through the soil. I have selected 
three examples of problems that have caused a reforestation 
backlog of approximately 180,000 acres in Fiscal Year 2003 and 
Fiscal Year 2004 in Southern national forests.
    Currently, there are 350 acres of severe oak mortality with 
another 300,000 acres of moderate mortality in the Ozark 
National Forest in Arkansas. The red oak borer has been 
identified as the primary causal agent. Damage occurs from the 
larval stage of this insect, which chews large holes in the 
tree's stem. This damage also predisposes the tree to 
Armillaria root rot and hypoxylon canker diseases and attacks 
by other insects.
    The overall result of the oak mortality will be low-density 
forests with less diversity. Regeneration of the oak component 
will be limited due to the lack of seed trees and intense 
competition, and, unfortunately, there are no seed orchards for 
reduction of red or white oak acorns adapted for the Ozark 
National Forest.
    Southern pine beetle populations began to multiply and 
reached epidemic proportions in 2001 in the Daniel Boone 
National Forest in Kentucky. By 2002, there were dead or 
damaged pines on approximately 70,000 to 90,000 acres. 
Currently the forest is reforesting approximately 600 acres per 
year, which is short of the amount of acreage required under 
the Forest Plan. Correspondingly, a reforestation backlog 
exists. In addition, the Regional Genetic Program does not have 
enough shortleaf pine seed adapted for the Daniel Boone 
National Forest to sustain the reforestation effort.
    And the last example is the Osceola National Forest in 
Florida recently exchanged land with a timber company to better 
consolidate the national forest. Prior to this exchange, a 
prescribed fire on the national forest escaped and burned 
approximately 14,000 acres of land that was intended for the 
exchange. The exchange proceeded, but the Forest Service 
inherited a block of burnt-over land and must fund any 
restoration with existing funds. Reforestation efforts will be 
limited as there are no funds to collect longleaf pine seed 
adapted for the local environment.
    That concludes my statement.
    [The prepared statement of Dr. Schlarbaum follows:]

  Statement of Scott E. Schlarbaum, James R. Cox Professor of Forest 
Genetics, Department of Forestry, Wildlife and Fisheries, Institute of 
                Agriculture, The University of Tennessee

    Mr. Chairman and Committee Members:
    National Forests provide a multitude of opportunities for use by 
American citizens. They are valued for timber, wildlife, recreation, 
and other uses connected with natural settings. Although managed by the 
USDA Forest Service, citizens can have input into the Forest Plan for 
each National Forest. The Forest Plan is the centerpiece for management 
actions on a National Forest that include decisions on reforestation, 
goals and objectives, timber land suitability, wilderness designation, 
monitoring, and other management activities. Moreover, the Forest Plan 
ensures multiple use and sustained yield of goods and services from the 
National Forest System. Fire, insects, adverse weather, and other 
catastrophic events that destroy or damage large areas in National 
Forests are unpredictable and therefore, are not addressed in the 
Forest Plan. Reforestation of these areas is necessary in order to 
attain previous structure and function as specified by the Forest Plan. 
Successful reforestation is a three-pronged process that depends on 
funding, a source of living materials, i.e., seeds, seedlings, sprouts, 
and actual management activities.
    Reforestation Funding--Funding for reforestation activities come 
from three sources: Knutson-Vanderburg (K-V) funds, National Forest 
Vegetation and Watershed Management budget (NFVW), and the 
Reforestation Trust Fund (RTRT). The K-V dollars are tied to planned 
harvest sales and sales of salvage timber from unpredictable events. 
The NFVW funds are appropriated based on a submitted fiscal year 
budget, which normally does not take catastrophic events into 
consideration. The RTRT funds originate from certain tariffs and may 
not exceed $30 million dollars in total. The RTRT funds to each Region 
are based on annual request of current year silvicultural program and 
budget planning information. As with NFVW funds, the RTRT funds do not 
normally consider catastrophic events in Regional allocations.
    On the surface, it appears that K-V funds, generated by salvage 
sales would provide for reforestation, even in a large catastrophic 
event. In reality, K-V funds do not provide enough dollars to reforest 
large acreages for several reasons. When a catastrophic event occurs 
and wood is plentiful, there can be a market saturation, and paper 
mills and sawmills will not buy more logs. This is particularly 
critical to southern National Forests in that the stems of a dead tree 
will degrade in a relatively short period of time. Another problem 
stems from the National Environmental Policy Act (NEPA). Under NEPA, 
generally a large (over 250 acres) salvage logging operation requires 
an Environmental Assessment (EA). When the EA is complete and a 
decision has been made that there will be no significant impacts, a 
Decision Notice is posted as a Paper of Record with an appeal process. 
This process can lead to legal challenges, which can last until the 
trees that could have been salvaged are worthless due to degradation.
    Given the above limitations for K-V, NFVW, and RTRT funding of 
restoration, it is evident that reforestation backlogs from 
catastrophic events will continue to occur and certain objectives in 
Forest Plans will not be met. Additional funding through RTRT or some 
other channel will be needed to properly reforest and manage devastated 
lands according to their respective Forest Plan.
    Source of Living Materials--Reforestation efforts depend upon a 
source of living materials that can be managed or planted to achieve a 
desired outcome. Disturbed forest land regenerates by natural or 
artificial ('tree planting) regeneration. Natural regeneration can be 
occur from seeds and/or sprouts. Natural regeneration by seed requires 
the presence of reproductively mature trees, which are called seed 
trees. Spouting is generally limited to hardwood species, although a 
few coniferous species, e.g., coast redwood, can sprout. The conifer-
dominated western forests of pines, spruces, true firs, and Douglas-fir 
do not regenerate from sprouting and thereby, require seed trees or a 
source of nursery-grown seedlings to regenerate the forest. Eastern 
forests can be either conifer or hardwood dominated. Many hardwood 
species will sprout unless over mature or killed entirely, i.e., stem, 
crown and root system are dead. Therefore, the need for a supply of 
seed for artificial regeneration can be critical for reforestation.
    Seed Origin--Although forest tree species can have natural ranges 
that span many states and physiographic regions, there are genetic 
differences in trees of the same species from different seed sources. 
For example, seedlings of northern red oak from the deep South may not 
be adapted to upstate New York environmental conditions where northern 
red oak also occurs naturally. Reforestation efforts should use 
seedlings from local sources or seedlings from seed orchards that have 
been evaluated in the environment that will be planted.
    Regional Genetic Resources Program--The foundation for artificial 
regeneration within the Forest Service lies in the Regional Genetic 
Resources Programs (Table 1). Regional Genetic Resources Programs 
(RGRP) were formerly called Regional Tree Improvement Programs and 
existed in all Regions with the exception of Region 10 (Alaska). These 
programs were originally developed to improve species for timber 
production through breeding, testing and creation of seed production 
orchards. In recent years, however, the Programs have become more 
holistic in purpose. In addition to producing seed for general 
reforestation or reforestation due to catastrophic events, the RGRPs 
can: 1) initiate gene conservation of threatened and endangered species 
and populations, 2) respond to forest decline from air pollution and 
global warming, 3) respond to changes in emphasis for National Forest 
use, and 4) develop genetically resistant trees for various native and 
exotic pests.
    The continued existence of RGRPs is essential to reforestation 
efforts where artificial regeneration is necessary. The planting of 
seedlings that are adapted to the reforestation site is critical for 
long term survival and productivity. Unfortunately, these Programs have 
been struggling with declining budgets and have been further impacted 
by the Forest Service's Budget Formulation and Execution System, which 
was implemented in FY03. In 1991, the combined RGRP budget was over $16 
million dollars, but had slipped to approximately $10 million dollars 
by 1998. In addition, the Region 2, Region 3, and Region 4 Programs 
were consolidated and placed under the Regional Geneticist for Region 1 
in 1998. The new budget system has removed control of most funds from 
the Regional Geneticists and allocated them to National Forest budgets. 
Forest Supervisors are now faced with the difficult decisions of 
funding immediate needs or long-term needs such as seed orchards, which 
produce seed for reforestation. Seed orchards have been closed or 
mothballed due to lack of funding.

[GRAPHIC] [TIFF OMITTED] T0970.002


    With respect to reforestation backlogs, the RGRPs should be 
regarded as an integral part of the solution. Funding increases to 
address reforestation backlogs should be in concert with funding 
increases for the RGRPs, in order to sustain a supply of seedlings that 
are of the appropriate seed source for reforestation sites.
    Reforestation Management--There are a wide range of management 
activities in conjunction with reforestation. In eastern forests 
dominated by hardwoods, seedlings and sprouts of fast growing hardwood 
species, such as yellow-poplar, black gum, red maple, sycamore, and 
sweetgum, will often quickly dominate a site at the expense of slower 
growing species, e.g., oaks, which are important contributors to 
habitat and diversity. Southern forests have an array of aggressive 
vines, weeds, and grasses that will overtop seedlings unless 
controlled. Forest managers need to have the flexibility in controlling 
these competitors, but lack a Categorical Exclusion for herbicides 
despite the fact that some herbicides are benign to human health and do 
not move through soil, e.g., glyphosate. Herbicide use now requires an 
Environmental Impact Statement (EIS) or an EA, which cost money to 
conduct and can be appealed. Delay by litigation can be critical in 
some regions, as degradation will quickly ruin the market value for a 
log.
    Reforestation Backlogs in Southern Region (R8) National Forests--
Recently, southern National Forests have been subjected to catastrophic 
damage from insects. In addition, a large portion of land was acquired 
that had considerable fire damage. Overall, there is a large 
reforestation backlog in the Southern Region (Table 2).
    Table 2. Reforestation program accomplishments and backlog, FY2003-
FY2005 for the Southern Region (NFVW = National Forest Vegetation and 
Watershed Management funds, RTRT = Reforestation Trust Fund; K-V = 
Knutson-Vanderburg funds). Source: USDA Forest Service R8 2003-2004 
TRACS (Timber Activity Control System) report.

[GRAPHIC] [TIFF OMITTED] T0970.003


    Below are three examples of problems that have caused a 
reforestation backlog in southern National Forests. In each situation, 
there is a lack of funding that has caused a reforestation backlog and 
there is a lack of seed from an appropriate source for artificial 
regeneration.
    Ozark-St. Francis National Forests--Currently, there are 350,000 
acres of severe oak mortality with another 300,000 acres of moderate 
mortality on the Ozark National Forest (Arkansas). In the areas with 
severe mortality, over 50 percent of the red and white oaks are dead, 
and many of the remaining oaks have thinning crowns (loss of leaves) 
indicating that they may die as well. The red oak borer has been 
identified at the primary causal agent. Damage occurs from the larval 
stage of this insect, which chews large holes in the tree's stem and 
branches in the crown. The borer will attack even small oaks, i.e., 3'' 
diameter, and cause mortality. In heavily infested trees, one oak borer 
per linear inch of the stem has been found. This damage predisposes a 
tree to Armillaria root rot and hypoxylon canker diseases and attacks 
from other insects such as white oak borers, carpenterworms, walking 
sticks, and grasshoppers. Although the mortality has been primarily 
ascribed to the red oak borer, the oak-dominated forests on the Ozark 
National Forest were heading for decline because of drought, relatively 
oak age (70-90 years-old), overstocking, and poor site quality.
    The overall result of the oak mortality will be low density forests 
consisting of species inferior for timber and mast production. 
Regeneration of the oak component will be limited, due to the lack of 
seed trees and intense competition from faster growing hardwoods. If 
allowed to occur, this will be a significant change in forest habitat 
and diversity. Restoration of the oak component will require the use of 
artificial regeneration and post-planting management to reduce 
competition. Unfortunately, there are no seed orchards for production 
of red or white oak acorns adapted for the Ozark National Forest. The 
Region 8 RGRP has recently created some oak plantations for eventual 
conversion to seed orchards, but it will be a number of years before 
the trees reach reproductive maturity.
    Daniel Boone National Forest--At the advent of the 21st century, 
southern pine beetle populations began to multiply and reached epidemic 
proportions in 2001 on the Daniel Boone National Forest (Kentucky). By 
2002, there were dead or damaged pines on approximately 70,000 to 
90,000 acres within the Forest boundaries. Within the predominately 
pine stands of the Daniel Boone National Forest, were red-cockaded 
woodpecker colonies, a federally listed endangered species. Until the 
southern pine beetle outbreak, these colonies had been increasing in 
size. The outbreak destroyed their habitat, which necessitated trapping 
the surviving birds and relocating them to more southern locations in 
Arkansas, Georgia, and South Carolina.
    The Forest Plan was revised in 2004 to include an objective to 
reforest 8200 acres in shortleaf pine over the next 10 years and 
approximately 42,000 acres over a longer period of time. With current 
resources, the Forest is reforesting approximately 600 acres per year, 
which is short of the amount of acreage required under the Forest Plan. 
Correspondingly, a reforestation backlog exists. Over time, 
reforestation will become more expensive as hardwood species are in the 
process of dominating the sites and will have to be killed or removed 
prior to planting shortleaf pine. In addition, there is not enough 
shortleaf pine seed adapted for the Daniel Boone National Forest to 
sustain the reforestation effort.
    Osceola National Forest--The Osceola National Forest in Florida 
recently exchanged land with a timber company to better consolidate the 
National Forest and thereby, reduce management costs, improve water 
quality, and reduce forest fragmentation, which is important to 
wildlife. Prior to the exchange, a prescribed fire on the National 
Forest escaped and burned approximately 14,000 acres of the land that 
was intended for exchange. The exchange proceeded, but the Forest 
inherited a block of burnt-over land, instead of a longleaf pine 
forest, and must fund any restoration with existing funds, i.e., from 
RTRT and NFVW. Reforestation efforts will be limited as there are no 
funds to collect longleaf pine seed adapted for the local environment.

Closing Statement
    Reforestation backlogs on National Forests will continue to occur 
as catastrophic events are difficult to predict. Provisions for 
additional funding to meet immediate reforestation needs from 
catastrophic events should be made. Otherwise, there will continue to 
be alterations in the habitat and diversity on National Forests where a 
catastrophic event has occurred, resulting in failure to meet certain 
Forest Plan objectives. Reforestation should be regarded as a 
combination of actions leading to a single outcome. The Regional 
Genetic Resources Programs are the foundation for reforestation where 
artificial regeneration is required and thereby, are integral in the 
reforestation process. Increases in funding to meet reforestation 
backlogs should correspond to increases in the Regional Genetic 
Resources Programs' budget in order to generate enough seed of 
appropriate origin to meet reforestation needs. Management activities 
in conjunction with reforestation should be efficient and 
environmentally safe. A Categorical Exclusion for the use of benign 
herbicides to control competition in reforestation plantings would 
significantly improve survival and growth without damaging the 
environment.
                                 ______
                                 
    Mr. Walden. Thank you very much.
    Mr. Kane?

STATEMENT OF KENNETH KANE, SOCIETY OF AMERICAN FORESTERS, KANE, 
                          PENNSYLVANIA

    Mr. Kane. Thank you, Mr. Chairman.
    I am here today representing the Society of American 
Foresters----
    Mr. Walden. I am not convinced your microphone is on or it 
is close enough to you. Those have to be fairly close.
    Mr. Kane. How is that? Is that better?
    Mr. Walden. I think so.
    Mr. Kane. OK. I am here today representing the Society of 
American Foresters. SAF is an organization of over 15,000 
professional foresters in all segments of the profession, from 
consultant foresters like myself, to academics, scientific 
researchers, and Federal and State and local agency personnel. 
SAF members believe it is our responsibility as professionals 
to ensure the continued health and long-term sustainability of 
both public and privately owned forest resources for the 
current and future generations. Over the last several decades, 
SAF has become increasingly concerned with the lack of action 
in Federal forests that is needed to maintain and improve these 
forests and their associated resources. Foresters need to be 
able to apply the proven practices of silviculture, which at 
times can include timely human-induced reforestation, to ensure 
over the long run that our forests are healthy and the 
objectives set forth for these forests can be met. As the 
General Accountability Office report outlines, reforestation 
has become a major problem on National Forest System lands. The 
backlog of reforestation can inhibit proper stewardship of our 
forests and can reduce the health and long-term viability of 
these forests.
    As you said so well in your opening remarks, our area was 
pretty much harvested early on from large sawmills. This is a 
typical sawmill that occurred in our area around 1900. The 
devastation from the intense harvest with firewood and forest 
product materials left a landscape that the next slide will 
show. This landscape was not uncommon across Pennsylvania. In 
fact, around 1900, Pennsylvania, most of Pennsylvania looked 
like this, coupled with the deer herd that was reduced by 400 
animals at that time, as the settlers used the natural 
resources of the area to survive.
    This is what the forest looked like prior to settlement. 
You'll see a lot of vertical structure, a lot of old growth 
down and dead and woody material. However, after the 
harvesting, the next slide depicts what the forest looked like 
after harvesting. The large materials were taken to the 
sawmills, and in remote areas small, low-value pole timber was 
left behind. This land was purchased primarily by the Allegheny 
National Forest that comprises now half a million acres of 
public land in our area.
    The next slide depicts the very first timber sale on the 
Allegheny National Forest in 1927 in the little Arnot 
watershed. You will notice the next series of slides is taken 
from the exact spot for a period of approximately 70 years. 
This is in the spring of 1927, 1937, 1947, 1957, 1967, 1977, 
1987, all the way to 1998, which depicts a mature Allegheny 
hardwood forest.
    Mr. Walden. Can you tell us what the tree types are?
    Mr. Kane. Interesting. That's a great question. I hate to 
take up the time, but to answer your question in the interim of 
my time----
    [Laughter.]
    Mr. Walden. Suspend the clock.
    Mr. Kane. OK. Thank you for that opportunity. But I am 
trying to depict 150 years of history in 5 minutes, so thank 
you for bearing with me. But the species you see in this 
picture, the larger trees you see are black cherry, prunus 
serotina, which is the primary species of the Allegheny forest 
type. Many accuse us foresters of managing primarily for that 
tree. However, if you couple what I have explained to you in 
the low deer herd in 1900, today the estimated deer herd in 
Pennsylvania is 1.6 million animals. The problem we are having 
and that I will depict later on in this presentation is with 
that low deer herd, we were able to regenerate a very diverse 
forest. The smaller tree on the right-hand side of that is a 
sugar maple, acer saccharum. What we tried to do in managing 
our resource is we carry the acer saccharum--when we manage for 
the forest resource, we try to carry that sugar maple into the 
next rotation, and oftentimes we will let that tree go for 200 
years. However, the black cherry matures in about 100 years, 
which is the crisis that we have before us today. We not only 
are susceptible to the blowdown that I am going to show you, 
but we are also susceptible of overmaturity.
    The slides that I've depicted show the forest in a dormant 
state, our hardwood forest in a dormant state. The next slide 
will show you what the forest floor looks like with 1.6 million 
deer on our landscape. That slide, you will see hayscented fern 
in the foreground, and if you look very closely, in the 
background you will see at about 5 foot a line, horizontal. 
That is a deer browse line. That is the impact of the white-
tailed deer to our forest.
    Just yesterday, I attended a conference at Penn State, the 
Pennsylvania Forest Issues Conference, and at that conference 
it was stated by research data that two-thirds of Pennsylvania 
currently is unable to regenerate itself without foresters 
actively managing that resource. Two-thirds of Pennsylvania's 
17 million acres of forestland can't regenerate itself because 
of that condition, because the white-tailed deer changes the 
forest structure on the forest floor, inhibiting natural 
species to advance.
    The next slide will show you how we're susceptible to 
blowdown. We experienced a blowdown in 1985 that damaged the 
13,000 acres in the Allegheny National Forest, and in 2003, we 
had a blowdown that blew down 10,000 acres.
    The next slide will show you the impact. That is an aerial 
infrared photo of the Allegheny National Forest, the impact of 
the tornadoes that crossed it in 1985. That area, 13,000 acres 
was blown down quite severely, as you can tell by the color 
infrared. That area was let for timber sale within 2 years of 
blowdown. The 2003 storm, now in 2005, less than 20 percent of 
the area has been let for timber sale salvage.
    Mr. Walden. Excuse my ignorance. Is it the blue or the red 
that was blown down? The blue?
    Mr. Kane. The red is the growing infrared. The gray in the 
middle is the impact of the tornado.
    Mr. Walden. Thank you.
    Mr. Kane. Which was quite severe. It was a swath 
approximately a quarter to a mile wide and 60 miles across our 
half-million-acre national forest.
    The next slide shows you what the regeneration looks like 
in that tornado swath today. Twenty years later we have a 
sapling stand, very similar to that stand that you saw in my 
earlier slide of 1937.
    The next slide shows you why we can't let our forest go to 
late succession. That is a beech tree. The species on--the same 
tree, species on the left is early stages of the beech scale 
nectria-complex; the middle is when the tree is on the killing 
front; and on the right is the late stages of the beech scale 
nectria-complex. Beech scale nectria-complex is a disease that 
was brought into North America at the point of Nova Scotia in 
1890 from Europe, and it has been moving south and west ever 
since. The Allegheny Plateau is now in the killing front of 
that disease. Beeches are late successional species in our 
forests, so we can't support a late successional forest. In 
Europe, the beech tree is known as--the disease is known as the 
beech snap disease because the trees tend to snap off between 
15 and 30 feet high. So they're not even good areas for 
recreation once you're in late succession because you're in 
there, the wind blows, and the trees start snapping off all 
around you.
    It's interesting. I know our area may not quite be as 
beautiful as the peninsula you were invited to earlier, but we 
very much would enjoy having you up for a tour, if you were 
inclined.
    Mr. Walden. Yes, snapping tree tour. That will work.
    [Laughter.]
    Mr. Kane. Also, we're susceptible to a disease that's 
exotic that is in another late successional species, which is 
the hemlock wooly adelgid, which is attacking our State tree, 
the Eastern hemlock.
    The next slide shows you what we are up against today. The 
upper left is straight maple, and the low-story vegetation that 
takes over our lower canopy that won't allow natural forest to 
replace itself, primarily because of our friend the white-
tailed deer. Bambi is beautiful, but she can cause a lot of 
problems.
    The lower left shows what we have to do. That's a herbicide 
apparatus that we use to use herbicides, as Dr. Schlarbaum 
referred to, herbicides that are inert to man, but they are 
herbicides that we use daily, such as glyphosate, which is 
Round-up that we use around our homes. That is the primary 
herbicide we use to control these species on the ground.
    And then, of course, the beech brush, the young root 
suckers that occur from the dying beech from the scale nectria. 
They reproduce through their roots, so we get that thick brush 
you see in the lower right.
    The next slide is my final slide that I will try to 
conclude my comments with. That is a woven wire deer exclosure. 
Those are what we have to erect on our plateau to regenerate 
our forest. The area to the right is inside the exclosure. The 
area to the left is outside. The difference is quite stark. 
That fence to erect today is--2 years ago, prior to the cost of 
energy and steel increasing, that cost us approximately $1.50 a 
linear foot to construct. I'm currently under contract with a 
contractor to put some of that fence up at $2.20 a linear foot.
    So, in conclusion, action needs to be taken now to ensure 
the establishment and growth of regeneration in disturbance 
areas of northwest Pennsylvania and in many areas throughout 
the country. Forest policy, funding, and other factors that 
preclude timely reforestation are evident in comparing the 
response, of course, to the 1985 and the 2003 wind events.
    Thank you for the extra time.
    Mr. Walden. Well, it is very helpful, especially those of 
us from the West who aren't dealing with some of the issues you 
are, but as a committee we have that responsibility. So it has 
been most informative.
    [The prepared statement of Mr. Kane follows:]

 Statement of Kenneth Kane, Consulting Forester, Keith Horn Forestry, 
          Inc., representing the Society of American Foresters

    My name is Kenneth C. Kane. I am president of Keith Horn Forestry, 
Inc., Consulting Foresters, in Kane, Pennsylvania. I have been 
practicing forestry full time on the Allegheny Plateau since 1983. I am 
also a native of Kane, Pennsylvania, a small community located at the 
eastern edge of the Allegheny National Forest. It was growing up in the 
Allegheny Plateau Region that motivated me to attend Penn State 
University and obtain my Bachelor of Science degree from Penn State's 
School of Forest Resources.
    I am here today representing the Society of American Foresters 
(SAF), an organization of over 15,000 professional foresters in all 
segments of the profession, from consultant foresters like myself, to 
academics, scientific researchers, and federal, state, and local agency 
personnel. SAF members believe it is our responsibility as 
professionals to ensure the continued health and long-term 
sustainability of both public and privately owned forest resources for 
current and future generations. Over the last several decades, SAF has 
become increasingly concerned with the lack of action in federal 
forests that is needed to maintain and improve these forests and their 
associated resources. Foresters need to be able to apply the proven 
practices of silviculture, which at times can include timely human-
induced reforestation, to ensure, over the long-run, that our forests 
are healthy and the objectives set for these forests can be met. I will 
include, for the record, SAF's position statement in this issue, titled 
Use of Silviculture to Achieve and Maintain Forest Health on Public 
Lands. It is difficult to meet the public's demands for these lands 
when foresters are prevented or restricted from practicing our 
profession. As the General Accountability Office Report outlines, 
reforestation has become a major problem on National Forest System 
lands. The backlog of reforestation can inhibit proper stewardship of 
our forests and can reduce the health and long-term viability of these 
forests.
    Many well-intentioned people ask if we should simply allow forests 
to regenerate on their own. In fact, most forests can regenerate 
successfully without human influence, However, when society expects 
(and legally requires) responsible stewardship of our forests and 
diverse values from these forests--clean water and air, wildlife 
habitat, recreational opportunities, forest products, and scenic 
beauty, it is sometimes necessary to intervene. Human-induced or 
artificial reforestation is often needed to accelerate the growing 
process and move more quickly towards meeting the demands society 
places on forests. Human induced reforestation is also beneficial where 
there is an abundance of invasive species, wildlife such as deer, a 
real problem in northwest Pennsylvania, or other conditions, that would 
prohibit natural regeneration of the desired forest. Additionally if 
there is a lack of seed trees in the area, it may take years for 
natural regeneration to take hold, putting the soil at risk of erosion 
and putting the area at risk of invasive species.
    Delayed or inadequate reforestation after catastrophic events, such 
as wildfires, hurricanes, blow downs, and ice storms, is of particular 
concern. In some cases it is extremely difficult to naturally reforest 
these areas to the desired species and composition in a timely manner 
and intervention is needed through forest management and reforestation 
practices. At times foresters need to remove a proportion of dead and 
dying trees in a disturbance area to provide access, remove safety 
hazards, or reduce the risk of insect infestations or fire danger the 
dead and dying trees can create. This kind of activity encourages 
forest regeneration.
    I'd like to share a case example of the reforestation problem from 
the eastern U.S., in the Allegheny Plateau. The example demonstrates 
the need for timely reforestation in the Allegheny region, particularly 
after catastrophic events, to achieve the objectives set out for these 
areas and restore the desired species composition and forest structure. 
These problems are certainly not exclusive to the eastern U.S.--similar 
issues are prevalent after wildfires in the west and south, blow-downs 
in the boundary waters, hurricanes on the east coast and after many 
other disturbances.
    Extensive timber harvesting in the Allegheny region in the early 
1900's coupled with a greatly reduced deer herd provided ideal 
conditions for the establishment of a new forest of shade intolerant 
hardwoods such as Black Cherry, White Ash, and Tulip Poplar, along with 
Red Oak and Maple. At the turn of the last century, these lands were of 
little value to timber companies and were sold to the federal 
government, forming the Allegheny National Forest. The first timber 
sale was conducted on the little Arnot watershed in 1927. I have 
attached to this testimony a pictorial sequence of the development of 
the forest as it moved from an early successional seedling to sapling 
stand, to a poletimber stand, to a light sawtimber stand to eventually 
in seventy years, a mature Allegheny hardwood sawtimber stand.
    Unfortunately, these beautiful forests do not stop changing once 
they are mature. Mature Allegheny Hardwood forests are very susceptible 
to wind throw as we experienced in 1985 with the series of tornadoes 
that crossed the region and again in 2003 with a combination of 
tornadoes and intense thunderstorms. The 2003 storm resulted in 
approximately 10,000 acres of downed trees.
    These natural disturbances should create a scenario to regenerate 
the forest without human intervention--Natural seedlings and a seedbank 
from the blow down trees, abundant light created from the disturbance, 
the same moist rich soil, and natural protection from the blow down. 
However, other influences on the landscape have greatly inhibited the 
capacity of the forest to naturally regenerate on its own.
    First and foremost, the whitetail deer population has exploded. The 
herd that was estimated at only 400 animals in Pennsylvania in the 
early 20th century is now estimated at 1.6 million. The deer through 
over-browsing, have changed the species composition of the forest floor 
from diverse wild flowers, shrubs, and seedling trees to hayscented 
fern, beech brush, and striped maple, preventing the natural 
regeneration of desired species. The beech brush, fern, and striped 
maple eliminate other species desired for diversity and favorable stand 
structure.
    Insects and diseases are also a factor precluding natural 
regeneration of this forest type. Although American Beech is a late 
successional forest species, an exotic disease known as the beech scale 
nectria-complex prevents the tree from occupying the upper canopy of 
the forest and providing valuable mast (food) for animals. The Hemlock 
wooly adelgid insect threatens the native Hemlock in a similar manner. 
These and other invasive species often preclude regeneration of 
desirable native species.
    In order to overcome these hurdles and restore the forest to 
desirable species composition and structure, foresters must be able to 
employ modern science and professionally accepted techniques. In some 
areas, foresters need to be able to salvage a portion of the down 
timber to gain access to the forest or create conditions where shade 
intolerant species can grow. In some cases, herbicides may need to be 
used to control undesirable vegetation, invasive species, and promote 
species diversity. Deer exclosure fences can also be constructed to 
protect diverse early successional forests from deer and additional 
steps can be taken to work with wildlife agencies to bring deer 
populations into balance with the habitat. Fertilizers can also be used 
to enable regeneration to grow past the level of deer browse.
    Action needs to be taken now to ensure the establishment and growth 
of regeneration in disturbance areas in northwest Pennsylvania and in 
many areas throughout the country. Forest policy, funding, and other 
factors that preclude timely reforestation are evident in comparing the 
response to the 1985 tornado and the 2003 blow down. After the 1985 
event--covering a much larger area than the 2003 event--the Allegheny 
National Forest completed over 80% of the salvage by 1987 and the area 
is now fully regenerated. Here in 2005, nearly two years after the 2003 
storm, less than 20% of the affected area has been salvaged and even 
less has been reforested. In contrast on private land and state land, 
the salvage is nearly complete at over 80% salvaged. Once this material 
is removed, the area can be quickly reforested to ensure the presence 
of desirable species. On the federal lands, where this material is 
being removed at a much slower rate or not at all, reforestation is 
slow and will most likely not produce desired results.
    The Allegheny Hardwood Forest type is a unique forest ecosystem. We 
need to utilize the science available to us to regenerate the forest in 
a timely manner and ensure the continuation of this unique ecosystem, 
before the opportunity passes.
    NOTE: Pictures attached to Mr. Kane's statement have been retained 
in the Committee's official files.
                                 ______
                                 
    Mr. Walden. Dr. Franklin, we are delighted to have you 
here, although I was a little concerned, you being a Husky and 
me being a Duck, but, you know, we will put that aside.
    Dr. Franklin. I am worse than a Husky. I am a Beaver.
    [Laughter.]
    Mr. Walden. That is--I won't ask you about the football 
players and the sheep, you know, the guy that got pulled over. 
But, anyway, we are delighted to have you here and look forward 
to your testimony today.

 STATEMENT OF JERRY F. FRANKLIN, COLLEGE OF FOREST RESOURCES, 
         UNIVERSITY OF WASHINGTON, SEATTLE, WASHINGTON

    Dr. Franklin. I will briefly go over the points in my 
testimony. I had understood that we were really focusing on the 
GAO report, and I just want to say I agree with the general 
conclusions of the GAO report. I think there are serious 
deficiencies in providing accurate and nationally consistent 
data regarding reforestation and stand improvement needs, as 
well as on a number of other topics. And the absence of such 
data bases, combined with the massive retirements of career 
professional foresters, is resulting in a significant and 
irretrievable loss of institutional memory on the part of the 
Forest Service.
    This is a really serious issue. We have no record of what 
has gone on on a lot of that landscape. We cannot identify who 
did what when and why.
    However, perhaps the most fundamental of the GAO findings 
in importance is the need to, as they put it, ``clarify the 
direction and policies for the reforestation and timber stand 
improvement program to be consistent with the agency's current 
emphasis on ecosystem management.'' And I would have to say, I 
think, the Forest Service has not systematically assessed its 
objectives and methods, silvicultural prescriptions, for 
example, in reforestation and stand improvement in light of the 
dramatic shift from timber production to ecosystem management 
that has occurred in the last 15 years.
    Objectives and practices in reforestation and stand 
improvement need to reflect these new management objectives and 
not the historic timber emphasis, except where that's 
appropriate to the land allocation. What was appropriate for 
timber production is not necessarily good for many ecological 
objectives.
    For example, the traditional practice following natural 
disturbances calls for rapid re-establishment of dense (``fully 
stocked'') stands of commercially important tree species. Such 
an approach may be antithetical to both short- and long-term 
ecological objectives. As an example, early successional forest 
habitat--meaning relatively open areas free of dominance by 
closed forest canopies--characteristically have very high 
levels of species diversity and are the site of many important 
ecological processes. That is when a lot of the nitrogen-fixing 
organisms are found, for example.
    Further, traditional reforestation practices can result in 
perverse outcomes, and a great example of this is on sites that 
suffer uncharacteristically severe--meaning stand replacement--
wildfire, where we get intense fire where it is not 
characteristic. On such sites it is currently the common 
practice to salvage and immediately re-establish dense, uniform 
plantations. What have we done? We have effectively recreated 
the conditions for the next, uncharacteristic stand replacement 
fire. And a lot of the problems that we have with 
uncharacteristically dense stands in the West, particularly on 
the coast, has to do with the fact that we created those 
stands. Sierra Nevada is a great example of where we have done 
it.
    An additional perverse example of an outcome from 
traditional reforestation practices applies particularly on the 
west side in the Pacific Northwest, the west side of the 
Cascades, and that's where we are proposing to go out and 
create new dense stands--they are plantations--on sites where 
we ultimately want to create owl habitat. Now, we have a big 
program specifically to correct that condition on a lot of 
designated owl habitat. So, you know, what are we doing? We are 
creating more work for ourselves in the future.
    I would also add that stand improvement needs and practices 
need serious reconsideration along with the reforestation 
practices. The treatment of young stands to restore ecological 
values is often a very different process than that that we use 
to achieve timber management objectives.
    I did want to end with just a comment that I think many 
Forest Service professionals are really doing their best to 
understand the differences and adjust their assessments and 
prescriptions accordingly, and I really give them high marks 
for their efforts. However, agency traditions and local 
policies may not always allow them to do what they think is 
best.
    I would encourage you to think about encouraging the Forest 
Service to do a serious agency-wide reevaluation and 
rationalization of reforestation and stand improvement 
policies. I think they need to systematically examine and 
revise the philosophies, principles, and practices on which its 
silvicultural activities are based, including reforestation and 
stand improvement. I think that would be an important and 
worthy exercise.
    Thanks.
    [The prepared statement of Dr. Franklin follows:]

Statement of Jerry F. Franklin, Professor, College of Forest Resources, 
                        University of Washington

    Jerry F. Franklin is Professor at the College of Forest Resources 
at the University of Washington, Seattle, Washington, His degrees are 
in Forest Management from Oregon State University (BS ``59, MS ``61) 
and plant ecology from Washington State University (PhD, ``66). He has 
over 50 years of experience in forest management, silviculture, and 
forest ecology, primarily with the USDA Forest Service Pacific NW 
Research Station (35 years) and as a university professor.
    I agree with the general conclusions of the GAO report. The Forest 
Service does have serious deficiencies in providing accurate and 
nationally consistent data regarding reforestation and timber stand 
improvement needs. I would note that there are many similar topics 
where the agency lacks consistent and retrievable documentation of 
stand conditions, past silvicultural activities, and management needs 
on national forest lands. The absence of such data bases, combined with 
the massive retirements of career professional foresters, is resulting 
in a significant and irretrievable ``loss of institutional memory'' on 
the part of the Forest Service.
    However, perhaps the most fundamental of the GAO findings in 
importance is the need to ``clarify the direction and policies for the 
reforestation and timber stand improvement program to be consistent 
with the agency's current emphasis on ecosystem management'' (p. 36). 
The Forest Service clearly has not systematically assessed its 
objectives and methods (silvicultural prescriptions) in reforestation 
and stand improvement in light of the dramatic shift from timber 
production to ecosystem management that has occurred in the last 15 
years. This failure is resulting in projects, prescriptions, 
assessments, and inventories that are neither consistent with 
ecosystem-based objectives nor consistent among regions or even 
national forests within a region.
    The emphasis in managing much of the national forest land base has 
shifted from maximizing timber production to other resource objectives, 
such as providing habitat for biodiversity and restoring forests to 
historic and less fire-prone conditions. Objectives and practices in 
reforestation and stand improvement programs need to reflect these new 
management objectives and not the historic timber emphasis. What was 
appropriate for timber production is not necessarily ``good'' for many 
ecological objectives!
    For example, traditional practice following natural disturbances 
called for rapid re-establishment of dense (``fully stocked'') stands 
of commercially important tree species. Such an approach may be 
antithetical to both short- and long-term ecological objectives. Early 
successional forest habitat--relatively open areas free of dominance by 
closed forest canopies--characteristically has high levels of species 
diversity and is the site of many important ecological processes, such 
as nitrogen fixation. Allowing for the slower and less uniform process 
of natural regeneration may have greater ecological benefits, 
particularly when such naturally disturbed areas are allowed to retain 
the structural legacies of the previous stands--i.e., are left 
unsalvaged.
    Traditional reforestation practices often result in perverse 
outcomes, such as on sites that suffer uncharacteristically severe 
(stand replacement) wildfire as a result of uncharacteristic fuel 
accumulation. On such sites it is currently common practice to salvage 
and immediately re-establish dense, uniform plantations--effectively 
recreating the conditions for the next, uncharacteristic stand-
replacement fire! In some national forests successful past efforts to 
replace under-stocked natural stands with dense plantations have been 
as important as fire suppression programs in creating fire prone stands 
and landscapes. This may have been appropriate when the objective was 
to intensively tend these stands for timber production but such 
practices are not consistent with current objectives. Many 
professionals in the agency recognize such inconsistencies and have 
made efforts to change practices but past regulations (e.g., reforest 
in five years) and tradition often make this difficult or impossible.
    Additional examples of perverse outcomes from traditional 
reforestation practices can be found in the Pacific Northwest. Here the 
agency is engaged in a major program--appropriately I would argue--to 
treat plantations established during the last forty years so as to 
accelerate development of structurally complex forests, which provide 
habitat for species such as the Northern Spotted Owl. Why would we 
continue to establish new dense plantations of this type on sites where 
our goal is structurally and compositionally complex forests?! It would 
not achieve our ecological goals and, if successful, result in the need 
for additional stand improvement treatments.
    I would emphasize again the importance of structurally complex, 
gradually reforesting early successional habitat for ecological 
diversity. Mount St. Helens has provided us with a clear example of the 
unique contributions that large, slowly reforesting areas of this type 
can make to regional biological diversity. For example diversity and 
density of avifauna (birds), amphibians, and meso-predators are at 
extraordinarily high levels in the Mount St. Helens landscape.
    Stand improvement needs and practices need serious reconsideration 
along with reforestation practices. Treatment of young stands for 
ecological purposes often contrasts with what is done to achieve timber 
management objectives. For example, creation of uniform stands is a 
goal in timber management; stimulating spatial heterogeneity through 
variable density thinning is often a goal in ecologically-oriented 
stand treatments. Related to this, ecological treatments often involve 
removal of some of the dominant trees while traditional timber thinning 
is ``from below''--removal of only the smaller trees. Traditional wood 
production thinning focuses on elimination of commercially unimportant 
species and defective trees while ecological thinning may focus on 
retention of minor stand components and trees that have special value 
as habitat.
    Many Forest Service professionals understand these differences and 
are adjusting their assessments and prescriptions accordingly. I give 
high marks to the insight and creativity of the majority of the 
agencies professionals as they deal with a bewildering array of new 
knowledge and new goals. However, agency traditions and local policies 
may not always support their efforts.
    A serious, agency-wide re-evaluation and rationalization of 
reforestation and stand improvement policies is urgently needed. Even 
the language that is utilized--``timber'' stand improvement--is 
inappropriate where development and enhancement of ecological values 
are really the primary objective. The language helps perpetuate the 
confusion of field personnel, stakeholders, and decision makers about 
what is really intended with reforestation and stand improvement 
activities. There have been profound expansions in the scientific 
underpinnings for silviculture along with the dramatic changes in 
management direction that warrant agency-wide attention.
    A major national initiative by the Forest Service to systematically 
examine and revise the philosophies, principles, and practices on which 
its silvicultural activities are based--including reforestation and 
stand improvement--would be an important and useful exercise.
                                 ______
                                 
    Mr. Walden. Thank you again, Dr. Franklin. We appreciate 
your comments on this important topic. Thanks for being here.
    I am going to yield to my colleague from Oregon, who is in 
the middle of a markup in another committee, but I know has an 
intense interest in these issues. We appreciate Mr. DeFazio 
being here today, and I will turn it to you first for question.
    Mr. DeFazio. Thank you, Mr. Chairman. I appreciate the 
courtesy. Yes, we are in the middle of a lengthy homeland 
security markup, and I have got to run back.
    I am particularly interested in these issues, representing 
a district more than half owned by the Federal Government, 
predominantly in forests. And, you know, I would direct a 
couple of questions to Dr. Franklin, although to Mr. Kane I 
would observe, if the white deer are that much of a problem, I 
don't know what has happened to your hunter population there in 
Pennsylvania.
    [Laughter.]
    Mr. Kane. Interestingly enough, Congressman, Pennsylvania 
has a million hunters. We have one of the largest hunting 
populations in the United States.
    Mr. DeFazio. Well, then, maybe they need to be reoriented 
onto what they are hunting.
    [Laughter.]
    Mr. DeFazio. Or beyond that, we have got a few extra 
cougars and we could lend those to you, and then maybe some 
wolf reintroduction would be good.
    Mr. Kane. Interesting comment. The hunters have become lazy 
with an overabundance of deer. It is an issue in itself within 
Pennsylvania. Thank you for your comment.
    Mr. DeFazio. Dr. Franklin, so salvage logging, can it occur 
and meet ecological objectives? I mean, are there cases where--
or certain sizes of trees or stands where that would be 
allowable in your opinion, or desirable, shall we say?
    Dr. Franklin. Yes, I think those are relatively uncommon. I 
don't think, you know, that that circumstance generally exists. 
But there are circumstances of that sort, and it would be, for 
example, on a case where you get an uncharacteristic stand 
replacement fire and you have large fuel accumulations left 
after that fire, and you're concerned about having another 
repeat, excessively intense fire. So there are circumstances. 
But for the most part, salvage logging effectively does little 
or generally no ecological good. We do it. We do it for 
economic reasons. But in terms of a direct benefit for recovery 
processes, generally it is not.
    Mr. DeFazio. So in the Northwest, in particular, matrix 
lands would be handled differently than LSR lands in sort of 
salvage and reforestation.
    Dr. Franklin. Absolutely. You know, the land allocation is 
critical. What are your objectives for that acre? Are they 
ecological, or are they timber production? And if they are 
ecological, then particularly on the west side, salvage is not 
appropriate. It doesn't make a positive contribution. It 
doesn't make a direct contribution.
    Mr. DeFazio. I thought, though, from looking at your 
testimony that if we had an area that had burned where you had 
a mix of fairly dense smaller trees that were not thoroughly 
burned mixed into larger trees, some of which were dead or 
dying and others which weren't, that you might go in there, 
remove the fuel load and the smaller trees, which perhaps 
ideally we might have done before we had the fire. Is that 
correct?
    Dr. Franklin. That's correct.
    Mr. DeFazio. And to get any value out of those, that would 
have to be done----
    Dr. Franklin. Quickly.
    Mr. DeFazio. Very quickly. OK.
    Dr. Franklin. Absolutely.
    Mr. DeFazio. That is an interesting twist, sort of the 
inverse of what we look at now. We look at the highest timber 
value bigger, older stuff, and the smaller trees are ignored. 
And then we generally engage in a longer fight over the larger 
trees as opposed to expediting--perhaps we could get some 
consensus on expediting removal of the smaller trees.
    I also would like--I appreciate the issue you raised where 
you talked about the uncharacteristically dense stands, and it 
is my understanding from talking to the Forest Service that, 
looking at west side Oregon and Washington, 
uncharacteristically dense stands west side, and going into 
thin for ecological value but achieving commercial grade 
production in doing that is somewhere around 6 billion board 
feet, if you want to measure it that way. Obviously, perhaps, 
you wouldn't want to measure it that way. But to me it seems 
like a missed opportunity here, and anything you want to expand 
on on the pre-fire condition of some of the west side forest 
and the uncharacteristically dense stands and the wisdom or 
lack thereof in terms of not moving that back more toward a 
natural system before a fire. Could you just briefly comment on 
that? I am about out of time.
    Dr. Franklin. I think there are two places where we really 
aggressively need to treat stands, and on the west side it's 
particularly in the younger stands that are overly dense. We 
thought we were going to primarily focus on maximizing timber 
production. We aren't anymore, and there's a very large acreage 
of those and a very large need for treating those. And 
certainly that would yield a potentially significant amount of 
timber.
    The other place where we have a very significant need is 
more in the eastern slopes of the Cascades, where we have 
stands that are clearly--and these include older trees--that 
are clearly in a condition that it is not characteristic and 
will lead to an intense fire, which is not characteristic of 
that site. And, clearly, there's a real need to get into a lot 
of those stands and largely remove small and medium-size 
material so that, in fact, those forests are sustainable.
    In southwestern Oregon, you know, there is a very complex 
mix of conditions. It is really complicated. So, you know, it 
is sort of a mix of both places where it's appropriate and 
places where it's inappropriate.
    Mr. DeFazio. Yes, if I would--and, again, it is somewhat 
difficult to determine sometimes, but some people want to 
restrict that to a particular diameter. But, for instance, I 
have witnessed on the Malheur where there has not been a 
significant fire, mostly because of human intervention in some 
places for 90 years, where you have Doug firs of significant 
diameter growing up into the crowns of ponderosas that would 
survive a fire, but the Doug fir is like 20-some-odd inches in 
diameter. And so the measures cannot be just sort of, well, we 
will go in and take out all the trees less than a certain 
diameter. It has got to be we want to protect the remaining old 
growth ponderosa, which might mean removing some significant 
but exotic trees.
    Dr. Franklin. I agree with you absolutely, and it needs to 
be objectively driven, and arbitrary diameter limits are not a 
particularly good approach to that. And I have seen exactly the 
same thing where 18-, 20-, 22-inch diameter white firs are 
tucked into the crowns of some of those old growth ponderosa 
pine, and I would like to see us keep those pine. And to do 
that you have to remove that white fir.
    Mr. DeFazio. Thank you.
    Thank you, Mr. Chairman, for your indulgence.
    Mr. Walden. Thank you, Mr. DeFazio. And, Dr. Franklin, 
thank you, because a lot of those are forests that are in my 
district. When I was first running for this office, I went on a 
forest tour out in the Deschutes, and they were showing us how 
they were--that the forest we were in was being managed in 
theory for, I think, last succession--old growth 
characteristics of ponderosa pine. And so that on the one hand, 
they were describing what the forest should look like and 
showed us a photo from, I think, the 1920s of a car sort of 
driving through, a savannah type scene with just grass 
underneath, and then these big old growth ponderosa. And then 
what we were seeing when we got out of the bus and got out 
walking around was all this white fir and other fir coming up 
in it. And I said, now, I am confused, because you just told us 
it should look like this, and yet it looks like that. And they 
sort of threw up their hands and admitted that was a problem.
    I was just up on a proposed thinning project up on Mount 
Emily outside of LeGrand, the same deal. And the people who 
were appealing that fuels reduction project are doing it based 
on diameter size, which you have just testified isn't 
necessarily the way to manage these old growth forests. We 
appreciate that.
    Dr. Franklin. I don't think that that is the best way to 
approach restoration.
    Mr. Walden. It seems arbitrary. We ought to be managing for 
the stand that is supposed to be there, historically was there. 
Isn't that more accurate?
    Let me turn to Mr. Kane. Why has the agency's response to 
2003 blowdown on the Allegheny National Forest taken longer 
than the response to the 1985 event?
    Mr. Kane. That is an interesting question, and I would tend 
to say that there's--with more pressure on the National Forest 
System for multiple uses other than primarily timber, in 1985 
there was still a very active timber program on the Allegheny 
National Forest, an at that time the timber program produced 
somewhere in the vicinity of about 70 million board feet a 
year, was their ASQ. In 2000, that was down to about 10. They 
just didn't have the staff, and they didn't have the resources, 
because if you couple--what we have been told on the Allegheny 
is, as you mentioned, borrowing from funds to take care of the 
fire issue, a lot of those management monies went to fires, as 
I understand it, and they didn't have the resources to address 
it. Also, there has been more challenges nationwide on our 
National Forest System and their practices by other individuals 
and groups that slows that process where they tend to get 
caught up in, you know, preparation of policy and analysis of 
what they do rather than knowing--we generally know what to do 
in short term, but to document it and to do the traditional 
long-term--as you mentioned earlier with the BLM, a page of 
environmental assessment for every acre of treatment. It tends 
to slow the process immeasurably.
    Mr. Walden. And with the funding problem we face, then, if 
we lose the economic benefit of salvaging some of this timber, 
then that money is not available to engage in some of the 
restoration work that needs to be done, clearly.
    Mr. Kane. In fact, you will notice today I've danced around 
economics. The Allegheny National Forest is the most valuable 
forest in Region 9, and truly one of the most valuable national 
forests in America. The timber values on that forest, 
individual trees can be worth up to--the trees like I showed in 
my slide--not every tree. I have to qualify, not every tree, 
but individual trees in that forest can be worth in excess of 
$10,000 per tree, and values in excess of $10,000 an acre are 
not uncommon if you check the Forest Service----
    Mr. Walden. Ten thousand dollars an acre?
    Mr. Kane. An acre for salvage--for the timber that's on an 
acre. An individual tree can be, but it's not uncommon for an 
acre of timber to be worth in excess of $10,000. So the 
economic factor is significant. I'm hesitant to bring that up. 
I'd rather stick to the science because the economics are 
pretty straightforward.
    Mr. Walden. All right. And, Dr. Schlarbaum, I just want to 
point out for the committee--and we may send this around 
separately. Your explanation of reforestation funding is 
probably the most thorough and yet succinct that we have seen, 
so we appreciate the work that you have put into this.
    In the South, what happens after a catastrophic event like 
a blowdown if human intervention is not undertaken?
    Dr. Schlarbaum. Well, the timber will degrade quite 
rapidly. In fact, with the southern pine beetle hitting these 
pine stands, if you do not get in there and salvage within a 
year, usually it's too late. In fact, they won't even burn.
    Mr. Walden. Do you have examples of--much more of your 
lands are privately held, I assume, than those of us in the 
West.
    Dr. Schlarbaum. Yes.
    Mr. Walden. But what does it look like between the private 
and the Federal lands when there is a blowdown? What do you see 
as differences in the way they are then managed?
    Dr. Schlarbaum. Well, again, assuming there is not a market 
saturation, the private landowner would immediately move to 
salvage that timber and then regenerate the stand.
    Mr. Walden. OK. And the public landowner?
    Dr. Schlarbaum. Well, the public landowner, you know, you 
would have to do an EA if you wanted to do a large salvage 
sale, over 250 acres generally on national forest, and those 
are subject to litigation.
    Mr. Walden. OK. My time has elapsed. I recognize my 
colleague from South Dakota.
    Ms. Herseth. Thank you, Mr. Chairman. And thank you to each 
of you for your statements and for your presence here today and 
answering some important questions in a very important area, 
regardless of what region of the country we are from and 
districts that we represent.
    You may have heard me speak with the earlier panel that in 
South Dakota we have the Black Hills National Forest. We have 
experienced not only wildfires that are exacerbated by drought 
conditions in the western side of the State but pine beetle 
epidemics as well. And we have had a series of litigation that 
has been somewhat minimized here in the last couple of years 
based on the advisory group that was formulated about a handful 
of years ago. And I just want to open up a couple of questions 
to any of you that want to respond, but, Dr. Franklin, I 
couldn't agree more with your assessment based on what we have 
heard today from the GAO's report as well as the testimony from 
those in the earlier panels that we need some sort of more 
comprehensive reevaluation within the Forest Service, an 
ability to collect this data that will help guide us in the 
policies as well as these funding priorities that are necessary 
for the health of our forests across the country as it relates 
to regeneration, the reforestation and stand improvement 
issues.
    So I agree with you there, and I think it is important that 
we do that in a way that can then collect regional and forest-
specific data. Let's see. Whose report here--I think it is, Mr. 
Kane, your statement indicates that the Allegheny Hardwood 
Forest type is a unique forest ecosystem. That is commonly how 
we talk about the Black Hills National Forest, as being a 
unique ecosystem. Did you want to respond? You have heard that 
before, I suppose.
    Mr. Kane. Yes, I think we--that brings up a very 
interesting point. The Black Hills is a unique ecosystem, as is 
the Allegheny, which shows the importance of giving the local 
managers responsible for that forest the opportunity to 
practice the silvicultural techniques necessary to manage that 
forest.
    Ms. Herseth. Thank you. Again, it is the local and unique 
characteristics of each of our forests that highlights the 
importance of collecting data in a systematic way with 
standardized criteria that takes into account what those 
measures and methods are and the local importance of those that 
can then help inform the Forest Plans. And if we had a way to 
collect this data more efficiently, it might help make the 
whole Forest Plan development process more efficient as well.
    But let me just throw these questions out to any of you. We 
have the benefit in the Black Hills of still having some 
infrastructure for our timber industry and the economic 
importance for jobs there. And I have worked closely with the 
association that works also quite closely with the Forest 
Service in addressing the predictability and stability of the 
harvest and of the ASQ that is necessary to sustain those mills 
and other businesses.
    But something that is of importance to all of us and that 
the association has been involved with in our neighboring State 
of Wyoming as well is what informs the Forest Plan in a variety 
of other areas. And so if you could just share some of your 
thoughts on the ecological importance of maintaining species 
diversity, structural diversity, and age class diversity when 
reforesting an area as well, and then any thoughts that you 
have on the role of disturbance, whether it is wildfires, 
blowdown, or pine beetle epidemics and natural regeneration. If 
any of you or if all three of you want to respond, if one of 
you wants to take the lead in either of those areas.
    Dr. Schlarbaum. I will just say something about the 
importance of making sure that you get the appropriate seed 
source if you are going to artificially regenerate or plant 
those areas. You want to make sure that your seed source is 
local or if you have an orchard, they are from the Forest 
Service's Regional Genetics Resources Program that is 
constructed from materials that have been tested. Otherwise, if 
you buy just any seedlings off the market, they may not be 
adapted to 2-year force in the short term or the long term, and 
sometimes you can get trees that will live that aren't 
particularly productive, but they will go ahead and pollinate 
your more native local genotypes and lower the overall fitness 
of your forest. So pay close attention to your seed source when 
you reforest.
    Mr. Kane. Uniquely, on the Allegheny Plateau, nearly all of 
our regeneration is natural regeneration through silvicultural 
practices. So we don't have the concern for the genetic purity 
because it is already there. We are using native trees for our 
regeneration.
    The important thing for us, as you saw from my 
presentation, is that we need more--we may need more structural 
diversity that our lower canopy has been really inhibited by 
man's influence over a hundred years of policy on white-tailed 
deer management in Pennsylvania that causes a problem, and also 
that it affects our species diversity. We are often accused by 
people in our management schemes that we are managing, again, 
as I mentioned earlier, for the black cherry monoculture. That 
could not be further from the truth. It is the strength of the 
tree's survival and the influence of man, again, going back to 
the white-tailed deer problem, that deer are preferential 
browsers, just like we are, that they prefer other species 
above the cherry, and it just so happens that areas that were 
harvested in the 1930s and 1940s when the deer herd was quite 
high actually are almost all cherry monocultures.
    So all those outside factors affect it, which shows the 
importance of why we need, you know, good professionalism and, 
I would say, a history of individuals on a forest. It is very 
difficult to understand--you know, you can understand general 
silviculture, but I will be honest with you, as a forester, I 
guess I'm considered an expert on the Allegheny Plateau. But I 
wouldn't attempt to come out to the Black Hills and try to 
manage your forest.
    Ms. Herseth. Is that a general--excuse me just a second. I 
want to follow up. Is that a general assessment that you are 
offering perhaps on policy and procedure within the Forest 
Service and the moving around of various supervisors and other 
officials?
    Mr. Kane. That is, yes, ma'am.
    Ms. Herseth. OK. Thank you.
    Dr. Franklin. Well, it is always difficult to give general 
guidance for somebody else's backyard, but in general, the 
biological diversity is important, and a lot of it you won't 
even be aware of, you won't even see, because it's things like 
the fungi in the ground that form the mycorrhizal relationships 
with the trees. So diversity is important. Probably structural 
complexity is the best way to have an index to that, a 
reference to that. So structural complexity is probably your 
simplest measure of how well you're doing on diversity. I would 
just suggest that probably over half, perhaps as much as two-
thirds of the animal diversity in your forest system--and that 
means both vertebrates and invertebrates--is probably 
associated with deadwood. So deadwood is a very, very component 
of those systems.
    The last thing I would suggest to you is don't--you 
mentioned the issue of different age classes or different 
successional stages of forest. Do not deceive yourself that a 
clear cut is anything like a natural young stand. Natural young 
stands have high levels of structural complexity. One of the 
things they have in them typically is a lot of residual 
deadwood. That is one of the reasons why they work much 
differently than a clean cut does in terms of providing for 
things like biodiversity.
    Mr. Walden. Go ahead, Dr. Schlarbaum.
    Dr. Schlarbaum. In terms of some historical references, 
South Dakota State put out a publication--and you may or may 
not have seen it--of photos from the Custer expedition. Have 
you seen this publication?
    Ms. Herseth. I have, and I would encourage--I will get you 
a copy, Chairman, because it is fascinating to see during the--
all of these photos document during Custer's expedition and the 
growth of the forest. As you know, the ponderosa pine 
regenerates itself tremendous quickly, and given the population 
of the hills since Custer's expedition--and we were talking 
about the urban-wildland interface, and the patchwork of 
private-public property there. So I am pleased that you 
mentioned that because I think it is very informative and 
instructive.
    Mr. Walden. Can you outline it for me?
    Dr. Schlarbaum. Well, it is a publication that--they 
noticed the Custer expedition, he was--what was he? He was up 
there looking for gold or--he was doing--I can't remember 
exactly what he was looking for.
    Ms. Herseth. Unfortunately, it may have been something 
involving poor policy on our part with Native Americans. But 
there was an expedition that actually found the gold, that 
discovered--that was not--the primary purpose was actually to 
map out the area, combined with some of the other missions 
within the Army, and then they discovered gold at that time.
    Dr. Schlarbaum. But they took a number of photos and then 
some people came back 100 years later from South Dakota State 
University, rephotographed the exact spots--I mean, you can see 
the same rocks, rock formation, even some dead trees that are 
there. And I use it--and I teach a history of forestry class, 
and I use that as an example. And it is striking that if you 
look at the difference between 100 years, there are more trees 
now than there were.
    Mr. Walden. All right. Well, I appreciate the testimony 
from all of our witnesses today, and especially you all who 
have hung out with us until the end here. Thank you for your 
comments, your counsel. It is appreciated. Obviously people 
come at this issue with different views, and that helps us in 
some respects, makes our job harder in others. But hopefully we 
will get it right and, again, we thank you for your testimony, 
your time, and your service.
    The record will stay open for 10 days. If members of the 
committee who were unable to be with us today have questions, 
we would appreciate your getting back to us. Otherwise, all the 
testimony today and the statements of our members will be put 
in the record.
    [Additional information submitted for the record follows:]
    [A letter submitted for the record by Dale E. Anderson, 
President, Pennsylvania Forest Industry Association, follows:]

Mr. Doug Crandall, Director
House Resource Committee
Subcommittee on Forests and Forest Health

    The four attachments included here are the recent pleadings from 
the lawsuit before the District Court for the Western District of 
Pennsylvania, civil case #04-1466.
    This case was brought by the Allegheny Defense Project against the 
U.S. Forest Service, Allegheny National Forest.
    These types of cases consume a huge amount of resources from both 
the government and private sector.
    They result in the destruction of the forest.
    They wreck the local custom, culture, and economy.
    These types of lawsuits are unfair to the local residents.
    These types of lawsuits benefit only the non-profits who bring them 
against the government due to the effect of the Equal Access to Justice 
Act.
    A way needs to be found to curb this type of favoritism.
    Please include these comments, and these attachments, in the record 
of the House Resources Subcommittee on Forest and Forest Health hearing 
as held on Wednesday, 27 April 2005.

Dale E. Anderson
President
Pennsylvania Forest Industry Association
415 Washington Street
Ridgway, Pennsylvania 15853
(814) 776-1883

NOTE: Attachments have been retained in the Committee's official files.
                                 ______
                                 
    [A statement submitted for the record by Michelle Dennehy, 
The Forest Foundation, follows:]

        Statement submitted for the record by Michelle Dennehy, 
                         The Forest Foundation

  GREATER REFORESTATION EFFORTS NEEDED SAY FOREST FOUNDATION, FOREST 
                            SERVICE RETIREES

  Call Comes as Nation Prepares to Mark Arbor Day on Friday, April 29

    AUBURN, Calif., April 27, 2005--Forests on federally owned lands in 
California wiped out by wildfires are not being replanted quickly--or 
at all, in some cases--putting ecosystems at risk from severe erosion 
and mudslides and depriving future generations of forests, two groups 
said today.
    Nearly four years after fires burned more than 117,000 acres in 
California forests in 2001, a survey by The Forest Foundation found 
that only about 28 percent of severely burned forest land designated by 
the Forest Service for replanting has actually been replanted.
    The National Association of Forest Service Retirees (NAFSR) and The 
Forest Foundation, an organization dedicated to educating the public 
about our forests, today urged the Forest Service to speed replanting 
efforts to ensure forests for future generations.
    ``As we celebrate National Arbor Day April 29, the Forest Service 
cannot do what is necessary to ensure forests for future generations 
because their hands are tied by burdensome regulations and a lack of 
funding,'' said Dr. Tom Bonnicksen, a visiting scholar with The Forest 
Foundation and a professor emeritus of forest science at Texas A&M 
University. ``Rather than replanting trees, these once majestic forests 
stand burnt and dead, and some are turning into brushfields.''
    ``Replanting is key to ensuring our state's forests stand tall for 
generations to enjoy,'' said Doug Leisz, Chairman of the National 
Association of Forest Service Retirees (NAFSR) who served as U.S. 
Forest Service Associate Chief from 1979-1982 and California's Regional 
Forester from 1970-1978. ``During my tenure with the Forest Service, we 
actively replanted soon after fires, before competing brush took over. 
The delays experienced by the Forest Service spell disaster for our 
future forests.''
    The Forest Foundation's survey found that of the 117,907 acres in 
California's forests burned in 2001, the Forest Service determined 
30,372 acres of their land experienced a high-severity fire and needed 
replanting. The Forest Foundation surveyed results on 10,647 of these 
acres where information was available and found that only 3,011 acres--
or about 28 percent--had been replanted to date. Only 1,541 more acres 
are planned for replanting, meaning only about 43 percent of the area 
identified as needing reforestation will ever be replanted.
    While the Forest Service's reforestation efforts focus only on 
high-severity burns only, experts believe some moderately-burned areas 
also need active attention and replanting, as many trees in these areas 
will also die.
    Historically, natural, low-intensity wildfires helped create forest 
clearings and ecological conditions conducive to forest regeneration. 
But after a century of public policy mandating fire suppression, and a 
lack of forest management practices that reduce fuels, forests have 
grown overcrowded. The resulting buildup has led to catastrophic 
wildfires in recent years--fires that often degrade soil quality and 
destroy forests so completely that regeneration likely will take 
hundreds of years.
        ``These monster fires of extreme heat kill seed trees over vast 
        areas, making it difficult or impossible for living trees to 
        spread seeds widely enough to generate a new forest,'' Dr. 
        Bonnicksen said. ``Meanwhile, other competitive plants that 
        thrive in post-fire environments, like manzanita, can quickly 
        overtake an area and delay regeneration of conifer trees for 
        centuries.''
    These areas that cannot regenerate naturally need a helping hand, 
the Forest Foundation found. But the Forest Service faces delays or 
obstruction of its efforts to restore burned areas.
    For example, the McNally Fire in 2002 burned more than 150,000 
acres in the Giant Sequoia National Monument and the Sequoia and Inyo 
National Forests. While the Forest Service found 8,400 acres of conifer 
forest needed replanting, only 4-5,000 acres are likely to ever be 
replanted. Almost three years after the fire, no replanting has been 
accomplished to date due to delays caused by environmental 
documentation requirements. The delay has allowed brush to overtake 
some areas.
    In the Megram Fire of 1999, which burned 59,200 acres in the Six 
Rivers National Forest, only 1,508 of the 3,000 acres the Forest 
Service planned to replant have, in fact, been replanted. Portions of 
what was once a magnificent conifer forest of Douglas-firs and other 
trees are becoming brush.
    While severely burned public lands haven't been replanted, private 
forestland owners quickly removed dead trees and fuels, using the value 
of the wood to fund the replanting of a new forest. These private 
landowners replant in ways that enhance environmental values and 
accelerate forest regeneration.
    After the 2000 Storrie fire in Plumas and Lassen Counties, local 
private land manager W.M. Beaty and Associates removed dead trees and 
fuels on the 3,200 acres it managed that burned in the fire. Its 
reforestation efforts, including the planting of nearly one million 
trees, were completed by 2004. Some trees in this young, mixed conifer 
forest are now 4-5 feet tall.
    In contrast, on public land at the Lassen National Forest, of the 
estimated 27,000 acres burned on the in the Storrie fire, only about 
1,206 acres will be treated with fuels removal efforts and only 230 
acres will be replanted. More than four years after the Storrie fire, 
only 171 acres have been replanted
        ``Although some natural regeneration is occurring, Lassen and 
        other national forests are in need of active replanting,'' said 
        Doug Leisz. ``Without this replanting, generations of 
        Californians stand to miss out on the forest grandeur we now 
        take for granted.''
    Note: Photos of forests turning to brush are available by 
contacting Michelle Dennehy at The Forest Foundation, tel. 530 823 
2363, email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d10193d1e1c111b120f180e090e53120f1a53">[email&#160;protected]</a>
About The Forest Foundation
    The Forest Foundation is a non-profit organization that strives to 
conserve our forests and keep them healthy by sharing the knowledge of 
forestry experts with the public. Based in Auburn, Calif., its programs 
include scientific research, community outreach, education programs, 
and forestry exhibits. For more information, visit 
www.calforestfoundation.org.
About the National Association of Forest Service Retirees (NAFSR)
    The National Association of Forest Service Retirees is a national, 
nonprofit organization of former Forest Service employees and 
associates who possess a unique body of knowledge, expertise and 
experience in the management of the National Forests and other 
forestland. NAFSR members strive to contribute to the understanding and 
resolving of natural resource issues through periodic review and 
critiques of agency policies and programs. For more information, visit 
http://www.fsx.org/nafsrpg.html.
Contact:
Michelle Dennehy, The Forest Foundation
www.calforestfoundation.org or Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="137e775370727f757c61766067603d7c6174">[email&#160;protected]</a>
tel. 530 823 2363, cell 530 320 6732
   replanting on our national forests after 2001 fires in california
Craater Fire
    <bullet>  Inyo National Forest
    <bullet>  5,600 acres burned; 800 identified as needing 
reforestation
    <bullet>  Approx. 400 acres were replanted
    <bullet>  Obstacles: Remaining 400 aces located in Mono Basin 
Scenic Area and manager decided not to replant by hand.
Darby Fire
    <bullet>  Stanislaus National Forest
    <bullet>  14,288 acres burned; 2,096 acres identified as needing 
reforestation
    <bullet>  No replanting to date and none planned. Some natural 
regeneration occurred.
    <bullet>  Obstacles: No funding available.
Gap Fire
    <bullet>  Tahoe National Forest
    <bullet>  2,462 acres burned; 1,100 acres identified as needing 
reforestation
    <bullet>  1,020 acres planted to date; 80 more acres planned
Hyampom Fire
    <bullet>  Shasta-Trinity National Forest
    <bullet>  1,065 acres burned; 172 acres identified as needing 
reforestation
    <bullet>  No acres planted to date; 121 acres planned
    <bullet>  Obstacles: Environmental planning process caused delay; 
sale of dead material offered one year after fire was unsuccessful.
Highway Fire
    <bullet>  Sequoia National Forest
    <bullet>  4,150 acres burned; 150 acres identified as needing 
reforestation
    <bullet>  150 acres replanted
McLaughin Fire
    <bullet>  Inyo National Forest
    <bullet>  2,407 acres burned; 150 identified as needing 
reforestation
    <bullet>  None replanted
    <bullet>  Obstacles: No seed stock available to plant. The area was 
also located on a steep slope that would make replanting difficult.
Modoc Complex
    <bullet>  Several fires in Modoc National Forest
    <bullet>  2,900 acres burned in Bell Fire, 332 acres identified as 
needing reforestation
    <bullet>  186 acres replanted
    <bullet>  Obstacles: Survival of trees planted is questionable 
because site was not prepped by removing dead trees and other fuels. 
Dead trees are likely to fall on top of new seedlings over next 
decades, creating a hazardous fire situation. Several removal sales 
attempted but wood had deteriorated and no longer held value.
North Fork
    <bullet>  Sierra National Forest
    <bullet>  4,132 acres burned; 430 acres identified as high-severity 
burned areas that could be reasonably replanted. Many other acres 
received high-severity fire effects.
    <bullet>  Approx. 250 acres replanted where managers were able to 
remove dead trees and fuel; another 70 acres planned over the next 
year. Of remaining acres, 130 likely to remain unplanted, as dead tree 
removal was delayed until material worthless. Planting without fuels 
removal would create fire hazard.
Oregon Fire
    <bullet>  Shasta-Trinity National Forest
    <bullet>  1,720 acres burned; 197 acres identified as needing 
reforestation
    <bullet>  20 acres have been replanted; no other treatment planned.
    <bullet>  Obstacles: Planning process took 13 months to complete, 
during which value of wood to fund removal and replanting was lost.
Sand Prescribed Burn
    <bullet>  Inyo National Forest
    <bullet>  100 acres burned; 100 identified as needing reforestation
    <bullet>  100 acres planted
Star Fire
    <bullet>  Tahoe and Eldorado National Forests
    <bullet>  On the Tahoe, where 9,500 acres burned, 5,000 acres 
identified as needing reforestation.
    <bullet>  835 acres replanted to date; another 1,200 acres planned. 
Some natural regeneration occurring, though with white fir only in what 
was formerly a mixed conifer forest.
    <bullet>  Obstacles: Removal of some trees was stalled by 
litigation, so the trees lost any value to fund replanting efforts. 
Acres not replanted have too much fuel already on the ground; competing 
brush, vegetation in area also problematic.
White Fire
    <bullet>  Stanislaus National Forest
    <bullet>  120 acres need replanting
    <bullet>  50 acres replanted to date; remaining 70 acres to be 
planted in 2006.

    NOTE: Pictures attached to The Forest Foundation's statement have 
been retained in the Committee's official files.
                                 ______
                                 
    [A letter submitted for the record by George Sexton, 
Conservation Director, Klamath Siskiyou Wildlands Center, 
follows:]

May 5, 2005

House Committee on Resources
Subcommittee on Forests and Forest Health

Re:  Oversight Hearing on Reforestation on National Forests: A GAO 
Report on the Increasing Backlog

    Please accept these comments from the Klamath-Siskiyou Wildlands 
Center regarding reforestation efforts conducted by the Bureau of Land 
Management (BLM) pursuant to the Timbered Rock fire of 2002. We feel 
compelled to offer the following comments to the Subcommittee in order 
to clarify, and refute, some of the contentions made by Mr. Ed Shepard, 
Assistant Director of Renewable Resources and Planning for the BLM to 
this Committee on April 27, 2005. As the small non-profit forest 
defense group that took the lead on the administrative protest and 
litigation that ultimately halted the illegal Timbered Rock salvage 
logging, we have significantly different observations and thoughts 
regarding the actual relationship between salvage logging and 
reforestation than was presented to this committee by the BLM.
    We believe that it is important for this committee to know that 
while a federal court halted the aggressive and illegal salvage logging 
at Timbered Rock, that BLM restoration efforts in the burn area have 
proceeded has planned. It is inappropriate, and inaccurate, for the BLM 
to imply to this committee that the court order preventing large-
diameter (old-growth) logging in the Elk Creek Late-Successional 
Reserve somehow prevented the accomplishment of re-forestation efforts. 
Indeed the BLM wrote an Environmental Assessment (EA Number OR ``110-
03-08) specifically authorizing 6,600 acres of tree planting in the 
Timbered Rock burn area that was separate and distinct from the 
proposal to log trees in the Reserve. The EA covering reforestation was 
written, signed, and implemented months before the illegal Timbered 
Rock EIS was completed or litigated. The re-forestation EA was not 
subject to administrative protest or litigation, and the BLM is free to 
implement all proposed tree-planting activities.

Were Restoration Activities Halted or Slowed at Timbered Rock?
    No. Not in the slightest.
    In November 2002, long before the Timbered Rock Logging EIS was 
complete, the BLM issued the Timbered Rock Rehabilitation/Stabilization 
Environmental Assessment, authorizing thousands of acres of tree-
planting in the project area. That Environmental Assessment was never 
protested, or appealed, and many of the rehabilitation efforts 
authorized in that EA were implemented with widespread community 
support.
    Further, upon release of the Timbered Rock Logging EIS, the BLM 
split the project into several Records of Decision (RODs), which 
authorized various actions across the forests. One of these RODs 
authorized road maintenance, road closures and further tree planting. 
This ROD was not protested or litigated and the BLM is free to 
implement it whenever the agency so desires.
    Unfortunately, the activities authorized under the ``restoration 
ROD'' were mere sideboards to the large-diameter (average 26 inches 
DBH) old-growth logging of the Elk Creek Late-Successional ``Reserve''. 
By authorizing the proposed restoration activities in a separate 
decision from the ROD containing the destructive large-diameter 
logging, the BLM wisely allowed the less controversial portions of the 
project to proceed without administrative or legal challenges. Yet Mr. 
Shepard inexplicably told this Committee that litigation (preventing 
the logging of the reserve) ``delayed implementation of the salvage and 
other restoration activities.'' The BLM is simply wrong about this. 
Hopefully the BLM was not trying to mislead this committee.
    The plaintiffs' administrative protest and legal complaint, as well 
as Judge Aiken's ruling, all clearly state that the only activity being 
protested, or enjoined, was the illegal Late-Successional Reserve 
logging of large diameter snags from the ``reserve'' proposed in the 
Flaming Rock and Smoked Gobbler timber sales. No restoration, or 
reforestation efforts for this project were ever administratively or 
legally challenged. Most, if not all, of the restoration and 
reforestation activities outlined in both the EA and the restoration 
ROD have already been implemented.

Why Was the Timbered Rock Salvage Logging EIS Litigated?
        ``This EIS does not claim that there is an ecological benefit 
        to salvage logging.''
          Medford BLM, Timbered Rock FEIS at page 5-16.
    Mr. Shepard's testimony left out many salient facts regarding the 
proposed Timbered Rock salvage logging. In particular, no mention was 
made of the fact that all of the proposed salvage logging would have 
occurred within forests set aside for protection as the Elk Creek Late 
Successional Reserve (LSR). These reserve lands were protected by the 
Northwest Forest Plan, while other lands, known as the timber matrix, 
were identified as those forests in which logging, replanting and fiber 
production would play a dominant role. None of the lands proposed for 
logging in the Timbered Rock EIS were matrix logging lands. All of the 
lands proposed for logging in the planning area were classified as 
Late-Successional Reserves. Nowhere in Mr. Shepard's testimony will you 
find reference to the term ``Late Successional Reserve.'' Indeed, the 
BLM is conspicuously silent as to the protective status that governs 
management of this delicate watershed.
    Other words that do not appear in Mr. Shepard's testimony include 
the terms ``deferred watersheds'', ``key watersheds'' and ``critical 
habitat.'' While the BLM may not wish to highlight these words, they 
are relevant in that the illegal Timbered Rock salvage logging would 
have occurred within forests designated by the U.S. Fish and Wildlife 
Service as critical to the recovery of the Northern Spotted owl, found 
in watersheds that were designated as key to the maintenance of healthy 
salmon runs, which were deferred from logging by the BLM due to the 
immense cumulative impacts from prior BLM logging and road construction 
activities in the watersheds. Simply put, the Timbered Rock planning 
area is one of the most environmentally sensitive, and protected, 
watersheds in Oregon. But for the Timbered Rock fire, the BLM could not 
have proposed large-scale logging in this watershed. Please see the 
photo attachment for an image of the cumulative effects of road 
building on the Elk Creek watershed.

Plantations in the Planning Area Act as Fire Bombs
    While there is no court order, law or regulation that prevents the 
BLM from creating more plantations in the Timbered Rock planning area, 
it might be wise for the agency to avoid creating further tree 
plantations by its own volition.
    Following the Timbered Rock fire, the Oregon Department of Forestry 
conducted a damage appraisal report for Timbered Rock which found that 
100% of the young plantations burned with stand replacing intensity, 
while less than 10% of the big old growth trees burned intensely. Stand 
mortality on the Medford BLM land that was located in the nearby 
Biscuit fire showed very similar results to Timbered Rock in that 81% 
of plantations and 33% of forested stands experienced moderate to high 
burn severity according to the BLM (November 8, 2002 Press Release from 
BLM).
    Unfortunately the BLM timber sales at both Biscuit and Timbered 
Rock targeted the biggest trees while neglecting to thin the dense 
young fiber plantations. The average tree marked for logging in the Elk 
Creek Late-Successional Reserve was about 26-inches in diameter, over 
two feet wide. A 26-inch average DBH indicates that the timber sale 
focuses exclusively on taking old-growth trees. Here in Southern 
Oregon, the BLM contended in Medford Mail Tribune newspaper (Timber 
plan draws cheers, jeers 2/11/04) that the focus of its logging at 
Timbered Rock ``would be on smaller trees, not the largest ones.'' 
Unfortunately that statement was not reflected in the actual logging 
prescription developed by the BLM. In fact, all of the 24 million board 
feet of salvage at Timbered Rock would have come from snags over 16 
inches in diameter. In other words, only the largest, most valuable 
wildlife snags were proposed for logging. The smaller burned material 
will simply be left on site as a continuing fire hazard.
    We at the Klamath-Siskiyou Wildlands Center (KS Wild) estimate that 
well over 500,000 acres of native old-growth forests in Southwest 
Oregon and Northern California have already been converted into small-
diameter fiber plantations on our public lands. Similarly, the Medford 
BLM recently stated that over 770,000 acres of our public forestlands 
contain trees less than 12 inches wide that could be thinned. It is 
high time for the BLM to turn its focus toward managing those fiber 
plantations that it has already planted, rather than continuing to 
convert large-diameter forests into small-diameter fiber plantations.

BLM Math Tricks
    For the committee to understand the complex and controversial 
issues surrounding post-fire management activities on federal lands, it 
is essential that you be provided with accurate information from the 
federal land management agencies. Unfortunately Mr. Shepard's testimony 
relies on many figures that are simply not accurate reflections of the 
BLM's aggressive plans to log the Elk Creek LSR following the Timbered 
Rock fire.
    Mr. Shepard submitted to the committee that the BLM intended to log 
``approximately 17 mmbf of burned, but still merchantable, timber on 
approximately 800 acres (8 percent of the burned area.'' In fact the 
timber sale prospectus for the Smoked Gobbler and Flaming Rock timber 
sales called for logging over 24 mmbf, in order to assure that at least 
17 mmbf made it to the mill. While the BLM may choose to only ``count'' 
those trees that make it to the mill, it understates the impacts of the 
logging by refusing to disclose the actual amount of forest to be 
felled.
    Mr. Shepard's 800-acre figure is equally dubious. He neglects to 
mention to the committee that the roadside-logging portion of the 
proposal would open up an additional 1,000 acres of the Elk Creek Late-
Successional Reserve for salvage logging on top of the 800 acres of 
``area salvage logging''. Similarly, the 800-acre figure ignores the 
more than 2,500 acres of proposed green tree logging authorized by the 
Timbered Rock EIS which is not defined as ``salvage.'' To contend that 
the Timbered Rock timber sales would only impact 800 acres of small 
diameter trees is misleading at best and dishonest at worst. In fact, 
the BLM is attempting to log the very largest burned trees and a 
significant number of unburned green trees within the old-growth 
reserve.

Compromise and Collaboration
    Mr. Shepard neglected to inform the committee that approximately 
6,000 acres of privately owned industrial timber industry lands within 
the burn have been salvage logged and are being managed exclusively for 
fiber production. Additionally, before the burn the BLM had converted 
5,400 acres of native forest within the Elk Creek watershed into fiber 
plantations. Approximately 80% of forest stands in the area have 
already been subjected to logging. The Elk Creek watershed has already 
done more than its part to supply our nation's wood fiber needs. Yet 
the BLM seems intent on proposed to log the remaining forests 
supposedly protected as a Late-Successional Reserve in a watershed that 
has experienced extreme cumulative impacts from past logging 
activities.
    Further large-diameter logging in this watershed would not provide 
``balance'' nor would it aid in BLM restoration activities. By 
attempting to blur the lines between the controversial practice of 
salvage logging in a Late-Successional Reserve, with the agency's 
efforts to conduct re-planting and other restoration activities, the 
BLM does the public, the forest, and this committee a disservice.
    The BLM can help resolve the controversy surrounding post-fire 
management by truly focusing its activities on restoration of burned 
stands and small-diameter thinning of green stands, while abandoning 
its obsession with logging large trees and snags within old-growth 
``reserves'' located in sensitive watersheds. It is irresponsible of 
the BLM to use the forum provided for it by this committee to push its 
old-growth logging agenda.

Sincerely,

George Sexton
Conservation Director
Klamath Siskiyou Wildlands Center
PO Box 102
Ashland, OR 97520
(541) 488-5789
                                 ______
                                 
    Mr. Walden. And, with that, we are adjourned.
    [Whereupon, at 4:55 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
